<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-282]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-282
 
                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                       S. 86                                 S. 1961

                       S. 1365                               S. 1991

                       S. 1449                               S. 2098

                       S. 1921                               S. 2220

                       S. 1941                              H.R. 1191





                               __________

                            NOVEMBER 8, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources



                     U.S. GOVERNMENT PRINTING OFFICE

40-674 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Burr, Hon. Richard, U.S. Senator From North Carolina.............    16
Dorgan, Hon. Byron L., U.S. Senator From North Dakota............    21
Holtrop, Joel, Deputy Chief, Forest Service, Department of 
  Agriculture....................................................    14
Kennedy, Hon. Edward M., U.S. Senator From Massachusetts.........     2
Lincoln, Hon. Blanche, U.S. Senator From Arkansas................    21
Potter, Tracy, President, Northern Plains Heritage Foundation, 
  Mandan, ND.....................................................    24
Salazar, Hon. Ken, U.S. Senator From Colorado....................     2
Sparks, George, President & CEO, Denver Museum of Nature and 
  Science, Denver, CO............................................    34
Steed, Ron, Project Manager, R and W Excavating, Hildale, UT.....    31
Stevenson, Katherine H., Acting Assistant Director, National Park 
  Service, Department of the Interior............................     4
Wichman, Chipper, Jr., Director and CEO, National Tropical 
  Botanical Garden, Kalahoo, HI..................................    38

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    65


                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. The Subcommittee on National Parks will come 
to order. Good afternoon, everyone. The Subcommittee on 
National Parks is happy to have all of you here this afternoon.
    We'll receive testimony on 10 different bills, including 
the following: S. 86, to designate segments of Fossil Creek in 
the State of Arizona as a wild and scenic river; S. 1365 to 
authorize the Secretary of the Interior to enter into 
cooperative agreements with the management and partners of the 
Boston Harbor Island's National Recreation area in 
Massachusetts; S. 1449 to establish the Rocky Mountain Science 
Collection Center in Colorado; S. 1921, to extend the 
authorization of the American Battlefield Protection Act of 
1996; S. 1941, to authorize a study of the Wolf House in 
Norfolk, Arkansas to determine its suitability and the 
feasibility of designating this site as a unit of the National 
Park System; S. 1961, to expand the boundaries of the Little 
River National Preserve in Alabama; S. 1999, to authorize a 
study to determine the suitability and feasibility of extending 
the Louis and Clark National Historic Trail, to include 
additional sites associated with the preparation and return 
phases of the Lewis and Clark expedition; S. 2098, to establish 
the Northern Plains National Heritage Area in North Dakota; S. 
2220, to authorize appropriations for the National Tropical 
Botanical Gardens; and H.R. 1191, to authorize the National 
Park Service to pay for services provided by certain 
subcontractors for work performed at Grand Canyon, a National 
Park.
    I believe that most of the bills on the agenda today are 
non-controversial. However, the Department of Interior has 
submitted testimony opposing several of the bills, so we will 
need to discuss these concerns in a few minutes.
    One of the bills on the agenda today is S. 2220, 
legislation that I introduced, along with Senator Inouye, 
Senator Martinez and Senator Bill Nelson. S. 2220 would 
authorize limited appropriations for the National Tropical 
Botanical Gardens, which are located in Hawaii and Florida.
    The Gardens were congressionally chartered in 1964, and 
provide valuable research, preservation of many rare species, 
as well as greatly improving our knowledge of tropical region 
ecosystems.
    Hawaii has more threatened or endangered species than any 
other State in this country. The information and resources 
provided by the National Tropical Botanical Gardens is 
essential to help us understand how to protect these resources, 
to ensure the survival of our unique tropical environment.
    Although the Gardens will continue to rely primarily on 
funding from non-Federal sources, S. 2220 will authorize a 
relatively small amount of funding, as a match to assist the 
Gardens with it important mission. I'm pleased that Chipper 
Wichman, the Director and CEO of the Botanical Garden was able 
to come in from Hawaii and to be here today, and I look forward 
to hearing from him, later this afternoon.
    At this time, I'd like to recognize Senator Salazar for his 
opening statement.
    Senator Salazar.
    [The prepared statement of Senator Kennedy follows:]
    Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator From 
                       Massachusetts, on S. 1365
    I commend Senator Akaka and Senator Burr for scheduling this 
hearing and I appreciate the opportunity to express my strong support 
for the bill that Senator Kerry and I introduced in May to expand the 
authority of the Park Service to enter into cooperative agreements for 
improvements to the Boston Harbor Islands National Recreation Area.
    The bill, S.1365, will amend the Omnibus Parks and Public Lands 
Management Act of 1996 to enable the Secretary of Interior to manage 
the Boston Harbor Islands National Recreation Area more effectively. 
The National Park Service will be able to continue its very successful 
partnership with the Island Alliance, a nonprofit organization 
dedicated to the protection and promotion of Boston Harbor, by entering 
into cooperative agreements with the Alliance for construction work in 
the Recreation Area.
    The Island Alliance is a leading advocate of the restoration of 
Boston Harbor. Since the creation of the National Recreation Area in 
1996, the Park Service has relied on the Island Alliance for numerous 
development projects, including the repair of floats at Little Brewster 
Island and the improvement of the docks at several islands. The 
Alliance is also active in promoting recreational and educational 
activities at the Harbor.
    Working together, the Park Service and the Island Alliance have 
helped protect one of Massachusetts' most beloved natural treasures. 
Over the past ten years, the Boston Harbor Islands National Recreation 
Area has drawn large numbers of visitors from across the country.
    The small but essential correction that S. 1365 will make to the 
Parks and Public Lands Management Act will ensure that the Park Service 
and the Island Alliance can work together for years to come.
    I thank the Committee for scheduling this hearing and for the 
opportunity to testify in support of this bill, and I look forward to 
working with the Committee to have it enacted.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Danny Akaka, 
chairman of this subcommittee and the friends who are in the 
audience from Colorado, I can tell you that we are very honored 
and very blessed to have Senator Akaka who really knows the 
importance of parks, being the chairman of this subcommittee, 
and it's my honor to serve with him on this committee.
    Let me also just thank our staffs, Bob Simon and Sam 
Fowler, David Brooks and others on this Energy Committee who do 
such a wonderful job for this committee on a daily basis.
    The ten bills that are in front of us today are all 
important. I'm here today to make a brief statement on a bill 
that is very important to me and to Colorado, before I head to 
the floor of the Senate to deal with the issues on the Farm 
bill.
    The legislation that I want to speak about for a few 
minutes today is S. 1449, which is the Rocky Mountain Science 
Collection Center Act of 2007. The hearing is of particular 
interest to me, because of the importance of this Center, and 
it's a Center that will be created through legislation which 
both Senator Allard and I introduced earlier this year.
    I would like to thank our witnesses for taking the time to 
be here with us, especially George Sparks who has traveled from 
Colorado on behalf of the Denver Museum of Nature and Science.
    Since its founding in 1900, the Denver Museum of Nature and 
Science has been the principal natural history museum between 
Chicago and Los Angeles, and has educated more than 70 million 
visitors--70 million visitors.
    The Museum's collections, its library and archives drive 
the foundation of understanding science and the natural and 
cultural history of the region and serves as a primary resource 
for informal science education to Colorado and the Rocky 
Mountain Region and to general audiences who visit our State.
    Furthermore, the Museum is a world leader in creating 
opportunities that allow the general public to participate in 
authentic, collection-based scientific research.
    Currently, the Museum holds more than a million objects in 
public trust. However, less than 2 percent of the collections 
are currently on exhibit, or accessible to the Museum's 
audiences.
    Our bill will establish a secure collections facility, an 
educational center at the Museum for artifacts and archival 
documentation from throughout the Rocky Mountain Region, our 
bill will achieve this goal by directing the Secretary to 
provide grants to pay for the Federal share of the cost of 
constructing appropriate museum-standard facilities to house 
those collections.
    This Federal share will reflect the continuing Federal 
ownership, and we must remember the Federal ownership of the 
artifacts and other scientific significant materials held by 
the Museum in a trust responsibility.
    The Rocky Mountain Science Collection Center will allow us 
to increase the public's access to important information, while 
ensuring that these collections continue to be preserved.
    I look forward to the testimony about the contributions of 
the Denver Museum of Nature and Science and how this 
legislation will help increase the public store of knowledge, 
while continuing to serve as a resource not only for Colorado, 
but the Nation and the world.
    Thank you again, Chairman Akaka for your leadership and for 
scheduling the hearing on this legislation which is so 
important to me.
    [The prepared statement of Senator Salazar follows:]
  Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado, 
                               on S. 1449
    Thank you Chairman Akaka and Ranking Member Burr for holding 
today's hearing. This hearing is of particular interest to me as we 
will be hearing testimony about S. 1449, the Rocky Mountain Science 
Collections Center Act of 2007, which Senator Allard and I introduced 
earlier this year. I would also like to thank our witnesses for taking 
the time to be here with us today, especially George Sparks who has 
traveled from Colorado on behalf of the Denver Museum of Nature & 
Science.
    Since its founding in 1900, the Denver Museum of Nature & Science 
has been the principal natural history museum between Chicago and Los 
Angeles and has educated more than 70 million visitors.
    The Museum's collections, library, and archives provide the 
foundation for understanding science and the natural and cultural 
history of the region and serve as the primary resource for informal 
science education to Colorado school and general audiences. 
Furthermore, the Museum is a world leader in creating opportunities 
that allow the general public to participate in authentic collection 
based scientific research.
    Currently, the Museum holds more than a million objects in public 
trust. However, less than two percent of the collections are currently 
on exhibit or accessible to the Museum's audiences.
    Our bill will establish a secure collections facility and education 
center at the Museum for artifacts and archival documentation from 
throughout the Rocky Mountain region. Our bill will achieve this goal 
by directing the Secretary to provide grants to pay the Federal share 
of the cost of constructing appropriate, Museum standard facilities to 
house these collections. This Federal share will reflect the continuing 
Federal ownership of the artifacts and other scientific significant 
materials held by the Museum in a trust responsibility.
    A Rocky Mountain Science Collections Center will allow us to 
increase the public's access to important information while ensuring 
that these collections continue to be preserved.
    I look forward to hearing from Mr. Sparks about the contributions 
the Denver Museum of Nature and Science is making and how this 
legislation will help increase the public's store of knowledge while 
continuing to serve as a resource for the country and the world.

    Senator Akaka. Thank you very much, Senator Salazar. I'd 
like to ask our first panel, to please move to the table, and 
that's Kate Stevenson and Joel Holtrop.
    Our first panel, as you note, we have two witnesses 
testifying on behalf of the Administration.
    Kate Stevenson, the Acting Associate Director of the 
National Park Service will testify on all of the bills except 
one. Joel Holtrop, the Deputy Chief of the Forest Service will 
testify on S. 86, the Fossil Creek wild and scenic river 
proposal.
    Both witnesses have testified frequently before this 
committee, and we are happy to welcome you back this afternoon.
    Ms. Stevenson, let's start with your testimony, and then 
we'll hear from Mr. Holtrop. Your complete written statements 
will be included in the hearing record, and I invite both of 
you to summarize your testimony as much as possible.
    Will you please begin, Ms. Stevenson?

STATEMENT OF KATHERINE H. STEVENSON, ACTING ASSISTANT DIRECTOR, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. Stevenson. Mr. Chairman, thank you for the opportunity 
to offer the views of the Department of Interior on nine of the 
ten bills before you today.
    I will summarize, as you requested. I'll start with S. 
1365, which is the Boston Harbor Islands. The Department has 
concerns about the bill, as written, regarding the appropriate 
use of cooperative agreements only, only that portion of the 
bill. Therefore, we would like to follow-up with written 
comments to the committee.
    The Rocky Mountain Science Collection Center, the 
Department opposes this bill. Our opposition doesn't diminish 
the regard in which we hold the Museum, by any means, rather it 
reflects our concern that an award of as much as $15 million in 
grants moneys will reduce the limited amount of MPS's 
discretionary funds to address our own critical needs.
    S. 1921, The American Battlefield Protection Act, the 
Department supports enactment, thus extending the authorization 
through Fiscal Year 2013.
    S. 1941, the Wolf House Study, the Department opposes this 
bill. Because the Wolf House has a predominant significance in 
the political history of the State of Arkansas, we believe it 
would be more suited for inclusion in State Park.
    S. 1961, the Little River Canyon Preserve, the Department 
supports this bill to expand the boundaries of Little River 
Canyon preserve, to add approximately 1656 acres through 
purchase from willing sellers or through donation.
    S. 1991, the Lewis and Clark National Historic Trail, the 
Department reminds the Congress that an historic study of the 
eastern legacy was completed in January of this year, however, 
we don't oppose enactment, because the suitability and 
feasibility issues have not yet been addressed.
    S. 2098, the Northern Plains Heritage Area, while the 
Department appreciates the historic natural and cultural 
features of the area, the Department does not support the bill. 
Our concern rests with the lack of significant public 
involvement and support, and the local commitments necessary 
for successful planning and implementation of a heritage area. 
We suggest that the heritage area proponents engage more 
residents, and the Mandan-Hidatsa descendents in a dialog.
    S. 2220, the National Tropical Botanical Garden, the 
Department, sadly, opposes S. 2220. While we recognize the 
value and the contributions of the National Tropical Botanical 
Gardens, we have concerns that the award of the authorized 
amounts will reduce the amount of funds available for National 
Park Service natural resource work.
    Finally, H.R. 1191, the Grand Canyon payment to 
subcontractors, the Department appreciates the subcommittee's 
efforts to address this situation, but opposes H.R. 1191. The 
Department fully understands the hardship PGI's default, and 
NPS's actions have placed on the involved subcontractors. The 
payment bonds required of the contractor under the Miller Act 
are designed to protect subcontractors.
    The courts have held that while the contractor has an 
obligation to provide the bonds, the Miller Act places no 
affirmative obligation on the Federal Government to ensure that 
the bonds have actually been obtained. We recognize this bill 
is intended to be an equitable solution to a very difficult 
situation. However, it singles out one situation for relief 
that's not available to others under the Miller Act. In 
addition, it would effectively have the National Park Service 
pay twice for the same work.
    The Administration is also concerned about the precedent of 
having the Federal Government assume the liability for the 
contractor's default.
    Mr. Chairman, this concludes my remarks, and I will be 
happy to answer any questions you may have.
    [The prepared statements of Ms. Stevenson follow:]
    Prepared Statement of Katherine H. Stevenson, Acting Assistant 
      Director, National Park Service, Department of the Interior
                               on s. 1365
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1365, a bill to amend the Omnibus Parks and Public Lands Management Act 
of 1996 to authorize the Secretary of the Interior to enter into 
cooperative agreements with any of the management partners of the 
Boston Harbor Islands National Recreation Area.
    The Department has concerns with the bill as written. The 
Department is particularly concerned about the use of cooperative 
agreements for construction of park facilities by non-Federal partners 
using appropriated funds. We would like to follow up with written 
comments on how this bill could be modified to address the needs of the 
park and its partners while ensuring the appropriate use of Federal 
funds.
    This bill would change the authorizing legislation for the Boston 
Harbor Islands National Recreation Area. Section 1029 of Public Law 
104-333 authorized the Secretary to enter into cooperative agreements 
with the Commonwealth of Massachusetts or its political subdivisions to 
implement the management plan for the national recreation area. The law 
did not authorize cooperative agreements with the non-profit 
organizations, named within the Act, that administer the Boston Harbor 
Islands in partnership with the Secretary through the Boston Harbor 
Islands Partnership (Partnership) established in section (e) of the 
Act. S. 1365 would explicitly permit the Secretary to enter into 
cooperative management agreements with the three non-profit 
organizations named in section (e)(2) of the Act: the Island Alliance, 
The Trustees of Reservations, and the Thompson Island Outward Bound 
Education Center. This authority would allow the Secretary to contract 
with these non-profit organizations for any goods or services needed in 
the administration of the recreation area.
    Authorized in 1996, the Boston Harbor Islands National Recreation 
Area includes 30 islands within Boston Harbor, all located within 10 
miles or less of downtown Boston. Unlike most park units, the National 
Park Service does not own any of the islands within the boundary of the 
recreation area.
    The recreation area has proven itself a model of collaborative park 
management. The 13 entities named in the original legislation have 
endorsed an ambitious management plan and have realized many of its 
goals. Together they have spent $78.5 million to provide visitor 
services, rebuild island infrastructure and protect park resources, and 
$76.6 million to develop new parkland and facilities. Their combined 
park operating expenditures total $7.5 million annually. Federal 
dollars total less than one-quarter of park expenditures, with the rest 
coming from State and local government and private donations as 
required in the enabling legislation. We believe that we can find a 
solution that will allow us to work constructively with our partners 
and we intend to follow up with further suggestions for amending this 
legislation.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                               on s. 1449
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1449, a bill to establish the 
Rocky Mountain Science Collections Center to assist in preserving the 
archeological, anthropological, paleontological, zoological, and 
geological artifacts and archival documentation from the Rocky Mountain 
region through the construction of an on-site, secure collections 
facility for the Denver Museum of Nature and Science in Denver, 
Colorado.
    The Department opposes S. 1449. Our opposition does not detract 
from the significance and importance of the artifacts and documents 
currently being housed at the Denver Museum of Nature and Science 
(museum). The museum is a place of learning and a keeper of important 
collections that showcase many of the unique features of the Rocky 
Mountain region. We encourage the museum to continue to seek other 
funding and solutions for the preservation and protection of the 
collections in their care including working with existing programs 
managed by all of the federal agencies with collections stored at the 
museum.
    S. 1449 would authorize the Secretary of the Interior, subject to 
the availability of appropriations, to award as much as $15 million in 
grant monies, identified as the federal share, to the museum to pay for 
the cost of constructing and furnishing one or more new facilities. The 
bill states the museum would, as a condition of receiving this 
assistance, match with cash, in-kind donations, or services, any amount 
provided to the museum under this Act.
    We appreciate the interest the museum has in providing the highest 
level of care to the objects in its collection. However, we believe the 
use of limited National Park Service (NPS) appropriations to fund the 
design, construction, and operation of non-NPS projects of this type is 
inappropriate.
    Since the mid-1990's, legislation has been passed and signed into 
law that authorized several hundreds of millions of dollars in grants 
to be passed through the NPS budget for non-Park System projects. Many 
of these projects involved support for museums and libraries, similar 
to what is proposed in S. 1449. Each time this is done, it reduces the 
availability of NPS's limited amount of discretionary funds to address 
the needs of our national parks and other important national 
priorities. We believe funds are more appropriately directed at this 
time to reducing the long list of projects and needs that have been 
identified in our national parks.
    The museum contains more than 1,000,000 artifacts and documents. 
Like many western museums, a large proportion of the collection was 
recovered from federal lands managed by the Bureau of Land Management, 
the Bureau of Reclamation, the National Park Service, the United States 
Fish and Wildlife Service, the U.S. Forest Service, and the U.S. Army 
Corps of Engineers. This impressive collection assists researchers and 
anybody interested in finding out more about the West, as do many other 
similar museums.
    However, the financial implications of the bill on national parks 
and park programs at a time when all federal agencies must work harder 
to be responsible stewards of the resources of American taxpayers 
causes us to oppose S. 1449. The Department is willing to work with all 
of the involved agencies and the museum to thoroughly assess all 
possible alternatives for providing the highest level of care to the 
objects currently housed at the museum, including, if necessary, the 
transferring of collections to federal repositories.
    This completes my formal remarks. I would be happy to answer any 
questions you or other members of the Subcommittee may have.
                               on s. 1921
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 1921, a bill to amend the American 
Battlefield Protection Act of 1996 and extend the authorization for 
that act, and other purposes.
    The Department supports enactment of this bill.
    S. 1921 would extend the authorization from fiscal years September 
30, 2009 through September 30, 2013 for battlefield preservation grants 
under the Civil War Battlefield Preservation Act of 2002. The purpose 
of this act is to: (1) to protect battlefields and sites associated 
with armed conflicts that influenced the course of our history, (2) to 
encourage and assist all Americans in planning for the preservation, 
management, and interpretation of these sites, and (3) to raise the 
importance of preserving battlefields and related sites for future 
generations, through the upcoming sesquicentennial commemoration of the 
Civil War, 2011-2015.
American Battlefield Protection Program
    The National Park Service's American Battlefield Protection Program 
(ABPP) is a small, cost-effective program that promotes the 
preservation of battlefields and related sites of all wars on American 
soil through ``planning and partnerships.'' The ABPP promotes 
battlefield preservation strategies for protecting sites of armed 
conflict that cannot or should not be preserved by federal ownership, 
but must nonetheless be saved in order for future generations of 
Americans to understand the importance of these irreplaceable sites.
    In order to achieve these goals, the ABPP provides a range of 
financial and technical assistance to Federal, State, and local 
partners on issues of battlefield landscape identification, 
documentation, planning, interpretation, and economic development. The 
program encourages states, communities, non-profit organizations, and 
individual citizens to become the stewards of battlefields. By 
empowering local communities and private landowners to make the best 
decisions possible, the ABPP enables these communities and owners to 
develop local solutions for balanced preservation approaches.
    The ABPP provides yearly battlefield preservation project grants to 
assist communities and organizations striving to save our battlefields. 
The project grants have helped States, Tribes, and local communities 
identify and document historic battlefield resources, nominate historic 
battlefields to the National Register of Historic Places, plan for 
resource stewardship and conservation, interpret the battlefields for 
the visiting public, and develop heritage tourism programs that 
encourage battlefield preservation.
    Over the life of the program, ABPP has awarded 329 project grants 
totaling over $7.7 million to organizations in 37 States, the District 
of Columbia, and the Republic of Palau.
Acquisition Grants
     In 2002, P.L. 107-359, the Civil War Battlefield Protection Act, 
amended the original ABPP authorization to establish the battlefield 
acquisition grant program. It directed the Secretary to submit to 
Congress a report on updates of the battlefield preservation 
activities, and authorized appropriations to the Secretary from the 
Land and Water Conservation Fund for each fiscal year 2004-2008. These 
grants help State and local governments acquire Civil War battlefield 
lands outside of the legislative boundaries of units of the National 
Park System. In order to be eligible to receive these grants, Congress 
established the following three requirements: (1) the battlefield must 
be among the 384 identified by the Civil War Sites Advisory Commission; 
(2) the land to be acquired must not be within the exterior boundaries 
of any unit of the National Park System; and (3) any land acquired with 
the assistance of the grant program may not be subsequently converted 
to a non-conservation use without the prior written permission of the 
Secretary of the Interior. In addition, the ABPP set two additional 
requirements: (1) any grant awarded must be supported by an appraisal 
of the property's value in accordance with federal standards for 
property appraisals; and (2) any land acquired with the assistance of 
the grant program must be protected by a perpetual easement sufficient 
to protect the significant above-ground features of the battlefield 
landscape as well as the battlefield's archeological resources.
    The grant fund has been tremendously successful in allowing local 
preservation efforts to permanently preserve Civil War battlefield land 
with a minimum of federal assistance. Grants of $26.3 million from ABPP 
have leveraged a total of $52 million in nonfederal funding. To date, 
the grant program has assisted in the permanent protection of 15,705 
acres at 72 Civil War battlefields.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other committee members may have regarding 
this bill.
                               on s. 1941
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1941, a bill to direct the Secretary of the 
Interior to study the suitability and feasibility of designating the 
Wolf House, located in Norfork, Arkansas, as a unit of the National 
Park System.
    The Department opposes S. 1941. While the Wolf House is an 
impressive historical structure, it is not distinguished beyond that of 
many other historical log structures in cities all over the United 
States. It is currently operated by the Wolf House Memorial Foundation, 
Inc., (Foundation) with the backing of Baxter County, Arkansas. Even 
though the Wolf House has significance for the political history of the 
state of Arkansas, we believe it may be more suited for inclusion in 
the State Park system, either separately or as part of Bull Shoals-
White River State Park. Finally, we believe that priority should be 
given to the 35 previously authorized studies for potential units of 
the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to the Congress.
    S. 1941 would authorize a study of the Wolf House, a two-story 
dogtrot log structure dating back to 1829. It is a relic of the 
Arkansas territorial period, the oldest territorial courthouse west of 
the Mississippi River, and is located on Highway 5 in Norfork, 
Arkansas. It also would study the Wolf House property, several 
outbuildings, and portions of several city lots, all located within the 
city of Norfork. The study would be conducted in accordance with the 
criteria contained in Section 8(c) of Public Law 91-383 (16 U.S.C. 1a-
5(c)). A report that includes the findings, conclusions, and 
recommendations for future management of the study area would be 
required to be transmitted by the Secretary to Congress no later than 
one year after enactment of this legislation. S. 1941 states that the 
Wolf House is located in the city of Norfolk; the correct location is 
the city of Norfork.
    The Wolf House became the property of the city of Norfork in the 
1930s and was maintained and opened to the public by interested 
citizens who eventually formed the Foundation. The Wolf House was 
placed on the National Register of Historic Places on April 13, 1973. 
In the 1990s, controversies over management of the property led the 
Foundation to approach the Arkansas State Parks to assume 
responsibility for the property. They were told that the State Parks 
could not acquire new properties at the time. In 1999, the Foundation 
and the city of Norfork quit claimed their ownership of the property to 
Baxter County. At the same time, the Arkansas Historic Preservation 
Program acquired a historic preservation easement on the property.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or the subcommittee may have.
                               on s. 1961
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 1961, a bill to revise the boundary of 
the Little River Canyon National Preserve in the State of Alabama, and 
for other purposes.
    The Department supports S. 1961. S. 1961 would expand the 
boundaries of the Little River Canyon National Preserve (Preserve) to 
add approximately 1,656 acres that would be acquired by purchase from 
willing sellers or through donation. Appraisals have not been completed 
on any of the involved properties so the costs associated with the 
potential acquisitions are unknown. The Preserve currently includes 
13,797 acres, and the NPS roughly estimates acquisition costs to be 
between $9 million and $12 million. No funding has yet been identified 
for any of the acquisitions proposed in this bill. Funding for any of 
these acquisitions would be subject to the budget prioritization 
process of the National Park Service.
    Little River Canyon National Preserve was established as a unit of 
the National Park System by Public Law 102-427, to protect and preserve 
the natural, scenic, recreational and cultural resources of the area 
and to provide for public enjoyment of those resources. The Little 
River Canyon is located in northeast Alabama between Gadsden, Alabama 
and Chattanooga, Tennessee. Birmingham, Alabama is approximately 100 
miles southwest of the Preserve and Atlanta, Georgia is about 110 miles 
to the southeast.
    The Preserve contains an outstanding example of an Appalachian 
Plateau Province Canyon System and the canyon and the Little River 
together form one of the extraordinary natural features of Alabama. The 
Preserve is biologically diverse and home to a number of rare plants 
and animals. Numerous recreational pursuits are also available within 
the Preserve boundaries including a 23-mile canyon rim drive, which 
provides easy access to superlative scenic views.
    The Preserve also includes important scenic, natural, cultural, 
recreational, and scientific resources. Little River Canyon's stream 
resources are excellent and the Little River is classified by the State 
of Alabama as an Outstanding National Resource Water providing an 
opportunity for world-class whitewater boating. Little River is one of 
a very few river systems with most of its length atop a mountain, in 
this case, Lookout Mountain.
    The Preserve lies at the southern limits of the Cumberland Plateau 
and Little River Canyon is the deepest canyon in Alabama and one of the 
deepest in the eastern United States. As such, the Preserve contains 
some of the most rugged scenery in the southeast which contributes to 
significant biological diversity including habitat for a unique 
assemblage of plants and animals. In addition, the Preserve includes a 
wide assortment of archeological resources and historic sites.
    The acquisitions proposed in S. 1961 would help the National Park 
Service (NPS) meet the requirements established in the Preserve's 
enabling legislation, which direct the NPS to protect and preserve the 
scenic resources of Little River Canyon. Additionally, in the northeast 
portion of the Preserve the current boundary is narrow and many of the 
Preserve's recreational trails cross private property in that area. 
Expanding the boundary as proposed in S. 1961 would allow the NPS to 
purchase lands from willing sellers and enhance recreational resources 
for Preserve visitors by ensuring that these trails no longer cross 
private property.
    The current western boundary of the Preserve meanders back and 
forth across state and county roads which make up the Preserve's scenic 
drive. The boundary expansion proposed in S. 1961 would relocate the 
boundary in this area to the western edge of the state and county 
rights-of-way. In addition to including land between the roads and the 
canyon within the Preserve boundary, this adjustment would allow the 
NPS to apply for federal highway funds in order to improve the roads to 
help them meet Federal Highway Administration safety standards. The 
present condition of this portion of the scenic drive is characterized 
by steep hills and locations where sight distance is limited. As a 
result, the NPS has had to install signs warning drivers of motor homes 
and other large vehicles to avoid the southern two-thirds of the drive 
for their own safety. Including the roads and the lands between them 
and the current park boundary within the Preserve would also make it 
feasible to add additional scenic overlooks and bicycle lanes.
    Mr. Chairman, this concludes my formal remarks. I would be happy to 
answer any questions you or any members of the subcommittee might have.
                               on s. 1991
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1991, a bill to authorize the Secretary of the 
Interior to conduct a study to determine the suitability and 
feasibility of extending the Lewis and Clark National Historic Trail to 
include additional sites associated with the preparation and return 
phases of the expedition.
    While the Department has some concerns about the need for the 
study, we do not object to the enactment of S. 1991. However, we 
believe that priority should be given to the 35 previously authorized 
studies for potential units of the National Park System, potential new 
National Heritage Areas, and potential additions to the National Trails 
System and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 1991 would authorize a study to determine whether the routes 
followed by Meriwether Lewis and William Clark, whether independently 
or together, in the preparation phase of the expedition starting at 
Monticello, located near Charlottesville, Virginia, and traveling to 
Wood River, Illinois, and in the return phase of the expedition from 
Saint Louis, Missouri, to Washington, D.C., would meet the suitability 
and feasibility criteria for extending the Lewis and Clark National 
Historic Trail to include these routes and their associated sites. 
These sites and routes are commonly referred to as the ``Eastern 
Legacy.'' These routes include designated Lewis and Clark sites in 
Virginia, the District of Columbia, Maryland, Delaware, Pennsylvania, 
West Virginia, Ohio, Kentucky, Tennessee, Indiana, Missouri, and 
Illinois. The study also would analyze the potential impact that the 
inclusion of the Eastern Legacy would have on those sites, as well as 
on the tourist visitation to the western half of the trail. The bill 
would require the Secretary of the Interior to complete the study and 
provide its conclusions and recommendations within two years from the 
date funds are first made available for that purpose. We estimate the 
cost to complete the study would be approximately $250,000 to $300,000.
    There have been many discussions in recent years between scholars 
and interested individuals concerning whether the Eastern Legacy sites 
and routes merit inclusion in the Lewis and Clark National Historic 
Trail. However, the issue of whether this area is suitable and feasible 
as an administrative unit of the National Trails System has not been 
addressed. S. 1991 would provide that authority.
    Discussions in the past against extending the trail to include the 
Eastern Legacy are focused primarily on the common historical 
understanding of where the expedition itself began. President 
Jefferson's instructions to Captain Meriwether Lewis clearly imply that 
the expedition began with the ascent of the Missouri River. The actual 
transfer of title to and power over the Louisiana Territory from France 
to the United States was not effective until March 10, 1804. Prior to 
that date, the Spanish Lt. Governor of Upper Louisiana refused the 
expedition's request to proceed up the Missouri; so it is clear that 
the journey of exploration could not begin until after that date. The 
journals of the expedition by Captains Lewis and Clark are the official 
chronicles of the project. On May 14, 1804, the day the expedition left 
Camp Wood and began its ascent of the Missouri River, Captain Clark 
wrote in his journal ``The mouth of the River Dubois is to be 
considered as the point of departure.'' In his journal, Captain Lewis 
stated that he had informed President Jefferson, by letter, of the 
departure; this, too, would seem to imply that the expedition began 
that day.
    Some believe that important locations in the Eastern Legacy are 
already recognized by the trail as certified sites and that they do not 
need to be connected to the Lewis and Clark National Historic Trail. 
There is also some concern that extending the trail will somehow dilute 
the attention to and importance of the existing official trail.
    Others point out that the expedition did not simply spring forth 
from Wood River, Illinois on May 14, 1804, but involved years of 
preparation at other locations. These include the ruminations of 
westward expansion and manifest destiny by Thomas Jefferson at 
Monticello in Virginia, the acquisition of firearms at Harpers Ferry, 
West Virginia, Lewis' training in medicine and scientific observation 
in Philadelphia, and taking delivery of the keel boat in Pennsylvania 
and struggling through low water to bring the boat down the Ohio River.
    Although the field expedition ended in September 1806 with the 
Corps of Discovery's return to Saint Louis, there were still important 
tasks to undertake such as reporting to the White House to brief the 
President on the findings of the expedition. Some say that Lewis' death 
was attributable in large part to the expedition and that his grave on 
the Natchez Trace should be a part of the trail. As intended by 
President Jefferson, the expedition and manifest destiny had far 
reaching impacts and ramifications beyond the West to American society 
as a whole, and he certainly considered that his dream of a nation from 
``sea to shining sea'' had been fulfilled, despite the failure to find 
the mythical ``Northwest Passage.''
    A suitability and feasibility study would take into account the 
reasons for adding the Eastern Legacy by various interested agencies, 
organizations, and individuals and evaluate the merits of including the 
additional routes and sites in the Lewis and Clark National Historic 
Trail.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                               on s. 2098
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2098, a bill to establish the Northern Plains 
National Heritage Area in the State of North Dakota.
    While the Department appreciates the historic, cultural and natural 
features of the area, the Department does not support S. 2098. The 
feasibility study produced by the Northern Plains Heritage Foundation 
did not meet all of the criteria for designation as a national heritage 
area. It did not include the existence of significant levels of public 
involvement and support and the local commitments necessary for 
successful planning and implementation of a heritage area. Without 
further dialog with residents in the region and the support of current 
living descendents, we are concerned that the Heritage Area would not 
be poised for success and a sustainable future. Success of this 
grassroots movement depends upon whether or not there is strong region-
wide support, so we respectfully request the Heritage Area proponents 
engage more residents and Mandan-Hidatsa descendents in a dialog.
    We remind the committee that our past support of an amendment to S. 
1544 in the 109th Congress authorizing a study did not necessarily mean 
that the Department would support designation of this National Heritage 
Area.
    We generally have asked that the subcommittee defer action on new 
designations of National Heritage Areas until program legislation is 
enacted. Last year, the Administration sent to Congress a legislative 
proposal to establish such guidelines and a process for designation. 
Bills were introduced in the 109th Congress (S. 243, H.R. 760 and H.R. 
6287) that incorporated the majority of the provisions of the 
Administration's proposal, and S. 243 passed the Senate. During the 
110th Congress, a similar heritage area program bill, S. 278, has been 
introduced and reported by the Senate Energy and Natural Resources 
Committee.
    Requiring evidence of broad public support prior to designation is 
consistent with the steps and criteria for the National Heritage Area 
program that have been informally implemented for many years. The steps 
and criteria have been developed with input from Congress, existing 
National Heritage Areas, and other experts and are designed to ensure 
that an area has the resources, local interest, and other qualities 
that are critical in establishing a successful National Heritage Area. 
The four critical steps that need to be completed before Congress 
establishes a National Heritage Area are:

          1. completion of a feasibility study;
          2. public involvement in the feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    S. 2098 would establish the Northern Plains National Heritage Area. 
The core area is approximately 80 miles long, anchored at each end by 
nationally designated landmarks. Huff Indian Village National Historic 
Landmark, an ancient Mandan Indian Village is the southern anchor and 
Big Hidatsa Village National Historic Landmark, an ancient Hidatsa 
village located within the Knife River Indian Villages National 
Historic site at Stanton, North Dakota, is the northern anchor. Huff 
and Menoken National Historic Landmarks are also state historic sites 
preserved and managed by the State Historical Society of North Dakota. 
This area encompasses the ancient homeland of the Mandan and Hidatsa 
American Indian nations as well as the Menoken Indian Village, an early 
Indian village site just east of Bismarck, North Dakota, which also 
bears national historic landmark status.
    The bill designates the Northern Plains Heritage Foundation, a non-
profit corporation established under the laws of the State of North 
Dakota, as the management entity for the Heritage Area and outlines its 
duties. It also authorizes the development of a management plan and 
technical assistance to carry out the plan. The bill also requires the 
Secretary to conduct an evaluation three years prior to the cessation 
of Federal funding under this act.
    Long before the Europeans came to the area, Mandan and Hidatsa 
cultures flourished along the river in North Dakota. These early people 
thrived for centuries in heavily populated agricultural communities 
along the fertile floodplains. They also depended on the abundance of 
fish, game, and other wildlife throughout the prairies. They were later 
followed by pioneers and homesteaders--generations of farmers and 
ranchers who continue to cultivate the land and reap the harvest 
provided by the abundance of the Northern Plains environment.
    The villages of these early settlers served as a central hub in a 
trade network that spanned the continent. The Heart River segment of 
the Missouri River was the center of the universe for the first people, 
the Mandans, who constructed their permanent earthlodge villages along 
the Missouri River and its tributaries. The Lewis and Clark Expedition 
even benefited from the hospitality and friendship of the Mandan and 
Hidatsa when they spent the winter along the Garrison Reach near 
present-day Washburn.
    Today, the Mandan language is in danger of extinction with only two 
conversational speakers able to participate in a preservation project. 
Therefore, as part of their preservation initiatives within the 
Northern Plains area, the Northern Plains Heritage Foundation's 
language initiative is focusing on preserving and archiving language 
vocabularies, beginning with the recording of Mandan language 
materials. It also is supporting the development of instructional 
materials for Mandan, Hidatsa, Arikara, Lakota, French and German 
language teachers. Language has always been a key element that 
characterizes and underpins the cultural integrity and unique identity 
of a people or an ethnic group.
    The Department believes that further evaluation and public 
engagement would ensure widespread public involvement, and determine 
local interest and commitment, thus strengthening the current 
feasibility study. We also believe that further examination of the 
boundaries to include the current Mandan-Hidatsa homeland and the 
unique geographical, cultural, and historical resources of the Northern 
Plains area would provide other valuable information as to whether the 
area qualifies for designation as a National Heritage Area.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                               on s. 2220
    Mr. Chairman, thank you for the opportunity to appear before you to 
present the views of the Department of the Interior on S. 2220, to 
amend the Outdoor Recreation Act of 1963 to authorize certain 
appropriations. The bill would authorize funding for the National 
Tropical Botanical Garden for Fiscal Year 2009 and beyond.
    The Department opposes S. 2220. We recognize the important 
contributions to scientific research, education, and conservation are 
being made by the National Tropical Botanical Garden, a non-profit 
organization dedicated to discovering, saving, and studying the world's 
tropical plants. However, as critical as the Garden's work is, we 
believe that the use of limited National Park Service appropriations to 
fund the operation and maintenance costs of a private organization is 
inappropriate.
    Since the mid-1990's, legislation has been passed and signed into 
law that authorized several hundreds of millions of dollars in grants 
to be passed through the NPS budget for non-Park System projects. Many 
of these bills provided support for very well-regarded organizations, 
similar to what is proposed in S. 2220. Each time this is done, it 
reduces the availability of NPS's limited amount of discretionary funds 
to address the needs of our national parks and other important national 
priorities. We believe funds are more appropriately directed at this 
time to reducing the long list of projects and needs that have been 
identified in our national parks. Furthermore, the authorization of 
funding provided under S. 2220 is permanent, as it would authorize a 
grant to the Garden each year indefinitely, which is designed to 
increase with inflation. Over time, this authorization could draw 
considerable funding from the National Park Service's budget.
    S. 2220 would amend the Outdoor Recreation Act of 1963 to authorize 
appropriations of $1 million for fiscal year 2009 and $500,000 for each 
subsequent fiscal year, adjusted for inflation, for the National 
Tropical Botanical Garden. The funding would be used to match public 
and private donations made for operating and maintaining the 
organization's five gardens.
    The National Tropical Botanical Garden was chartered by Congress in 
1964 [Public Law 88-449] as the Pacific Tropical Botanical Garden. Its 
name was changed in 1988 after the Garden expanded to include a donated 
site in Florida. The organization is based on the island of Kauai, and 
currently operates five distinct gardens--four in Hawaii and one in 
Florida--and several preserves, which together consist of about 1,800 
acres. This network of gardens and preserves encompasses different 
ecosystems and environmental conditions, enabling the organization to 
grow and preserve a broad range of tropical plants. These gardens are 
havens for imperiled plants and serve as living laboratories for staff 
scientists and visiting researchers from all over the world.
    The National Tropical Botanical Garden is currently involved in the 
work that the National Park Service has undertaken to catalogue and 
provide long-term storage of seeds of threatened and endangered plant 
species in national park units, in case they are needed in the future 
for plant augmentation and restoration. The National Park Service has 
entered into a cooperative agreement with the Center for Plant 
Conservation (CPC), which is associated with the Missouri Botanic 
Garden, to coordinate the collection of seeds, other propagules, or 
plant parts of threatened and endangered plants in national park units. 
The National Tropical Botanical Garden is one of several entities the 
CPC is working with to obtain over 80 species from five national park 
units in Hawaii.
    The bill as introduced would amend the Outdoor Recreation Act of 
1963 and it is titled accordingly. There is no direct relationship 
between that Act and the National Tropical Botanical Garden. A free-
standing authorization would be more appropriate legislatively and 
would make the purpose of the bill clearer.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to respond to questions from you or other members of the committee.
                              on h.r. 1191
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1191, a bill that would 
authorize the National Park Service to pay for services rendered by 
subcontractors under a General Services Administration Indefinite 
Deliver Indefinite Quantity Contract issued for work to be completed at 
the Grand Canyon National Park.
    The Department appreciates the subcommittee's efforts to address 
this situation but opposes H.R. 1191. The Department also testified in 
opposition to H.R. 3961, a similar bill, in testimony before the House 
Subcommittee on National Parks on March 30, 2006.
    H.R. 1191 would authorize payment, through the appropriation of 
such funds as are necessary, to subcontractors who completed work under 
task orders to Pacific General, Incorporated (PGI) for which PGI was 
paid, but subcontractors were not. The work was completed under 
National Park Service (NPS) task orders issued against PGI's Indefinite 
Deliver Indefinite Quantity (IDIQ) contract with the General Services 
Administration.
    PGI's default has created a financial burden on the affected firms. 
The NPS had a contractual relationship with the prime contractor, PGI. 
The NPS does not have a contractual relationship with the 
subcontractors and NPS does not have the legal authority to pay 
subcontractors who completed work under PGI's IDIQ contract for which 
PGI failed to render payment.
    H.R. 1191 would authorize the Secretary to pay these subcontractors 
under certain conditions. The bill would authorize payment if: 1) the 
task orders issued to PGI by NPS have been terminated, 2) the amount 
owed to the subcontractors is verified, 3) all reasonable legal avenues 
or recourse have been exhausted by the subcontractors to recoup amounts 
owed directly from PGI, and 4) the subcontractors provide a written 
statement that payment of the amount verified represents payment in 
full by the United States for all work performed at the park under PGI 
task orders issued by NPS between Fiscal Years 2002 and 2003.
    Between Fiscal Years 2002 and 2003, the Grand Canyon National Park 
(park) issued approximately 40 task orders to PGI under this IDIQ 
contract. Those task orders totaled an estimated $17 million for 
various construction projects throughout the park. Invoices sent to the 
park indicated that PGI certified payments were being sent to 
subcontractors and suppliers. The NPS paid more than $10 million to 
PGI, of which approximately $1.4 million, based on our most recent 
estimates, was owed, but never paid, to subcontractors. PGI has been 
indicted by the U.S. District Attorney's Office in Arizona on 26 counts 
of fraud involved with these task orders.
    In January 2004, the park began receiving complaints from 
subcontractors citing lack of payment by PGI. In February 2004, the NPS 
suspended further payment to PGI and issued a suspension notice 
ordering PGI to cease activity, followed by termination for default of 
17 remaining task orders. PGI has had every reasonable opportunity to 
resolve the situation, but has since ceased doing business.
    Following PGI's default, the NPS withheld payment to PGI and began 
paying subcontractors directly for work completed on PGI task orders, 
valued at $906,335. Contract law generally prohibits payments directly 
to subcontractors because of the lack of a direct, contractual 
relationship between the parties. However, in this case, NPS consulted 
with the Government Accountability Office (GAO) and with their 
approval, began paying subcontractors directly for these claims. NPS 
has used approximately 92% of the withheld funds to pay 41 claims of an 
estimated total of 76 claims submitted.
    The impact of PGI's default was compounded by lapses in the 
contracting operations at Grand Canyon National Park. An acquisition 
management review conducted by the NPS Washington Contracting and 
Procurement Office, determined that the park had failed to obtain 
payment and performance bonds from PGI required by the IDIQ contract 
and the Miller Act (40 U.S.C. Sec.  3131). To prevent future lapses, we 
have strengthened internal controls both at the park and regional 
level. For example, the park superintendent is now annually evaluated 
for management of the park's contracting program. In addition, the NPS 
Intermountain Region will be conducting periodic acquisition management 
reviews of the Grand Canyon contracting program.
    The Department understands the hardships PGI's default and NPS' 
actions have placed upon the involved subcontractors. The payment bonds 
required of the contractor under the Miller Act are designed to protect 
subcontractors who do not have the recourse of placing a lien on the 
property at issue, since liens cannot be placed on government property. 
The courts have held that, while the contractor has an obligation to 
provide such bonds, the Miller Act places no affirmative obligation on 
the federal government to ensure the bonds have been obtained. The 
Department recognizes that H.R. 1191 is intended to be an equitable 
resolution to a difficult situation. However, it singles out one 
situation for relief not available to others under the Miller Act and 
would effectively have NPS pay for the same services twice.
    Although we are sympathetic about the position of the 
subcontractors, the Administration is concerned about the precedent 
that would be set by requiring the federal government to assume the 
liability for the contractor's default, particularly in a situation 
where no contractual relationship exists.
    Mr. Chairman, this concludes my prepared remarks. I will be happy 
to answer any questions you or other members of the subcommittee might 
have.

    Senator Akaka. Thank you very much, Ms. Stevenson.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, I appreciate the opportunity to 
appear before you today to provide the Department's view on the 
Fossil Creek Wild and Scenic River Act of 2007.
    With some minor amendments, the Department of Agriculture 
strongly recommends that S. 86 be enacted.
    S. 86 would amend Section 3A of the Wild and Scenic Rivers 
Act to designate Fossil Creek, a tributary of the Verde River 
in Arizona as a component of the National Wild and Scenic 
Rivers System.
    The segments to be designated by S. 86 include the river 
from its source to its confluence to the Verde Wild and Scenic 
River. S. 86 provides allowance for specified fish restoration 
activities and stream flow monitoring. Fossil Creek has been 
impacted by the Childs-Irving Hydropower project, which 
diverted, essentially, all of the water from Fossil Springs for 
power production.
    In 2004, as a result of a unique collaboration among 
Arizona public services, the Forest Service, tribes, 
environmental groups and others, the Childs-Irving Hydropower 
license was surrendered with a plan to decommission the 
supportive infrastructure and restore flows to Fossil Creek.
    Arizona Public Services supported the decommissioning of 
this project, to give the residents of the State a perennial 
stream in the desert that possesses rare regional and national 
values. Fossil Creek, with its consistent spring flow, harbors 
endangered desert fish, contains unique geological formations, 
and provides an opportunity to share the pre-history and 
history of Central Arizona.
    S. 86 recognizes the significant efforts made by Federal, 
State, tribal and local entities to return this tributary to a 
free-flowing condition. Passage of this bill ensures the 
protection of this tributary for future generations.
    We would like to work with the subcommittee on ensuring 
consistency in the language of this bill, and the Wild and 
Scenic Rivers Act and Forest Service reports and analyses of 
Fossil Creek. In addition, the uppermost point of the Fossil 
Creek tributary is difficult to identify. We would like to work 
with the subcommittee to provide a description of this 
beginning point.
    We also would like to ensure that the designated river 
sections are accurately classified. Due to the existence of the 
Fossil Springs dam, the 16.8 mile stretch of Fossil Creek that 
would be designated includes a 7.5 mile stretch that fits the 
description for a recreation river, rather than a scenic river.
    This concludes my prepared statement, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, Forest Service, 
                  Department of Agriculture, on S. 86
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to provide the Department's view 
on the Fossil Creek Wild and Scenic River Act of 2007.
    With some minor amendments, the Department of Agriculture strongly 
recommends that S. 86 be enacted.
    S. 86 would amend section 3(a) of the Wild and Scenic Rivers Act 
(16 USC 1274(a)) to designate Fossil Creek, a tributary of the Verde 
River in the State of Arizona, as a component of the National Wild and 
Scenic Rivers System. The segments to be designated by S. 86 include 
the river from its source to its confluence with the Verde Wild and 
Scenic River. S. 86 provides allowance for specified fish restoration 
activities and stream flow monitoring.
    Fossil Creek has been impacted since the early 20th century by the 
Childs-Irving Hydropower Project which diverted essentially all the 
water from Fossil Springs for power production. In 2004, as a result of 
a unique collaboration among Arizona Public Services (APS), the Forest 
Service, tribes, environmental groups and others, the Childs-Irving 
Hydropower Project license was surrendered with a plan to decommission 
the supporting infrastructure and restore flows to Fossil Creek.
    APS supported the decommissioning of this project to give the 
residents of the State a perennial stream in the desert that possesses 
rare regional and national values. Fossil Creek, with its consistent 
spring flow, harbors the endangered desert fish, contains unique 
geologic formations, and provides an opportunity to share the 
prehistory and history of central Arizona.
    S. 86 recognizes the significant efforts made by Federal, State, 
tribal and local entities to return this tributary to a free-flowing 
condition. Passage of this bill ensures the protection of this 
tributary for future generations.
    We would like to work with the Subcommittee on ensuring consistency 
in the language of this bill, and the Wild and Scenic Rivers Act, and 
Forest Service reports and analyses of Fossil Creek.
    In addition, the uppermost point of the Fossil Creek tributary is 
difficult to identify. We would like to work with the Subcommittee to 
provide a description of this beginning point. We also would like to 
ensure that the designated river segments are accurately classified. 
Due to the existence of the Fossil Springs Dam, the 16.8 mile stretch 
of Fossil Creek that would be designated includes a 7.5 mile stretch 
that fits the description for a recreation river, rather than a scenic 
river.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Akaka. Thank you very much, Mr. Holtrop.
    Delighted to have our ranking member here, and before we 
ask you any questions, I'd like to ask our ranking member for 
any remarks or statement he may have.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, I thank you, and thank the 
witnesses for their indulgence in letting me come in late. I 
apologize, there are just too many things in a given day and I 
was trying to get an update very quickly of everybody's 
position.
    I want to thank the Chairman for doing this, it is an 
aggressive list of bills on this markup schedule, and I know 
that we have an appetite on the part of our members that our 
Chairman has tried desperately to accommodate as many as he 
can, and I pledge--as I always do--to work with him 
aggressively to make sure as many of these that we can get out, 
we do.
    I thank the Chair.
    Senator Akaka. Thank you very much, Senator Burr.
    My first question is to Mr. Holtrop on the Fossil Creek 
Wild and Scenic River. The bill appears to be non-
controversial. Though, I understand you may be submitting 
proposed clarifying amendments to the bill, I have just one 
question, however.
    The bill authorizes appropriations to fund a river ranger 
to oversee Fossil Creek. Does the Forest Service typically 
employ river rangers dedicated to one creek? Do you support the 
authorization for one here?
    Mr. Holtrop. Depending on the complexity of rivers, we do 
employ people who have--generally, as part of their duties, 
river ranger responsibilities in various places across the 
country. For example, we have river rangers, part-time river 
rangers on the Chattooga River in the East, and the Clearwater 
and Rogue Wild and Scenic River, and we have a part-time river 
ranger on the Verde River, Wild and Scenic River, which Fossil 
Creek is tributary to.
    But we do, as one of the minor amendments that we are 
suggesting, we would prefer that, to have some more flexibility 
in how we would go about managing the river, and suggest some 
language such as authorizing appropriations to implement the 
management plan, and administer the river, something like that, 
which would allow us some more flexibility, given the shared 
desire to make sure that we're managing this river 
appropriately.
    Senator Akaka. OK.
    Ms. Stevenson, I'd like to begin with S. 2220, the 
authorization for the National Tropical Botanical Gardens. Now, 
you've testified that the Department opposes the bill, because 
it would reduce the amount of National Park Service 
discretionary funds that could be used for Park purposes.
    However, the bill itself does not mandate that funds for 
the Garden come from the National Park Service, or even from 
within the Department of Interior. It simply authorizes up to 
$1 million in appropriation in Fiscal Year 2009, and $500,000 
in following years to match non-Federal funding.
    Is the Administration's position that no Federal funding 
should go to the Gardens, or just that it shouldn't be tracked 
from National Park Service funding needs?
    Ms. Stevenson. Senator, based on the fact that S. 2220 was 
drafted as an amendment to a law that's administered by the 
Secretary of the Interior, and the fact that many pass-through 
grants authorized for the organizations that are involved in 
cultural and natural resources end up in the National Park 
Service's statutory aid account, we think the most likely 
outcome is that funding would come out of the National Park 
Service budget, and we have consistently opposed projects such 
as this, that have no obvious Federal connection or interest, 
because we think that limited Federal funds should be directed 
to programs and projects of Federal agencies.
    Senator Akaka. My next question concerns H.R. 1191, which 
would authorize payments to subcontractors for work performed 
at Grand Canyon National Park.
    As I understand your testimony, the Administration believes 
that it is inappropriate to require the Federal Government to 
assume the liability for the contractor's default. We'll hear 
from one of the affected subcontractors on the next panel.
    But, I believe that the allegation is that the Park 
Service's failure to follow its standard contracting procedures 
was a significant part of the problem. That some Park Service 
contracting employees actually misled the contractors into 
believing that bonds were in place, and that it was safe to 
continue working on these contracts. Even if the Park was aware 
that the departmental contractor had financial irregularities, 
my question is, do you agree with this description of the Park 
Service's contracting practices? If so, why shouldn't the 
subcontractors be given equitable relief?
    Ms. Stevenson. Last year when we testified on a similar 
bill in the House, the Park Service acknowledged that our own 
contracting procedures were not followed. To prevent that from 
happening again, we've implemented additional oversight in our 
contracting practices.
    The National Park Service had a contractual relationship 
with the prime contractor, PGI. The National Park Service does 
not have a contractual relationship with the subcontractors, 
and we don't have the legal authority to pay those 
subcontractors who PGI failed to pay.
    We know that the bill is intended to be an equitable 
resolution to a very difficult situation, however, as we said 
before, it singles out one situation for relief that's not 
available to other people under the Miller Act. Therefore--and 
it would also effectively have the National Park Service pay 
for the same services twice.
    Senator Akaka. To your knowledge, has there been a similar 
situation where subcontractors were not paid for working on a 
park construction project?
    Ms. Stevenson. We're not aware any other such, so 
situations.
    Senator Akaka. My next question concerns two of the study 
bills. S. 1941 authorizing a study of the structure known as 
the Wolf House in Arkansas, and S. 1991, the study of possible 
extensions to the Lewis and Clark National Historic Trail. You 
oppose S. 1941, because the structure is not significant from a 
national historical perspective, even though it's listed on the 
National Register, but you don't oppose S. 1991, although that 
study would presumably review many sites of uncertain 
historical importance.
    I'm curious how the Department came to opposite conclusions 
for these bills, since they authorize similar types of studies?
    Ms. Stevenson. We believe that the Wolf House, as I said, 
may be more suited for inclusion in the State Park System. 
Buffalo National River, which is the closest National Park to 
this historic house, is approximately 62 miles away, and the 
Park already cares for four National Register historic 
districts, as well as other historic building and structures.
    As we stated in our written testimony, the house--although 
listed on the Register--is not distinguished beyond many of the 
other historic log structures in cities all of the United 
States.
    In the case of the Lewis and Clark studies, there are many 
proponents and opponents of the possible extension to the 
Trail. Even though a study was completed this last year to 
examine the Eastern Legacy sites, in terms of their eligibility 
for listing in the National Register, or eligibility for 
designation as a National Historic Landmark, a special resource 
study would provide a definitive answer regarding the 
suitability and feasibility of extending the trail to include 
the Eastern Legacy portion.
    Senator Akaka. My final question to you is, on S. 1365, 
which authorizes cooperative agreements at the Boston Harbor 
Islands National Recreation Area, you've testified that the 
Administration has concerns with the bill, as written. Rather 
than get into specific issues here, would you be willing to 
submit the Park Service's recommended changes to the 
subcommittee for the record?
    Ms. Stevenson. Yes, sir, we'd be very happy to work with 
the subcommittee.
    Senator Akaka. Thank you very much for your responses.
    Now I'd like to ask the ranking member for any questions he 
may have.
    Senator Burr. Thank you, Mr. Chairman, and again to our 
witnesses, I thank you.
    Let me, if I could, go right to the question of the 
subcontractors of the Grand Canyon. I want to try to make 
myself as clear as possible.
    My major concern right now is to make sure this never 
happens again. I'm not convinced from what you've said that we 
have an architecture that won't allow that to happen. I am told 
that even in this process, there were questions raised, serious 
questions raised as early as 3 months before the prime 
contractor was terminated, and that it didn't set off red flags 
or alarm bells with NPS that would have stopped the last 
payment that went to the prime contractors.
    I, and I think every member up here, will try to make a 
judgment based upon the facts that we find relative to the 
merits of whether we have a Federal obligation, in some way, to 
the subs. But, I'm going to implore you that, I think in an 
informal capacity, Mr. Chairman, we need to sit down when such 
a framework is in place, that we can be assured there's no way 
in the future that a situation can happen like it happened in 
this case. Just for somebody to walk in and lay a resignation 
down, and we're all supposed to feel good about the fact that 
somebody was held responsible, they exited voluntarily 
themselves and if, in fact, we haven't looked in great detail 
to everything that went wrong and figured out how to fix it, I 
would pledge to you my commitment to personally work with you 
to figure that out, because I think at the end of the day, it's 
not a question of what we do on this issue of reimbursement of 
subcontractors, it is an issue of do we fix the system to where 
we would never explore this again.
    I want to commend you on your support of the American 
Battlefields Protection Act. I think this is a vitally 
important thing, and I don't think it's controversial, and I 
hope the chairman agrees with me, that this is an area that we 
can move forward quickly.
    I do have a few questions on some of the bills, and I will 
submit others in writing if I am still unclear.
    The Rocky Mountain Science Collection Center, S. 1449, 
where are the collections from the Denver Museum of Nature and 
Science currently stored? Do we know?
    Ms. Stevenson. I do not know.
    Senator Burr. Does the National Park Service have an 
existing relationship with the Denver Museum?
    Ms. Stevenson. I don't know the answer to that either, sir.
    Senator Burr. OK. Where do the National Park Service and 
other agencies currently store materials collected on public 
lands in the inter-mountain region?
    Ms. Stevenson. They are spread among a variety of 
institutions, both universities, as well as museums.
    Senator Burr. Is there a shortage of those relationships 
today?
    Ms. Stevenson. I'm sorry, I don't understand your question.
    Senator Burr. Is there a shortage of available space in 
those existing relationships today for those things that we 
need stored?
    Ms. Stevenson. The difficulty is that enormous amounts--
particularly of archeological remains and paleontological 
remains--were collected over the years, both for scientific 
studies, and other things.
    In fact, the Park Service itself has 124 million objects in 
its collection, many of which we have difficulty paying for in 
order to conserve them. The universities that did the 
collections often took the responsibility at the time that the 
research was done, of caring for the collections.
    It's a little alarming that they're coming back now, years 
after the fact, and asking for assistance when many of these 
Federal objects are the backbones of their collections. We, 
too, are sadly lacking in our ability to take care of our own 
collections, and we really, really cannot help others, since 
we're doing our best to help ourselves.
    Senator Burr. I'm more inclined, as one member of the 
committee, to suggest if there's need for space from the 
standpoint of storage of these archeological findings, I would 
prefer that this be a facility that the U.S. Government own, 
versus for us to cost-share, especially at a 50 percent rate, 
where somebody else will own the building.
    I think we have had a good policy in the past, and I'm 
disturbed that it's not mutually beneficial on both sides, or 
perceived that way today.
    I want to go to 1941 and 1991 from a little different 
question than what the chairman asked, and that is that, in 
both of these bills, they call for studies. In 1941 it calls 
for a study to be conducted and reported no later than 1 year, 
in 1991, no later than 2 years, and it's my understanding that 
the typical study is assigned a 3-year period.
    One, am I correct on the 3-year period, which is more 
indicative of what we have always done, and could a study be 
done in 1 year for 1941, or 2 years for 1991.
    Ms. Stevenson. The 3-year period sounds about right, I'm 
not going to swear to it, but that probably sounds about right. 
That's not that the study itself actually takes from beginning 
to end the 3 years. There are many studies ahead of these two 
studies. Were a person to spend full-time, I think probably, 
certainly an historic study could be done in a shorter period 
of time. In terms of suitability and feasibility, those studies 
require--and I think you would agree with this--substantial 
public involvement, and so they take substantially longer.
    Senator Burr. In the absence of that, I'm not sure that we 
get a true feel for----
    Ms. Stevenson. Exactly.
    Senator Burr [continuing]. What the study is.
    Last question, Little River Canyon boundary expansion, S. 
1961--how many acres are currently included within the boundary 
of Little River Canyon National Preserve, and how many acres 
will the Secretary be authorized to add as a result of this 
legislation?
    Ms. Stevenson. There are presently 13,797 acres, and it 
adds approximately 1,656 acres to the boundary.
    Senator Burr. Are any private property owners within the 
revised boundaries?
    Ms. Stevenson. Yes, sir, there are private property owners 
within the revised--what would be the revised boundary.
    Senator Burr. Are there private property owners within that 
revised boundary that would object to this legislation?
    Ms. Stevenson. I'm not familiar with that, but we wouldn't 
be doing any condemnation or anything like that, it would only 
be willing seller or donation. So, they wouldn't be adversely 
affected from that standpoint.
    Senator Burr. I thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    Ms. Stevenson, you indicated in your testimony that the 
Department does not support S. 2098, you indicated that it did 
not include existence of significant levels of public 
involvement. I'm going to ask consent to provide for the 
record, the feasibility study* for the hearing records, if I 
might, on the Northern Plains National Heritage Area.
---------------------------------------------------------------------------
    * Study has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Akaka. Without objection, it will be.
    Senator Dorgan. I believe there's a misunderstanding here. 
I think there's been very substantial consultation, very 
substantial public involvement and support, and I will ask that 
State Senator Tracy Potter, who is testifying on the second 
panel today, provide you with much of that additional 
information.
    This area is the last place on the Missouri River that can 
be seen as it was seen by Lewis and Clark and the ancestors of 
today's Mandan and Hidatsa Indian tribes. It's an area that is 
the northern extremity of Native agriculture on the Northern 
Great Plains, it overlooks a rich agricultural tradition 
stretching back 1,000 years, it has so many national historic 
sites, the Knife River Indian Village, the Huff National 
Landmark, and so on.
    I think it quite clearly fits exactly within what you would 
think to be a heritage and cultural area. Your testimony does 
not suggest it doesn't fit, is that correct?
    Ms. Stevenson. That is correct.
    Senator Dorgan. Because it fits, I think your question is, 
about public involvement and support. I personally have been 
involved with State Senator Potter, and a number of others who 
have worked for some long while on this, so I can personally 
attest to you that there is substantial public involvement and 
support, so we'll want to get you additional information. 
Because, I think this is one of those areas that fits almost 
exactly in what we anticipated National Heritage Areas to 
represent.
    But, I appreciate your being here today, and I think it is 
sufficient for us just to exchange information with you, and we 
appreciate the work that you're doing on these many pieces of 
legislation.
    Senator Akaka. Thank you, Senator Dorgan.
    Senator Lincoln.

        STATEMENT OF HON. BLANCHE LINCOLN, U.S. SENATOR 
                         FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. Thanks again for 
all of your leadership here on the committee, and all of the 
things that we get to do here. It's always very exciting for 
us, because it really does have a relevance to our home States. 
We appreciate it.
    We thank you all both for being here. I've had the 
wonderful pleasure a couple of months ago of introducing 
myself, and meeting with my new superintendent in the Buffalo 
National Park, and I'm one of the members that actually spends 
most of my vacation time in our National Parks. I took my 
children floating and camping on the Buffalo just a couple of 
weeks ago, just as I did when I was a child, they spend a good 
bit of their summer vacationing on, at Hot Springs National 
Park.
    So, we thoroughly enjoy the good work that you do and the 
maintenance and all of the efforts that the National Park 
Service does in that respect. So, we're one of the American 
families that enjoys the great work that you do.
    Ms. Stevenson. Thank you, Senator.
    Senator Lincoln. We appreciate that, absolutely.
    Mr. Holtrop, thank you so much, we have a great working 
relationship with the Forest Service in Arkansas, I also grew 
up right outside the boundaries of the St. Francis National 
Forest, and I used to go up there turkey hunting with my Dad 
and knew just about every inch of it when I was a kid. It's a 
wonderful--along with the Washita in the Ozarks, great 
opportunity and resource for the people of Arkansas, and they 
love it. They love our National Parks, and they love our 
National Forests, and we enjoy them and take good care of them. 
So we appreciate all of the work you do in conjunction with 
that.
    Mr. Chairman, the issue I have here, I guess, is the bill 
that is before us, and that is the study on the Wolf House. Of 
course, the Director's comments were unfortunate in my respect, 
because I do really believe that the Wolf House is a unique--
it's a two-story structure that exists as really the oldest 
standing territorial courthouse west of the Mississippi River. 
While the Park Service may believe that the Wolf House should 
not be a part of the National Park Service, I beg to differ a 
great deal.
    To begin with, the structure is adjacent to an existing 
National Park, the Buffalo National Park. Therefore, the study 
would not be undertaken in order to establish a new park, but 
simply to put an adjacent structure into an existing National 
Park.
    The other great thing about the Wolf House is that it's 
already been restored. The local community, the people of 
Arkansas have felt such a sense of pride and dignity about this 
structure, such an invested piece of history, they feel like--
not only for Arkansas, but the Western Territories--that they 
spent their own moneys to restore it. They restored it with 
funds from the local community and the Arkansas Preservation 
Society. So, we're not asking the Park Service to come in and 
restructure, rebuild, re-do, renovate--what we're asking is 
that the Park Service would have the potential role to simply 
be the one of preservation and enhancement of what we consider 
an enormous treasure and landmark, both in Arkansas, and as I 
said, for the western progression to the territories.
    It is certainly a structure that should be preserved. The 
Park Service describes the Wolf House as similar to other log 
structures across the country, in your comments, Ms. Stevenson. 
It also notes that it's the oldest standing territorial 
courthouse west of the Mississippi.
    But none of the other log structures that you reference, or 
that you speak of from the Park Service, I don't think can 
really claim that it is the oldest territorial courthouse. We 
had many visitors that traveled those roads--Daniel Boone was 
one of many acclaim, a host of others--that used this 
courthouse as an outpost, and a place to be able to stop along 
their travels out West.
    Finally, it is really unlikely, Mr. Chairman, that the Wolf 
House could be integrated into the State Park System, I know 
that was your recommendation. But, unfortunately, there is a 
moratorium on establishing new State Parks in Arkansas, and we 
do not want to lose the investment that the local community has 
made, that the State Preservation Society has made, and all of 
the good things that have been done, in regard to the 
preservation and the restoration of the Wolf House, due to the 
moratorium on those State parks.
    So, we really do feel like making it, as it is adjacent to 
the National Park, a part of the National Park.
    Even if the moratorium were not the case, since it is so 
close to the park, to the existing National Park, I just really 
do feel that it's only prudent to conduct, at least, a 
feasibility study on designating the Wolf House as a unit of 
the National Park System.
    I'm curious, because I came in with Mr. Stevenson's 
comments, she mentioned that it was 64 miles, I think it was 
64, or 61--I can't remember what your statement was--I would be 
curious to know where you measured from. I don't know if you're 
measuring from the National Park Service's headquarters in 
Harrison, because the river's quite close by to the Wolf House, 
and of course, that is the National Park, is the Buffalo. So, I 
don't know where you're measuring from there.
    Ms. Stevenson. I believe that, it was provided by the Park, 
and I believe that that's driving distance from headquarters on 
the road, as opposed to as the bird flies. But I could check 
that out for you.
    Senator Lincoln. Right, but in terms of being ``in the 
park,'' it is clearly ``in the park,'' in its proximity to the 
River. It may not be ``in the park'' in the designation of 
being adjacent to the headquarters, of course there's always 
been the turmoil of whether people wanted to move the 
headquarters to different places.
    There's a wonderful Park Service-operated visitor's center 
in Tyler Bend, which we took out in one of the days that we 
floated. Great services and opportunities there. It's not in, 
obviously, a city like Harrison, it's at a bend in the river, 
which is again, the National Park that so many people love and 
enjoy.
    So, Mr. Chairman, I just unfortunately have large 
disagreements with Ms. Stevenson, because I really do feel like 
this is an appropriate place for the Wolf House, I think it's a 
wonderful addition to the National Park that so many people and 
so many families like ours enjoy, and I think it would make it 
not only more accessible to people to visit, and see, and learn 
the history of travelers and explorers that came through, 
passing to the Western Territories that came through Arkansas, 
but it just makes sense, since its proximity is so close to the 
National Park.
    So, I hope that we'll make sure that every one of those 
considerations will be made, and I look forward to continuing 
to work with the Park Service, because they are a great bunch 
in Arkansas, and we thoroughly enjoy, in our office, working 
with them, and the great things that they do, along with the 
Forest Service.
    So, I'm just going to have to respectfully disagree with 
Ms. Stevenson here today, and look forward to working with you, 
Mr. Chairman, and others in the committee to see if we can't 
make something like this happen.
    Thank you.
    Senator Akaka. Thank you very much, Senator Lincoln.
    That concludes my questions and we'll move to the next 
panel.
    I want to thank this panel very much for your testimonies, 
your responses, and we'll be meeting with you and working with 
you on decisions that we need to make. Thank you.
    I'd like to call up the next panel and ask that you please 
take a seat at the witness table. The panel includes Ron Steed, 
project manager for R and W Excavating from Hildale, Utah; 
George Sparks, the president and CEO of the Denver Museum of 
Nature and Science; Chipper Wichman, the director and CEO of 
the National Tropical Botanical Gardens.
    I want to say to Chipper, to say aloha, and to Hoali who's 
here, too, and both of you made the long trip from Hawaii to be 
here. Mahalo, thank you very much.
    Tracy Potter, a North Dakota State Senator, who is also the 
President of the Northern Plains Heritage Foundation.
    We'll include your statements in the hearing record, and 
I'd like to ask each of you to summarize your testimony and 
limit your remarks to no more than 5 minutes, and once everyone 
has testified, we'll start on a round of questions.
    But, at that time, I'd like to ask Senator Dorgan, if he 
would like to introduce Mr. Potter, who has come from North 
Dakota to testify on the North Dakota Heritage Area.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I thank you very much, I'm 
not able to stay for the entire panel, and I apologize for 
that, but there are so many other committee issues, and we're 
set to go to an Appropriations Subcommittee conference soon, 
and so, I wanted to especially welcome State Senator Potter. As 
I indicated to the Park Service, I have firsthand knowledge of 
the work that has been done on the Northern Plains Heritage 
Foundation, a great amount of work has been done with a lot of 
people. We're very excited about that work in North Dakota, and 
I hope in Mr. Potter's testimony that he will respond to the 
issue that was raised by the Park Service.
    The Park Service noted that this project falls squarely 
within the guidelines of what would be a Heritage Area, but had 
questions about outreach and work with others, and so on. So, I 
hope Mr. Potter will address that. But, I thank you very much 
for the courtesy and State Senator Potter is a very 
distinguished member of our State Senate, in addition to being 
a historian and someone very interested in our culture and our 
heritage, and we welcome him here.
    Senator Akaka. Thank you very much, Senator Dorgan.
    So, I'd like to ask for your testimonies, and I'll ask 
Senator Potter to please proceed with your statement.

STATEMENT OF TRACY POTTER, PRESIDENT, NORTHERN PLAINS HERITAGE 
                     FOUNDATION, MANDAN, ND

    Mr. Potter. Thank you, Mr. Chairman, Senator Dorgan. Thank 
you for the opportunity to testify in support of the Act to 
create a new National Heritage Area along the last free-flowing 
stretch of the Missouri River in Central North Dakota.
    After working on this project for 3 years, I am convinced 
that the region is worthy of National Heritage Area 
designation, and I hope that convince you, as well.
    My name is Tracy Potter, as I said, and I'm a historian and 
for 20 years, a heritage tourism professional, and the 
Executive Director of the Fort Abraham Lincoln Foundation, with 
a mission to preserve, develop and promote the historic 
properties of Fort Lincoln State Park.
    I previously served with North Dakota Tourism, including a 
term directing that State office. I come before you today as 
the President of the Board of Directors of the Northern Plains 
Heritage Foundation.
    The National Heritage Area is a place designated by 
Congress where natural, cultural, historic and scenic resources 
combine to form a cohesive, nationally distinctive landscape 
arising from patterns of human activity shaped by geography. 
The proposed Northern Plains National Heritage Area certainly 
fits that definition.
    The natural scenic beauty of the Missouri River is 
legendary, there are places along the River that simply take 
your breath away. In the landscape apart from Bismarck, the 
land often appears unchanged since the glacier receded 15,000 
years ago.
    The cultural and historic resources are even more stunning. 
Some of the most famous people of the 19th century made history 
within this proposed area: Captains Meriwether Lewis and 
William Clark met Sacagawea and her husband there. George 
Armstrong Custer and the 7th Cavalry were stationed at Fort 
Lincoln. Custer was there because of Sitting Bull, another 
legendary figure who rode and hunted and fought all through the 
region.
    The cultural resources of the proposed area stretch back 
more than 10,000 years, to the people who mined the Knife River 
flint quarries to make spear points for hunting mammoths. The 
initial focus of the proposed Heritage Area, however, will be 
on the earthlodge people, the Mandan and Hidatsa, who pioneered 
agriculture on the Northern Plains 1,000 years ago. The settled 
the areas, crew crops and hunted, built cities, and developed 
trade relations stretching to both coasts.
    Villages became permanent cities, lasting hundreds of 
years, with populations of two and three thousand. They 
achieved a balance with nature and with other nations, and 
those cities might still be here today, if not for two 
devastating smallpox epidemics.
    The ancient cities are still there, of course, they're just 
empty. There are approximately 150 village sites within this 
proposed area, and this is where the plan to create a Northern 
Plains National Heritage Area dovetails with your committee's 
oversight responsibilities for prehistoric ruins.
    Many of the sites have been impacted by cultivation or 
urban growth, and of the others, a handful are protected as 
State and Federal sites. But there are still others, important, 
but yet unprotected.
    Working not in a regulatory way, but strictly with 
incentives and encouragement, the Northern Plains Heritage 
Foundation will help preserve this heritage. This is, to me, 
the most attractive element of the National Heritage Areas, 
that they are not in any way regulatory, but that they pursue 
preservation, and honor our national heritage, strictly with 
incentives and encouragement--they are all carrot, and no 
stick.
    Over the last two decades, a combination of private 
donations, and State and Federal funding has resulted in 
substantial investment--about $10 million--in building a 
critical mass of heritage tourism sites in this proposed area. 
Designation will produce tremendous return on those 
investments. The stamp of credibility, and the marketing 
resources, and particularly, the linking of the various sites 
under one comprehensive theme will have an important affect on 
each of the sites. It will stimulate further private sector 
investment in lodges and bed and breakfasts and canoe rentals 
and tour operations.
    Designation is the last critical component which will bring 
those investments together, and make them pay off for the 
residents of the proposed area.
    The residents are excited about it. In 10 public meetings 
held throughout the 5-county area, in numerous other 
appearances before civic groups and service clubs and 
organizations, we have found virtually unanimous support for 
those concepts. There has been nary a discouraging word.
    Again, Mr. Chairman, I thank you for this opportunity to 
appear before this subcommittee, and I welcome any questions 
that you or your colleagues may have.
    [The prepared statement of Mr. Potter follows:]
Prepared Statement of Tracy Potter, President, Northern Plains Heritage 
                         Foundation, on S. 2098
    Chairman Akaka and Members of the Subcommittee: thank you for the 
opportunity to testify in support of S. 2098, an act to create a new 
National Heritage Area along the last free-flowing stretch of the 
Missouri River in central North Dakota. After working on this project 
for the better part of three years, I am convinced that this region is 
worthy of National Heritage Area designation. I hope now to convince 
you, as well.
    My name is Tracy Potter. I am a historian and have been a heritage 
tourism professional for the last twenty years. I've also recently 
become a North Dakota State Senator, but please don't hold that against 
me. My ``real job'' is serving as the Executive Director of the Fort 
Abraham Lincoln Foundation. Our mission is to preserve, develop and 
promote the historic properties within Fort Abraham Lincoln State Park, 
including the 7th Cavalry's posting, the last home of George Armstrong 
Custer and the On-a-Slant Mandan Indian Village. Prior to coming to the 
Fort Abraham Lincoln Foundation in 1993, I served six years at North 
Dakota Tourism in various capacities, including directing the state 
office through a legislative session for Governor Ed Schafer, recently 
nominated for Secretary of Agriculture.
    I come before you today as President of the volunteer Board of 
Directors of the Northern Plains Heritage Foundation.
                     national heritage area defined

    A National Heritage Area is a place designated by Congress where 
natural, cultural, historic, and scenic resources combine to form a 
cohesive, nationally distinctive landscape arising from patterns of 
human activity shaped by geography.

    The proposed Northern Plains National Heritage Area certainly fits 
that definition. The natural scenic beauty of the Missouri River Valley 
is legendary. There are places along the river that take your breath 
away. The landscape apart from Bismarck-Mandan often appears unchanged 
since the glacier receded 15,000 years ago - the glacier that turned 
the Missouri from emptying into Hudson Bay to its current course to St. 
Louis and the Gulf of Mexico.
    The cultural and historic resources are even more stunning. Some of 
the most famous people in the world, of the 19th Century, made history 
within the proposed Heritage Area. Captains Meriwether Lewis and 
William Clark spent more time there than any other place on their 
famous mission. Lewis and Clark met and hired Sacagawea and her husband 
Toussaint Charbonneau in the area. George Armstrong Custer and the 7th 
Cavalry were stationed at Fort Abraham Lincoln, a key historic site 
within the proposed Heritage Area. The reason Custer was there was to 
chase the Lakota leader Sitting Bull, another legendary figure who rode 
and hunted and fought along the Missouri River all through the region.
    The cultural resources of the proposed area stretch back more than 
ten thousand years, to the people who first mined the nearby Knife 
River Flint quarries to make spear points for hunting mammoths. The 
first focus of the proposed Heritage Area will be on the Native peoples 
of only the last thousand years, however. These are the earthlodge 
people, the Mandan and Hidatsa, who pioneered agriculture on the 
Northern Plains. They settled the area, grew crops and hunted, built 
cities and developed trade relations stretching to both coasts.
    At first the villages of the Mandan and Hidatsa were temporary, 
lasting only about 50 years before the wood resources and game played 
out. Later, in the Heart River Phase, the villages became permanent 
cities, lasting hundred of years with populations of two and three 
thousand. They had achieved a balance with nature and with other 
nations and those cities might still be here today if not for the 
devastating smallpox epidemics of 1781 and 1837.
    The ancient cities and the even earlier villages are still there, 
of course. They are just empty. There are approximately 150 village 
sites within the proposed Heritage Area. This is where the plan to 
create a Northern Plains National Heritage Area dovetails with your 
committee's responsibility for preservation of prehistoric ruins. Many 
of the sites have been impacted by cultivation or urban growth. Of the 
others, a handful are under the protection of the State Historical 
Society of North Dakota as State Historic Sites. One is a National 
Landmark, another is protected in a State Park and three others are 
part of the Knife River Indian Villages National Historic Site. But 
there are still others, as yet unprotected. Working not in a regulatory 
way, but strictly with incentives and encouragement, the Northern 
Plains Heritage Foundation could help preserve this valuable piece of 
our heritage.
    This is, to me, the most attractive element of the National 
Heritage Areas, that they are not in any way regulatory, but that they 
pursue preservation and honor our national heritage strictly with 
incentives and encouragement. They are all carrot and no stick.
    The Northern Plains Heritage Area is significant as a transitional 
region, both on the north-south axis and east-west. This was the 
northern frontier of prehistoric agriculture, where talented Mandan and 
Hidatsa Indian agronomists developed strains of corn, beans and squash 
adapted to the short growing seasons of the Northern Plains. Later 
farmers in the area learned from the Mandan and Hidatsa experience, and 
even adopted their predecessors' varieties for their own farms. The 
Oscar Will Seed Company distributed Mandan and Hidatsa corn, for 
instance, throughout the Great Plains and other northern crop lands.
    John Steinbeck well described the east-west transition.

          Someone must bave told me about the Missouri River at 
        Bismarck, Nortb Dakota, or I must bave read about it. In eitber 
        case, I badn'tpaid attenfion. I came on it in amazement. This 
        is Thwhere the map should fold. Here is the boundary between 
        east and west. On the Bismarck side it is eastern landscape, 
        eastern grass, with the look and smell of eastern America. 
        Across the Missouri on the Mandan side, it is pure west, with 
        brown grass and water scorings and small outcrops. The two 
        sides of the river might well be a thousand miles apart.
                  John Steinbeck
                  Travels with Charley

    Creator said to Lone Man, ``Together we will make the world,'' and 
he assigned to Lone Man the region east of the Missouri, taking for 
himself the creation of the west river country. When Lone Man was done 
with his task he reported back and asked First Creator what he thought 
of his handiwork. ``Too flat,'' was the response. Not enough trees, 
either. Man wouldn't be able to live by the hunt in such a territory 
because game would see him coming at a distance. It was dangerous, too, 
because enemies would see each other and consequently be unable to 
avoid coming to blows. The west river country was better, the Creator 
thought, with woody draws, bluffs and buttes.
    Man did, however, come to thrive at the junction of these two eco-
systems, figuring out how to utilize both sides of the Missouri River. 
The villages of the Mandan people became centers of trade and 
population, both fueled by agricultural surplus. The first villages 
were started nearly a thousand years ago. By the 1700s, tribes from all 
over the Northern Plains, from the lakes and woods of Ontario across 
the prairie to Saskatchewan and down to the Black Hills and even from 
the foothills of the Rocky Mountains people were coming to the Mandan 
villages of the Heart River region. French-Canadian traders first 
arrived in the region in 1738, when Pierre Gaultier, Sieur de la 
Verendrye visited Fort La Butte, a yet unidentified earthlodge village. 
Contact with fur trade posts on the Assiniboine River was constant 
after that. The Heart River villages carried on a brisk trade as the 
frontier of the trade gun from Canada met the frontier of the horse, 
coming from the Southwest.
    When Lewis and Clark entered the area in 1804 as the first 
representatives of the United States to meet the Mandan and Hidatsa, 
they found abandoned villages along the Missouri from the Heart River 
almost to the Knife River. The smallpox epidemic of 1781 had emptied 
those ancient cities. At the Knife River, clustered for mutual defense 
against nomadic enemies, the Mandan and Hidatsa lived in five villages 
each one of which was equivalent to the population of St. Louis, or 
Washington City, at the time. Those five villages, now partly preserved 
as the Knife River Indian Villages National Historic Site, were central 
to a vibrant international trade network that included the Crow and 
Assiniboine, the French and Metis of the Northwest Company and the 
English of the Hudson Bay Company.
    The Mandan exhibited such hospitality to the men from the young 
United States (the Mandan chief Sheheke famously said to Captain Clark, 
``If we eat, you shall eat.'') that the explorers named their winter 
quarters Fort Mandan. Upon their return from the Pacific, the Captains 
were able to convince Sheheke to accompany them to Washington, where he 
met President Thomas Jefferson, December 30, 1806, cementing an 
enduring friendship between the two nations.
    After Lewis and Clark, other visitors to the five villages included 
George Catlin, John J. Audubon, Prince Maximilian of Wied, and Karl 
Bodmer. The art and journals of those visitors chronicle the rich and 
unique culture of the earthlodge peoples.
    History didn't end, of course, when the smallpox epidemic of 1837 
devastated the Knife River villages. Decades after the Hidatsa and few 
remaining Mandan emigrated upriver, the United States military moved 
into the region, establishing a string of forts, including Fort Abraham 
Lincoln in 1872. The Northern Pacific Railroad and settlement arrived 
simultaneously. Though they were gone, the work of the pioneering 
agriculturalists, the Mandan and Hidatsa, influenced the development of 
production agriculture in the area, and eventually in a much wider 
distribution.
Significant Attractions of the Northern Plains Heritage Area
    The area is anchored by two federally-recognized properties: Huff 
Indian Village State Historic Site on the south, which is a National 
Landmark; and, the Knife River Indian Villages National Historic Site 
on the north, which is a unit of the National Park Service. Between 
those lie the major attractions of Fort Abraham Lincoln State Park, the 
North Dakota Heritage Center, Fort Mandan and the Lewis and Clark 
Interpretive Center. There are six other State Historic Sites and 
another State Park within the proposed area.
    Fort Abraham Lincoln includes the reconstructed Custer House and 
four other 7th Cavalry buildings, and six reconstructed earthlodges in 
the Mandan Indian Village of On-a-Slant, occupied from 1575 to 1781. A 
CCC-era fieldstone building serves as the park's Visitor Center with 
the finest museum displays on the Mandan Indians to be found anywhere. 
Fort Lincoln, operated jointly by the North Dakota Department of Parks 
and Recreation and the non-profit Fort Abraham Lincoln Foundation, is a 
major heritage tourism attraction for Bismarck-Mandan and the state as 
a whole. More than 70% of visitors to Fort Lincoln come from other 
states and annually between 3% and 5% are from foreign countries.
    The reconstructed Fort Mandan and the nearby Lewis and Clark 
Interpretive Center at Washburn are similarly draws for heritage 
tourists from all over the United States and the rest of the globe. The 
Interpretive Center holds a complete collection of Karl Bodmer aquatint 
prints, one of four such sets in the world. It also contains a state-
of-the-art exhibit on The First Farmers, a very direct tie to the main 
theme of the proposed Heritage Area.
    The North Dakota Heritage Center on the state Capitol Grounds is 
the state's museum. From prehistoric to modern times, the Heritage 
Center has a heavy focus on agriculture and agricultural issues 
appropriate to one of the most rural states in the Union.
    Those redeveloped and reconstructed sites are well protected, 
professionally interpreted and recognized by both state government and 
the state's residents as important to both the state's heritage 
preservation and its economic benefit. Heritage tourism is widely 
regarded as one of the state's most important and fastest growing 
economic engines.
Cashing in on Investment
    Over the last two decades, a combination of private donations and 
state and federal funding has resulted in substantial investment in 
building a critical mass of heritage tourism attractions within the 
proposed Heritage Area.
    Designation as a National Heritage Area will produce tremendous 
return on those investments. The stamp of credibility, the marketing 
resources, and particularly, the linking of the various sites under one 
comprehensive and comprehensible theme will have an important economic 
effect on each of the sites. It will stimulate further private sector 
investment in lodges and bed and breakfasts and tour operations. 
Designation is the last critical component which will bring the 
investments together and make them pay off for the residents of the 
proposed area.
    The various non-profit organizations, supported by private sector 
donations, and the state and federal agency workers in the area already 
work together very cooperatively. Designation of the area will deepen 
that cooperation, providing a vehicle and a common goal for joint 
actions.
    The great thing about heritage tourism is that it gives us the 
economic incentive to do the things we want to do anyway. We want to 
preserve the past and educate our children about their heritage. But, 
when we put the desire for investment in preservation and education up 
against human needs for food and water and housing, investment in 
museums and historic sites, and preservation of prehistoric ruins can 
seem trivial. But when those investments return economic prosperity, 
when the investments in heritage preservation create tax- paying jobs 
and businesses, everyone benefits.
Who will benefit?
    As I just mentioned, really everyone benefits when we invest in 
heritage tourism growth, but specifically in this case the first 
beneficiaries will be the existing state and private organizations 
engaged in heritage tourism. We can expect increased visitation to our 
sites to result simply from gaining the credibility of designation. 
Adding the area to the National Park Service lists and website will 
encourage visitation. Highway signs will announce to travelers on I-94 
and US 83 that they have entered a National Heritage Area. Brochures 
and electronic literature will help define and link the existing sites, 
providing excellent cross-selling opportunities between Fort Mandan, 
Fort Lincoln, the Knife River Indian Villages NHS, the state Heritage 
Center and other sites in the area.
    A second, and even more important benefit will be the encouragement 
for additional private sector investment in the area. Designation, with 
accompanying public relations work, will create a wave of enthusiasm 
for new development in canoe rentals, lodges and bed and breakfasts. 
I've been saying for about 20 years that the only thing wrong with 
North Dakota's tourism product is a lack of cash registers. We have 
natural beauty, compelling history, and friendly people dotting our 
wide-open spaces. What we lack are cash registers to ring.
    The arrival of the Lewis and Clark Bicentennial provided 
encouragement for development of major sites in the proposed Heritage 
Area. We got all dressed up. Designation now, linking those major 
sites, will provide encouragement for another tier of development: 
creating jobs and ma and pa businesses, particularly in the more rural 
areas, providing a counter to the depopulation of rural counties that 
North Dakota has seen for the last 75 years.
Community Support
    Since the incorporation of the Northern Plains Heritage Foundation, 
discussions about creation of a National Heritage Area along the 
Missouri have taken place in a completely transparent and inclusive 
way. In public hearings before city and county commissions the meaning 
of such a program has been discussed and the commissions have 
unanimously provided their encouragement. The directors of three state 
agencies: North Dakota Tourism, North Dakota Parks and Recreation, and 
the State Historical Society of North Dakota serve as ex-officio 
members of the Foundation's Board of Directors and they have each shown 
their dedication to the project by their personal attendance at 
Foundation Board meetings and support for our direction. You can 
reference the official letters of support in the Feasibility Study 
conducted over the last three years and published last May. I guarantee 
you, we're in the land where the deer and the buffalo roam, and there 
has been nary a discouraging word about the establishment of the 
Northern Plains Heritage Area. There have been only two questions asked 
about the Heritage Area. One is about the possibility of federal 
impingement on individual property rights in the area. When we answer 
that the program is all carrot and no stick, all incentives and 
marketing and encouragement with no regulation, there is nothing left 
to do but cheer for the concept. The other question is how to expand 
the area, because it sounds like such a good idea. The answer to that 
is focus and concentration. There are very understandable historical-
cultural reasons why this area represents the heartland, the homeland 
of the Mandan and Hidatsa and their pioneering of agriculture and 
permanent settlement of the Northern Plains. But more than that, on a 
more practical, economic basis, the heritage area program requires 
focus. The storyline needs to be simple ... the Rivers of Steel is 
about the heritage of our steel industry; Motor City is about cars. 
Here we tell the story, along the last 80 miles of free-flowing 
Missouri River about how people came here 1,000 years ago and 
established a way of life that echoes down to us today, still affecting 
and improving our lives. Within this proposed area are a critical mass 
of excellent historical sites, well-preserved and interpreted, as well 
as several prehistoric ruins, old village sites in need of attention.
    North Dakotans respectively request and welcome federal designation 
of the Northern Plains Heritage Area.
A Vision of the Future Derived from the Past
    North Dakota doesn't have Mount Rushmore. No Yellowstone, or Chaco 
Canyon. In North Dakota tourism circles we have long recognized the 
need to cluster our several remarkable historical sites to create a 
critical mass, a destination attraction. Those of us in the region, 
engaged in both preservation and promotion work well together. 
Recognition of the national significance of the stories told in the 
Northern Plains Heritage Area will bolster local efforts and by a 
stroke of a pen, or an act of Congress, provide a prosperous future for 
the heritage of our past, a prosperity both in economic activity and 
the richness of the cultural and historic resource.
    Again, Mr. Chairman, I thank you for this opportunity to appear 
before this Subcommittee. I welcome any questions that you and your 
colleagues may have.
                Appendix.--Northern Plains Heritage Area
Description of the Northern Plains Heritage Area
    The scenic breaks of North Dakota's Missouri Valley overlook a rich 
agricultural tradition stretching back a thousand years. Along the 
length of the state's remaining free-flowing Missouri River, from Huff 
National Landmark on the south to the Knife River Indian Villages 
National Historic Site on the north, the Northern Plains Heritage Area 
encompasses the ancient homeland of the Mandan and Hidatsa American 
Indian nations.
    While farming methods have changed, the agricultural traditions and 
the scenic, cultural and historic values remain. The same attributes of 
geography and climate that attracted the Mandan and Hidatsa later 
appealed to homesteading farmers and ranchers and the energy industry, 
all of whom benefited from the natural resources of the land.
Natural Values
    Beyond agriculture, Mandan-Hidatsa culture depended on fishing and 
wildlife. The Missouri Valley remains a haven for both geese and 
walleyes, for turkeys and white- tails. Endangered species like the 
Piping Plover and the Least Tern, rarities for birdwatchers' lifetime 
lists, depend on the free-flowing Missouri's sandbars; and ancient 
Pallid Sturgeon swim below its surface. Once-endangered species like 
the Bald Eagle, a symbol of significance to Native Americans and other 
Americans alike, have made a remarkable recovery along the Missouri.
Distinctive Landscape
    This National Heritage Area extends nearly the entire length of the 
last of the free-flowing Missouri River in North Dakota, the last place 
the river can be seen as it was seen by Lewis and Clark and the 
ancestors of today's Mandan and Hidatsa.
    But what makes it a particularly good fit for a National Heritage 
Area is the distinction arising from the patterns of human activity 
shaped by geography. This is the northern extremity of Native 
agriculture on the Great Plains.
Cultural and Historic Resources
    The cultural and historic resources of the National Heritage Area 
will include the vast majority of Mandan and Hidatsa villages ever 
settled, among other sites important to the Mandan and Hidatsa, 
including the nationally-significant sites of Fort Mandan and On-a-
Slant Mandan Indian Village.
    Past the main theme of the Northern Plains Heritage Area, there are 
a number of other important sites, providing a deeper look at the 
layers of heritage filling the Valley.
    The mission of the Northern Plains Heritage Area is to preserve, 
develop and promote the Native American and natural scenic heritage of 
the Missouri River in North Dakota. The Northern Plains Heritage 
Foundation is a non-profit, 501 (c) (3), private sector organization 
raising and distributing funds in furtherance of that mission.
    Related Facts: The area is 55 miles long, as the crow flies. It is 
a 90-mile drive from Huff National Landmark up ND 1806 through 
Bismarck-Mandan, and ND 1804 past Double Ditch and through Washburn, to 
ND 200 to Stanton and the Knife River Indian Villages. It includes two 
national sites, two state parks and five state historic sites, mixed 
agriculture and ranching areas and significant energy development.

    Senator Akaka. Thank you very much, Mr. Potter.
    Ron Steed, for your testimony.

 STATEMENT OF RON STEED, PROJECT MANAGER, R AND W EXCAVATING, 
                          HILDALE, UT

    Mr. Steed. OK, I'm sorry. First of all, I would like to 
thank you, Mr. Chairman, for this opportunity. I am, as you 
well-stated, one of the contractors--subcontractors to the 
Pacific General, incorporated--PGI--who worked for the National 
Park Service in 2003 and 2004.
    Early in 2003 they, PGI, sent a representative to our part 
of the country to solicit proposals for work at the North Rim 
of the Grand Canyon, since we're on the North side of the 
ditch, and it's a long ways around from the other side.
    They represented themselves as being very involved, they 
were in the process of an indefinite delivery and indefinite 
quantities contract, actually, not far in progress in a 5-year, 
I believe that they said a 5-year contract, which work was 
contracted through task orders. They had several task orders 
underway, mostly at the South Rim, and so R and W bid on, and 
was awarded, some subcontract work at the North Rim.
    The payments were slow in coming, and in our study we had 
actually been a general contractor for the Park Service, we 
knew the policy of having bonds for work for larger contracts, 
we had no reason to suspect that there would not be bonds in 
place.
    When we attempted to look into getting payment when 
payments were slow coming through the general contractor, the 
prime, we went to the Park Service for bond information, and 
they could not provide it. As the intensity of collecting 
intensified to the Park Service, as was mentioned before, the 
contracting officer resigned.
    The Park Service has voiced their concern--the Department 
recognizes that H.R. 1191 is intended to be an equitable 
resolution to a difficult situation, however, it singles out 
one situation for relief, not available to others.
    I say, the subcontractors, in this case, were singled out 
to perform several improvements to the Grand Canyon National 
Park, and as a result of the contracting officer not requiring 
the bonds, as law provides, we got the privilege of supporting 
those projects. Yes, the Park Service maintains they paid for 
them, and not only that, the subcontractors didn't get paid, 
the general contractor--the government also didn't get their 
projects completed, because of the performance and payment 
bonds were not in place.
    They further state, ``Although we are sympathetic about the 
position of some subcontractors, the Administration is 
concerned about the precedent that would be set by requiring 
the Federal Government to assume the liability of the 
contractor's default, particularly in the situation where no 
contractual relationship exists.'' At the outset of the IQ 
contract, there were bonds. The previous subcontractors had 
already been involved in that. At some point, the Park Service 
took over the administration of the task orders in-house, and 
they somehow failed to maintain the requirement for bonds to 
this general contractor.
    The general contractor closed shop, the contracting officer 
retired and the subcontractors have had absolutely no recourse, 
but to come to this body. The House, we appreciate, looking 
into this situation, and advancing it this far, and we 
certainly hope that it will carry through to the Senate and 
help correct the problem that was genuinely a burden to the 
subcontractors and their families.
    [The prepared statement of Mr. Steed follows:]
 Prepared Statement of Ron Steed, Project Manager, R and W Excavating, 
                       Hildale, UT, on H.R. 1191
    We want to thank the Chairman and this Committee for taking the 
time to hear and consider this testimony with regards to the events and 
circumstances that have led to legislation of H.R. 1191 to authorize 
the National Park Service to pay for work performed by subcontractors 
of PGI at the Grand Canyon National Park.
    Early in 2003 several companies in northern Arizona and southern 
Utah were solicited by Pacific General Inc. (PGI) a California 
Corporation to offer quotes for the construction of a new EMS building 
at the North Rim of the Grand Canyon National Park. They said they had 
been awarded a five year Indefinite Delivery/Indefinite Quantity (IDIQ) 
contract with the National Park Service (NPS) and had several million 
dollars work on hand with the anticipation of several years of future 
work.
    R & W bid on the EMS and was awarded a subcontract with PGI to do 
the earthwork and utilities and mobilized in June 2003. PGI had many 
projects underway by the time we mobilized, mostly at the South Rim. R 
& W offered quotes on many task orders and was awarded several of them.
    From the outset, PGI was slow to pay draws submitted to them and as 
the season went on, the payments got later and later. We applied as 
much pressure on PGI as we felt was reasonable without jeopardizing our 
relationship with them, anticipating working with them over a long 
period of time. By November, 2003 the draws were just not being paid. I 
contacted the Contracting Officer (CO), Mr. Gordon Plaisted by phone to 
inquire into the status of certain draws to see if they were being 
delayed for reasons we were responsible for. He informed me that the 
draws in question had been approved by him and to look to PGI for 
payment. Not receiving payments from PGI we requested bond information 
so we could file claims against their performance and payment bonds. 
The CO told us he would provide the name of the Surety who provided the 
bonds but he later admitted that bonds did not exist.
    The question may be asked, how did so many subcontractors get into 
so many projects without the general contractor acquiring performance 
and payment bonds as required by law? PGI had contracts with the 
government valued at millions of dollars; they were being awarded 
numerous new contracts and task orders on an ongoing basis and they had 
a track record of large government contracts over many years time. It 
should be safe to assume that if the government is awarding these 
numbers and magnitude of contracts to a General Contractor that that 
contractor is conducting business in a proper and legal manner.
    The bigger question is how did PGI obtain so much work with NPS 
without providing bonds? The Federal Miller Act and the Federal 
Acquisition Regulations provide that since subcontractors cannot place 
liens on public lands the general contractor must provide performance 
and payment bonds for contracts over $100,000.00. If subcontractors are 
not paid, the claim is against the payment bond. The Miller Act has 
been a part of contracting for decades and there should be no question 
that it is being applied as required. Large Government contracts must 
be bonded, but the CO in total disregard for the law kept issuing task 
orders knowing PGI could not or did not provide the bonds. He also 
approved payments knowing that PGI had provided certification that 
their subcontractors and suppliers had been paid when in fact they had 
not paid them. How do we know he knowingly and blatantly violated of 
the law? Several calls had been made to him personally for bonds and 
payment inquiries, yet he continued to issue task orders and approved 
payments to PGI! We requested information through the Freedom of 
Information Act (FOIA) and did get some information up to April, 2004. 
Subsequent multiple requests for FOIA have been denied. It appears the 
NPS has information they do not want aired. Just what are they hiding?
    When so many subcontractors were inquiring of the NPS about 
payments, what happened? We were informed that the CO responsible to 
administer the contracts abruptly resigned. What was the condition he 
left behind? See Attachment ``A'' Mike Richardson Statement, Memorandum 
dated March 10, 2004 the Superintendent, Grand Canyon National Park:

          A review of the GS-13's contract files revealed a consistent 
        lack of documentation. There were few independent Government 
        estimates; missing or unsigned documentations of price 
        reasonableness, source selection decisions, sole source 
        actions, and contract award; missing pricing information; 
        missing or limited statements of work; use of incorrect forms; 
        lack of electronic processing of the entire contract action 
        through IDEAS and electronic commerce interfaces; and no 
        Solicitor review of solicitations or awards as required by DOI 
        policy. There was no documentation indicating required sources 
        of supply had been considered. For example, contract files for 
        environmental services did not document any review of whether 
        these services could have been acquired by task order under GSA 
        Schedule. Files were disorganized. Pieces of the procurement 
        process were found in other files or not found at all. One 
        program office had source selection information, but the 
        contract file did not contain this information. There were no 
        indications that requirements over $25,000 were posted to 
        FedBizOps for advertisement, because IDEAS was not being 
        utilized. Unadvertised procurements circumvent the Competition 
        in Contracting Act and Federal Acquisition Regulations. This is 
        a grave concern. Missing or unsigned award documents raise the 
        question whether a contract exists . . . 

    We could quote further but the entire memo is available as 
mentioned above.
    A General Contractor may be able to defraud the Government for a 
while, but even after all the attention that was attracted to the 
situation towards the end of 2003, there were still task orders issued. 
The duration of time and number of contracts issued without following 
proper guidelines cannot be considered an isolated situation. The CO 
was completely aware of the problems and when he saw things tightening 
around him, he resigned.
    The subcontractors of PGI have explored every avenue to collect for 
the work performed by them at the Grand Canyon. In fact, several 
subcontractors have obtained uncollectible default judgments against 
PGI. In 2005, the owner Robert McFarland and his wife filed for 
personal bankruptcy naming all the PGI subcontractors as creditors on 
his bankruptcy petition.
    There has been an IG investigation into the PGI contracts and in 
July, 2007 Robert McFarland, president and owner, and Wayne Heidle, 
vice president, were indicted for conspiracy, false claims, mail fraud 
and false statements. Again, we have been denied FOIA information from 
NPS and do not know if any charges have been filed against Gordon 
Plaisted.
    In February, 2004, the NPS issued a suspension of work, due to lack 
of insurance certificates, and bonds. A notice to cure was issued days 
later demanding that PGI provide performance and payment bonds. It is 
virtually impossible to get bonding for work already in process and in 
arrears with subs and suppliers, not unlike getting automobile 
insurance after your car has been involved in a crash. PGI of course 
could not do this and consequently their contracts were terminated.
    During the time just prior to the termination, PGI offered to allow 
the NPS to joint check the subcontractors or assign draws for payment 
to them. The PGI task orders had amazingly high margins and were 100 
percent subcontracted. Just to name two examples, R & W was awarded a 
contract to install a water system at the North Rim; the R & W contract 
including change orders was $414,000, the task order to PGI including 
change orders was $675,000; to clean storm culverts, R & W contract was 
$30,000, the task order to PGI was $54,000. Considering the enormous 
mark-ups, it is likely there were enough funds left to complete the 
projects and pay all subcontractors. But the NPS would not agree to 
that plan.
    We respectfully request this committee to consider these items:

          1) The NPS Contracting Officer issued numerous task orders to 
        PGI without following the Miller Act which requires the Prime 
        Contractor to provide bonds prior to commencement of work.
          2) Payments were approved with knowledge that PGI was not 
        paying their subcontractors.
          3) The behavior of the CO went far beyond gross negligence. 
        It was his willful disregard for the law which placed the 
        subcontractors in a devastated financial condition forcing some 
        into bankruptcy and others to have to lay off many of their 
        employees, and leaving them with no recourse to obtain 
        compensation for their work.
          4) At this point, we cannot provide absolute proof, but 
        clearly it ``appears'' there was a collusive relationship 
        between Mr. Plaisted and PGI.
          5) The NPS is sympathetic with the plight of the 
        subcontractors and even though it was their CO that violated 
        the law that placed them in this plight, they claim they have 
        no legal basis to pay for the services the subcontractors 
        provided. In other words the law does not require them to be 
        responsible for the illegal and unscrupulous actions of its 
        people.
          6) The NPS held money from PGI and is still holding money 
        that was intended to be paid to subcontractors. Clearly, the 
        NPS has benefited from the work of the subcontractors without 
        paying in full for the work.

    The Miller act apparently has no provision to hold the Government 
liable when it does not follow its own rule that requires performance 
and payment bonds on large contracts. If the Government fails to 
require bonds, it opens the door for General Contractors to financially 
devastate the subcontractors who perform the work that benefits the 
government. In this case, the NPS contracted with PGI without bonds, 
then say ``we have a contractual relationship with the prime contractor 
but not with the subcontractors and therefore have no legal basis to 
pay the subcontractors.'' Laws are written to provide guidance in how 
society should work together. No law could provide a perfect solution 
for every situation. We believe H.R. 1191 provides the means the NPS 
needs to correct the breach of trust that forced the subcontractors and 
their families into dire financial straits when it allowed PGI to 
contract for work without bonds.
    For four years the subcontractors have been seeking compensation 
for the work performed for the NPS. We hope that H.R. 1191 will also 
allow for reasonable finance charges to help offset the tremendous 
financial strain this has caused them.

    Senator Akaka. Thank you very much, Mr. Steed.
    George Sparks. Mr. Sparks.

 STATEMENT OF GEORGE SPARKS, PRESIDENT & CEO, DENVER MUSEUM OF 
                 NATURE AND SCIENCE, DENVER, CO

    Mr. Sparks. Mr. Chairman, thank you for the opportunity to 
testify today.
    The Denver Museum of Nature and Science is has a world-
class collection. We are a treasure house of Western artifacts. 
We've got everything from fossils, to minerals, to Indian 
artifacts, to extinct birds, such as passenger pigeons.
    However, these artifacts are integral to our role as a 
museum, both in terms of informal science education, as well as 
our visitorship.
    However, our collections are stored in 49 different places 
throughout the Museum. None of these places are climate-
controlled, most do not have fire suppression. In fact, one 
storage location, you have to go through the ladies restroom to 
get to the artifacts.
    You say, ``So, what's the problem? Denver's a very dry 
climate, these will last forever.'' As it turns out, the T-Rex 
femur that we have will be gone after 200 years, after lasting 
for 200 million years underground, because of the dry climate. 
In a couple hundred years, it will literally be dust.
    Half of our collections are made up of artifacts from 
Federal lands, and we need to remember that this is your stuff. 
We're taking care of things for the citizens of the United 
States of America, and are trustee in perpetuity for these 
collections. The small amount of Federal appropriation that 
we're asking for would be highly leveraged. We have a $140 
million strategic plan, that will literally reinvent the 
Museum.
    Two days ago, the citizens of Denver approved a $50 
million, general obligation bond to help us achieve our 
strategic plan. So, the Federal appropriation would be highly 
leveraged by that money, as well as $75 million that we would 
raise through private sources.
    So, that concludes my testimony, and I look forward to your 
questions.
    [The prepared statement of Mr. Sparks follows:]
Prepared Statement of George Sparks, President & CEO, Denver Museum of 
               Nature and Science, Denver, CO, on S. 1449
        i. introduction to the denver museum of nature & science
    Since its founding in 1900, the Denver Museum of Nature & Science 
(DMNS) has been the principal natural history museum between Chicago 
and Los Angeles that preserves the rich natural resources and cultural 
treasures of the Rocky Mountain Region. The Museum holds and cares for 
more than a million archaeological, anthropological, paleontological, 
zoological and geological artifacts and archival documentation from the 
Rocky Mountain region.
    A significant portion of the collections were recovered from public 
land managed by the Federal Government, and the Museum has been 
designated as the repository for those collections by Federal agencies. 
Less than two percent of the collections are currently on exhibit or 
accessible to the Museum's audiences. Each year, the Museum attracts a 
regional audience of more than 1.3 million visitors. More than 70 
million people have visited the Museum since its opening.
    In 1899, pioneer naturalist Edwin Carter sold his comprehensive 
collection of Colorado fauna to a group of prominent Colorado citizens 
who established the Colorado Museum of Natural History, now doing 
business as the Denver Museum of Nature & Science. In addition to the 
Carter collection, impressive collections of butterflies, moths, and 
crystalline gold formed the nucleus of the Museum, which was 
established to encourage and aid the study of natural science. The bird 
and mammal collections grew over the decades through expeditions to all 
parts of the United States and to every continent except Antarctica, 
but with a continued focus on Colorado fauna. In 1915, the Museum 
conducted its first fossil collecting expedition in central Colorado. 
In 1926, fieldwork at the Folsom archeology site brought international 
recognition to the Museum: for the first time in North America, human 
artifacts were discovered with extinct bison, thus establishing the 
early history of humans on our continent. This discovery later received 
recognition as one of the top ten archeological discoveries of the 20th 
century.
    In 1968, the Museum obtained the Crane American Indian Collection, 
one of the premiere private collections documenting Native American 
culture from the 1800s into the first half of the 20th century. Geology 
collections continually expanded, and today include the world's largest 
collection of Colorado minerals and gold. The Museum displays the best 
non-gem mineral specimen in the world, the ``Alma King'' rhodochrosite 
specimen from Colorado's Sweet Home Mine. In 2006, the Museum received 
the best known aquamarine specimen from North America, discovered only 
a few years ago on Mount Antero, Colorado. Each year, the Museum's 
wide-ranging scientific research expeditions, continue to add 
significantly to the collections with new acquisitions of 
archeological, anthropological, paleontological, zoological, and 
geological artifacts and archival documentation. And each year, the 
Museum serves as a repository for more and more collections held on 
behalf of federal agencies.
    Object-based collections provide the fundamental infrastructure for 
contemporary and future scientific advancements, and they are the 
touchstone of the museum experience. They are the essence of 
exhibitions, the visual texts of learning in the museum setting. A 
museum's artifacts invite discovery and exploration and investigation. 
They fill in the scholar's gaps in understanding, and they entice young 
learners to look more closely and ask more questions. Objects ground us 
in the real world. Learning from real objects motivates us to be more 
careful guardians of our heritage. Safeguarding collections for the 
future is critical and is the cornerstone of best practices in the 
museum community. Collections connect people to culture, art, science, 
and history, making them critical resources for a nation of learners.
    The Denver Museum's collections document the natural history, 
biodiversity, and cultures of the Rocky Mountain Region and include 
comparative collections from other parts of the United States and the 
world. The Museum's collections evoke local, national, and 
international interest as they represent much of what fascinates people 
about the American West--from the spectacular geology of the Rocky 
Mountains to the amazing dinosaur fossils and unique wildlife to 
indigenous prehistoric and historic peoples, such as the Plains and 
Southwestern Native American tribes. Together, the Museum's 
collections, library, and archives provide the foundation for 
understanding the science and natural and cultural history of the 
region and serve as the primary resource for informal science education 
to Colorado schools and families. Through its collecting efforts, the 
Museum promotes opportunities for the public to analyze, interpret, and 
evaluate issues focused on stewardship of our natural resources and the 
improvement of human and planetary wellness.
                    ii. u.s. collections are at risk
    Housed in 49 different locations around the Museum, collections are 
at risk due to crowding, lack of environmental controls, lack of 
adequate modern fire suppression systems, and substandard security 
systems. This inefficient storage arrangement results in limited access 
by visitors, school students, and scientists to collections, and it 
limits the ability of the Museum to grow these important collections. 
Current storage conditions jeopardize the long-term care and 
preservation of collections. Increasingly, federal agencies are 
evaluating the conditions in repositories caring for federal 
collections against current standards in the museum community for the 
preservation of collections.
    Only a fraction, less than 2 percent, of the collections are 
available to the general public through exhibits and educational 
programs. Online access to collections, organized primarily for the 
Museum's research audience, is minimal. The public has high interest in 
using and seeing the collections and learning about the Museum's 
behind-the-scenes activities both through visits to the Museum and 
through online learning.
      iii. solution: the rocky mountain science collections center
    Beginning in 2005, the Museum's Board of Trustees initiated the 
processes of strategic planning, master facility planning, and 
gathering information from museums that have taken a leadership role in 
demonstrating best practices in collections storage and public access. 
From this work, they established the strategic intent of the Museum to 
become the world's best regional nature and science museum, with the 
primary focus on the Rocky Mountain Region, and the critical need for 
an on-site, secure collections facility that achieves current museum 
standards for collections storage and associated functions discussed 
below. The Rocky Mountain Science Collections Center (RMSCC) will be a 
central part of establishing this level of excellence for Colorado.
Collections Storage Areas
    A stable, secure, safe environment is essential to continuous 
preservation of the collections. Improper temperature, humidity, light, 
and air-quality systems and poor security result in deterioration of 
the collections and potential loss. Collections storage spaces will be 
consolidated from their 49 current spaces into a single location that 
also contains associated functions such as preparatory labs and 
processing areas. Compactor storage systems, the most efficient 
available, will house the archeological, anthropological, 
paleontological, zoological, and geological artifacts and archival 
documentation. The entire facility will be designed to minimize risks 
to long-term preservation through modern security, proper storage 
equipment, and stable environmental controls.
    The facilities will be designed to allow the public to tour behind 
the scenes with Museum professional staff. The public and school 
audiences will be able to view secure collection spaces and get first-
hand experiences with the breadth of the collections. Visitors will be 
exposed to collections and scientific research activities to increase 
interest in science and critical thinking skills and provide greater 
opportunities for families to learn about and appreciate the world 
around them.
    Secure, culturally sensitive areas will be constructed for the 
storage and private viewing of sacred cultural collections. Particular 
attention will be paid to the security of extinct and endangered 
organisms and high valued collections objects through security zones 
and vault systems.
Collections Processing Spaces
    In addition to the collections storage areas, the Museum will 
design and build collections processing spaces for the preparation, 
documentation, and cataloging of the collections. These areas will be 
equipped with special equipment, such as fume hoods, microscopes, 
dissection tables, and freezer units, to facilitate the efficient 
processing of collections.
Research Laboratories
    Well-equipped laboratories for scientific analysis of the 
collections will be built. These laboratories will include research and 
collections work areas for staff, volunteers, and researchers. Viewing 
windows into the laboratories and related public programs will be 
designed to highlight use of the collections in research work conducted 
by the Museum. Scientific equipment, such as light and electron 
microscopes with digital viewing screens, digital GIS and imaging 
stations, specialized freezers, and wet-lab equipment, are needed to 
modernize the Museum's research facilities and to showcase modern 
scientific methods and techniques to our visitors. Computer 
workstations will be associated with the laboratories for staff and 
visitors to increase access to in-depth information on the collections 
and new developments in science.
Conservation Laboratory
    Caring for and maintaining collections is critical work to assure 
that the Museum's treasures survive into the future. The Museum uses a 
preventative conservation approach for the care of its collections, 
ranging from providing the proper environmental conditions in storage 
areas to selecting inert supplies and materials used for treatment. A 
new modern conservation laboratory will include microscopes, a freezer, 
a fume hood, vacuum chambers, equipment for materials testing, safety 
equipment, a water distillation unit, and other major pieces of 
equipment. This new lab will raise our collections preservation 
standards to meet best practices and provide the public with knowledge 
of steps they can take to preserve their own treasures.
Library Facility
    The Museum's library is a specialized science information center 
with more than 40,000 cataloged volumes, including 2,500 rare books, 
more than 9,000 scientific journals, and a section of children's 
publications. The collection focuses on the intermountain west in the 
Museum's scientific areas. The Museum's library is dispersed in 12 
different areas on three floors of the building, preventing efficient 
access to the collections by researchers and museum visitors. Its main 
browsing room is also located in an area that is very difficult to 
find. The library has limited work space, and handicapped accessibility 
is a problem. New library facilities will be more conveniently located 
and will include a new circulation desk that is handicap accessible, 
computer workstations for research and access to the Museum's library 
and collections catalog, media work stations to view DVDs, reading and 
study areas, a conference room, a collections processing area, and a 
centralized room with a compactor storage system.
Online Resources
    Our technology plans for the RMSCC will enable students of all ages 
to access the Museum's unique collections and provide in-depth 
information and research resources on natural history and science 
topics. Enhancing the Museum's information technology infrastructure 
will support broad and varied content, a commitment to physical and 
intellectual access, and a delivery system that can support urban, 
suburban, and rural needs. Improving the collections information online 
will require modifications of the existing database and the development 
of new software and new hardware that will be tested for its 
effectiveness with audiences. Data available through different security 
levels will include images of objects, object identifications and data, 
and links to additional background information.
IV. Benefits of the Rocky Mountain Science Collections Center
    The Rocky Mountain Science Collections Center (RMSCC) will 
establish a level of excellence in Colorado as a state-of-the-art 
collection facility with proper security, emergency preparedness, and 
preservation controls while improving public access to collections. 
This facility will improve the storage and security of current 
collections and provide for future growth by consolidating collections 
and associated functions. Onsite collections facilities, offsite 
programs, and new exhibits will be tied together through electronic and 
other media design to ensure maximum utilization of the significant 
collections of the Museum.
    The RMSCC will engender a strong network of collaborations with 
educational and community organizations and federal and state agencies 
to support an appreciation for the rich natural and cultural resources 
of the state and region. This Center will provide a basis for people of 
all ages to be involved in the science used to reveal the wonders of 
our state. The RMSCC will use collections, interpretive exhibition, and 
electronic media to showcase the rich heritage, natural resources, and 
cultural history of Colorado and the Rocky Mountain region.
    Museum collections are significant to our primary constituents: 
families, school groups, tourists, and researchers. The collections 
complement school curricula and serve as a primary resource for 
informal science education to Colorado school audiences. More than 
370,000 children each year have the opportunity to learn about Colorado 
through the collections and exhibits. Currently more than 125,000 
children also participate in outreach science visits to their schools 
and community centers in every Colorado county and in surrounding 
states. Outreach to rural areas and lower-income communities where 
travel to the Museum may be difficult or financially prohibitive 
reduces geographic, demographic, and economic barriers to science 
education for many Coloradans. Each year, scientists and artists from 
around the world use the Museum's collections for their work.
    Situated adjacent to the Museum, the RMSCC will significantly 
improve storage, security, and environmental conditions of the 
collections in order to optimize space utilization, to ensure the long-
term preservation of the collections, and to improve public access to 
the collections. When collections are relocated to the RMSCC, prime 
areas in the Museum will be available for new, cutting edge exhibits. 
In addition to these new exhibits, the Museum will be in the position 
to provide better access to the collections by inviting the public into 
what are traditionally behind the scenes areas, by integrating research 
activities and science literacy efforts, and by expanding educational 
programs to reach new and underserved audiences. Emergency response and 
salvage plans that ensure long-term preservation will be more easily 
and effectively executed in the RMSCC. Measures taken to improve 
storage conditions of collections are in most cases, the same measures 
that will increase access to collections.
    The Museum is a world leader in creating opportunities that allow 
the general public and volunteers to participate in authentic 
scientific research. In 2006, 1,680 Museum volunteers devoted more than 
200,000 hours to promoting science learning and interpretation to 
Museum visitors and the general public. Over the past 20 years, the 
Museum's amateur scientists have had more than 100 peer-reviewed 
scientific papers published and presented at professional scientific 
meetings. DMNS leads the world in amateur participation in science 
among natural history museums. Accessible collections and research labs 
with the appropriate equipment will allow the Museum to build for the 
benefit of the public on this success.
    Today, current science and technology education is even more 
critical in our rapidly changing world. The RMSCC will provide a basis 
for people of all ages to be involved in the science used to reveal the 
wonders of Colorado and the Rocky Mountain region. It will ensure 
adequate care for current and future collections for several decades to 
come.

    Senator Akaka. Thank you very much, Mr. Sparks.
    Now I call on Chipper, Chipper Wichman, for your testimony.

 STATEMENT OF CHIPPER WICHMAN, JR., DIRECTOR AND CEO, NATIONAL 
             TROPICAL BOTANICAL GARDEN, KALAHOO, HI

    Mr. Wichman. Aloha 'ai, alaka'i Akaka.
    Senator Akaka. Aloha.
    Mr. Wichman. It's truly an honor to be here to testify on 
behalf of the National Tropical Botanical Garden.
    Our country just recently had a convention here in 
Washington, DC in June--the American Public Garden Association. 
Over 300 gardens were represented from around our Nation. Of 
all of those gardens, we are truly unique, and in fact, the 
National Tropical Botanical Garden is unique in this world. We 
are the only garden that has been chartered by the U.S. 
Congress, and given a national mandate to become not only a 
national resource in tropical horticulture and botany, but to 
preserve tropical plants from around the world, and to provide 
a national recreational resource for the people of the United 
States.
    We're here today because of our unique status, and the fact 
that when we were given our charter in 1964, we had nothing. We 
had no land, no money, but we had a charter and a mandate. In 
that 43 years that have transpired since then, we have grown to 
be a rather amazing organization.
    Over $127 million of private money has been invested in the 
operation of this organization since our charter, that's an 
updated figure--in my written testimony it was $100 million, we 
have re-calculated that, thanks to our General Counsel. That 
does not include over $50 million of net assets that show on 
our balance sheet that are in the form of buildings, herbaria, 
rare books, et cetera.
    This is an amazing investment of private funds for the 
mandate that our Congress has recognized the importance of this 
work. So, we have grown considerably--today we are five of the 
most beautiful gardens anywhere in the world, we have the 
largest collection of ex situ federally endangered and 
threatened plants in the world. We are preserving our natural 
and cultural resources of our Nation, for the people of the 
United States.
    It has truly grown to become a mature and amazing 
organization. As the speaker before me just testified, the 
importance of having climate-controlled, hurricane-proof 
buildings for housing collections is critically important.
    One of the projects that brings me before you today is the 
construction of a brand-new botanical research center. It's 
mandated to have a minimum of 100-year life span, 50 years of 
programmatic growth, and Category IV hurricane-proof.
    It's a clean building that will house all of our library 
and herbivorous specimens research labs and offices, in a LEED-
certified, green building. So, this is an amazing project--
we've launched a $21 million capital campaign for that. All of 
that will be private money, the exception is what we have come 
before you here today, to ask our Federal Government to help 
with a $1 million contribution toward that project.
    We're not asking you to help seed this, and hope that we'll 
raise that money, we have already raised over $14 million of 
that, and that building is under construction, so this is a 
dream that, indeed, will be true.
    In addition to that, we provide a national importance in 
conservation, research and education. Coming out of our 
research department is a potential anti-HIV drug, which is now 
going through clinical trials. We have a bread-fruit program 
that may be able to feel tropical parts of the world, so we 
have national and international significance in those areas.
    From an education standpoint, we have programs that are 
educating our science teachers nationally, as well as college 
professors and medical M.D.s. So, we really are reaching out, 
and have become a very important national resource, in terms of 
education, as well as research and conservation.
    S. 2220 seeks a million dollars in Fiscal Year 2009 for 
assistance with our Botanical Research Center. But, in addition 
to that, beginning in Fiscal Year 2010, it seeks up to $500,000 
in authorization for the Federal Government to support us 
operationally. This is critically important, as the needs are 
ever-increasing in conserving the tropical floor of the United 
States, the endangered floor in the Hawaiian Islands, and the 
other work that we undertake.
    So, I ask you now--I ask all of those on the subcommittee, 
to consider the importance of this request. The work that we 
are doing, and the amount of money that we are requesting in 
terms of how it will be leveraged with private funding--our 
operational budget this year is just under $9 million, our 
approved budget next year will be over $9 million, and that 
trend is continuing. So, the $500,000 in future appropriations 
is really a small contribution to the important work that we're 
doing.
    Thank you.
    [The prepared statement of Mr. Wichman follows:]
Prepared Statement of Charles Wichman, Jr., Director and CEO, National 
           Tropical Botanical Garden, Kalahoo, HI, on S. 2220
    Mr. Chairman, my name is Chipper Wichman, and I am the Chief 
Executive Officer and Director of the Congressionally chartered 
National Tropical Botanical Garden (NTBG). I testify before you in 
strong support of Senate Bill 2220: A bill to Amend the Outdoor 
Recreation Act of 1963 to Authorize Certain Appropriations.
    The need for this legislation is enormous as the NTBG is today 
facing a greater and greater need to conserve vanishing tropical flora 
for the people of the United States and to fulfill the mandate from the 
United States Congress to NTBG to operate beneficial facilities that 
``contribute to the education, instruction, and recreation of the 
people of the United States.''
    The time is urgent and the stakes are high. Over 30 percent of the 
world's tropical plants are currently facing extinction--in many cases 
before they are even documented and classified. The NTBG is working 
closely with many state and federal agencies, as well as other non-
governmental organizations, to stem this tide of extinction, but the 
magnitude of the work before us is daunting and more resources are 
needed.
    By amending Public Law 88-29 (commonly known as the `Outdoor 
Recreation Act of 1963') to authorize appropriations ``to match 
donations made to the National Tropical Botanical Garden by State and 
local governments and private persons'' you are leveraging our federal 
tax dollars and directing them toward supporting a Congressionally 
chartered organization that is addressing these critical national 
needs.
    The following testimony seeks to familiarize you with the work of 
the National Tropical Botanical Garden and to underscore the importance 
of S. 2220 as a vehicle to assist with our Congressionally mandated 
work.
                           executive summary
    The move to seek a Congressional Charter for what would become the 
National Tropical Botanical Garden was started by leading botanists and 
concerned conservationists committed to the notion that there should be 
a botanical garden in Hawai`i dedicated to fostering horticultural 
research, education, and plant preservation for the benefit of the 
people of all the United States. In 1964, under the leadership of 
Hawai`i's Congressional Members Senator Daniel K. Inouye and Senator 
Hiram Fong and the late Representative Spark M. Matsunaga, the United 
States Congress confirmed this need and chartered the Pacific Tropical 
Botanical Garden (``PTBG'') (36 U.S.C. Sec. 15354601 et. seq). However, 
the 1964 Congressional Charter provided PTBG no federal funding, and it 
was not until 1970 that funds were raised from private sources for the 
initial land acquisition and the first garden was started in a sugar 
cane field in the Lawa`i Valley on the south shore of the island of 
Kaua`i, Hawai`i.
    The purposes of the Pacific Tropical Botanical Garden were set 
forth in the 1964 Congressional Charter, as quoted below:

  <bullet> ``To establish, develop, operate and maintain an educational 
        and scientific center with libraries, herbaria, laboratories 
        and museums which are appropriate and necessary for encouraging 
        and conducting research in basic and applied tropical botany;
  <bullet> To foster and encourage fundamental research with respect to 
        tropical plant life and to encourage research and study the 
        uses of tropical flora in agriculture, forestry, horticulture, 
        medicine and other sciences;
  <bullet> To disseminate through publications and other media the 
        knowledge acquired at the gardens relative to basic and applied 
        tropical botany;
  <bullet> To collect and cultivate tropical flora of every nature and 
        origin and to preserve for the people of the United States 
        species of tropical plant life threatened with extinction.
  <bullet> To provide a beneficial facility which will contribute to 
        the education, instruction, and recreation of the people of the 
        United States.''

    In 1988, twenty-four years after the granting of our Congressional 
Charter, the organization's name was changed by an Act of Congress to 
the National Tropical Botanical Garden, a name that gives effect to the 
agreement to transfer to NTBG title and operation of The Kampong Garden 
in Miami, Florida, and symbolizes the NTBG's scientific leadership well 
beyond Hawai`i.
    The NTBG is the only tropical botanical garden with a Congressional 
Charter. In the 43 years since its inception, the NTBG has been 
supported almost exclusively by contributions from generous individuals 
and foundations. In fact, operating support of nearly $100 million has 
been contributed from private sources during this period, and an 
additional $50 million in assets, including endowments, trusts, land, 
buildings, and rare books, currently appear on our balance sheet. We 
estimate that during this same period of time less than $5 million in 
government grants and contracts has been awarded to the NTBG. Per the 
terms of our Congressional Charter, we file each year with the Senate 
and with the House a copy of an audit report by an independent auditing 
firm reporting NTBG's operations during the prior year.
    The National Tropical Botanical Garden currently administers five 
tropical botanical gardens and three preserves totaling over 1,800 
acres of land on three of the major Hawaiian Islands and in the Coconut 
Grove section of Miami. These include:

    McBryde Garden.--Situated on the south shore of Kaua`i, the McBryde 
Garden, in the picturesque Lawa`i Valley, is over 250 acres of garden 
and preserve. The site of this first garden of the National Tropical 
Botanical Garden, the Lawa`i Valley was chosen for its diversity of 
climate, soils, and topography. The area affords a kaleidoscope of 
distinct micro-environments which include cool, hot, wet, dry, lake, 
cliff, and meadow.
    Over the years, the McBryde Garden has become a veritable botanical 
ark of tropical flora comprised of nearly 4,000 plant species gathered 
from around the world. It is home to the largest ex situ collection of 
native Hawaiian flora in existence, as well as extensive plantings of 
palms, flowering trees, heliconias, orchids, and many other plants that 
have been collected from the tropical regions of the world. NTBG's 
Conservation Program is based at this site, and this garden contains a 
state-of-the- art horticulture and micropropagation facility that was 
dedicated in 2005.
    NTBG's administrative headquarters is located here on a 10-acre 
campus, overlooking this magnificent garden oasis. Also located on this 
site are major research and education facilities.
    Allerton Garden.--Visitors to the National Tropical Botanical 
Garden on Kaua`i's south shore typically begin their tropical tour at 
the nearby 80-acre Allerton Garden, located in the Lawa`i Valley 
adjacent to McBryde Garden. This historic garden was artistically 
designed by Robert and John Allerton and is internationally recognized 
as a masterwork of landscape architecture. Noted for its lush landscape 
design, gravity-fed fountains and pools, statuary, and other surprise 
features hidden among tropical foliage, Allerton Garden effectively 
displays the once-private estate's tropical flora. The Allerton Garden 
is home to nearly 2,000 tropical plant species as well as one of the 
largest endangered Green Sea Turtle nesting sites in the main Hawaiian 
Islands.
    Limahuli Garden--Set in a narrow valley framed by soaring cliffs, 
Limahuli Garden and Preserve evokes the history of Kaua`i, and of the 
Hawaiian Islands. Located on Kaua`i's wet north shore in Ha`ena, 
Limahuli Garden and Preserve extends over 1,000 acres in a verdant 
tropical valley covering three distinct ecological zones. Ongoing 
programs in watershed protection and studies in plant and animal stream 
life are conducted at this site. Archaeological evidence substantiates 
that the Limahuli Valley on Kaua`i was one of Hawai`i's earliest 
settlements.
    In 1997, Limahuli Garden was selected by the American Horticultural 
Society as the best natural botanical garden in the United States, 
noting that its research, teaching, and educational programs have 
demonstrated the best sound environmental practices of water, soil, and 
rare plant conservation in an overall garden design. In choosing 
Limahuli Garden, the AHS researched the various programs being 
conducted by the Garden and specifically noted that Limahuli Garden's 
use of the ahupua`a system as a holistic management tool was one of the 
many reasons for the award.
    In 2007, Limahuli Garden and Preserve received the coveted Koa 
Award at the Hawai`i Tourism Authority's 16th Annual Keep It Hawai`i 
Awards Program, recognizing our exemplary commitment to helping 
preserve and perpetuate Hawai`i's host culture.
    Kahanu Garden.--On the Hana coast, along the far eastern shores of 
the Hawaiian island of Maui, lies Kahanu Garden. Its 294 expansive 
acres encompass plant collections from the Pacific Islands, 
concentrating on plants of value to the people of Polynesia, 
Micronesia, and Melanesia.
    Fringed by a vast native pandanus forest, Kahanu Garden contains 
the world's largest and diverse collection of breadfruit cultivars. 
This collection serves as a germplasm repository for this important 
South Pacific food crop, housing cultivars from over 20 different 
Pacific island groups.
    Kahanu Garden is also home to the Pi`ilanihale heiau, one of the 
largest and most culturally significant archaeological structures in 
Hawai`i. Designated as a National Historic Landmark in 1965, this 15th 
century structure was painstakingly restored by National Tropical 
Botanical Garden over a 20-year period. In 1999, the House of 
Representatives of the State of Hawai`i passed a resolution honoring 
the NTBG for its restoration and stewardship of this national treasure.
    The Kampong.--Located on Biscayne Bay in Coconut Grove, Florida, 
The Kampong garden contains a wide array of flowering trees and 
tropical fruit cultivars. In the early 1900s, noted plant explorer 
David Fairchild searched the world for plants of economic and aesthetic 
value that could be cultivated in the United States. He and his wife 
Marian (daughter of Alexander Graham Bell) took up residence here amid 
his extraordinary plant collections, borrowing the Malaysian word 
kampong for this garden home.
    Catherine Hauberg Sweeney, who had also traveled extensively in 
Indonesia and Malaysia, purchased The Kampong from the Fairchilds in 
the 1960s. She later gifted this then nine-acre property to the 
National Tropical Botanical Garden to continue the tradition of 
promoting work in horticulture, of providing a valuable germplasm 
resource, and of preserving the property for posterity. The Kampong is 
listed on the National Register of Historic Places.
    Science teachers and college biology professors come to The Kampong 
Garden to learn about tropical plants and conservation, and to develop 
teaching modules to be implemented in their classrooms, which 
invigorate science instruction. Key among National Tropical Botanical 
Garden's educational opportunities is the Environmental Journalism 
course which affords journalists much needed information about tropical 
ecosystems, providing an understanding of environmental science and 
tropical ecology to enhance the accuracy and depth of reporting on 
environmental issues. The Physicians course focuses physicians on the 
medicinal qualities of plants. Both these courses are taught at The 
Kampong.
      national tropical botanical garden: a national resource for 
                           biological science
    Significant aspects of the National Tropical Botanical Garden's 
research initiatives include the Garden's living collections and the 
dried, mounted collections in its herbarium. The herbarium was 
established at the Garden's headquarters in 1971 to serve as a 
permanent record of the flora of the Hawaiian Islands, and to include 
specimens from other Pacific Islands and throughout the tropical world. 
National Tropical Botanical Garden's herbarium currently holds more 
than 57,000 preserved, dried and pressed plant specimens.
    Because of its strategic location in the Central Pacific Ocean, the 
National Tropical Botanical Garden has made a long-term commitment to 
conduct biodiversity research and inventory projects throughout the 
region. NTBG's herbarium is the most actively growing regional 
herbarium. It represents an important national heritage and 
international resource focusing on plants of Hawai`i and other Pacific 
islands, unique floristic areas not typically represented in other 
America-based herbaria. Many specimens have supplementary ancillary 
materials (leaf tissue in silica gel for molecular studies, liquid-
preserved collections, a seed reference collection), and many are 
mirrored in National Tropical Botanical Garden's diverse living 
collections. These specimens are critical to scientific research, 
education, and ultimately conservation of species. The current 
herbarium growth rate is addition of over 2,200 new specimens annually. 
Present and anticipated future growth derives from active biotic 
surveys and collection programs in Hawai`i and the Pacific regions, as 
well as staff research and inter-institution exchanges.
    This major regional herbarium is the most active in the Pacific, 
with a broad impact for many regional users and purposes including 
National Tropical Botanical Garden staff and other Hawai`i residents 
who depend upon it for numerous uses including: identifying specimens 
of native, naturalized, cultivated, Hawaiian cultural, and poisonous or 
toxic plants; gathering ecological and distributional data from 
specimens; compiling data for federal listing packages; evaluating 
status of Threatened and Endangered species; and taxonomic, floristic, 
evolutionary, and biodiversity studies of Pacific Island plants. A 
broader spectrum of users includes botanists worldwide who borrow 
specimens or use specimen data in the virtual herbarium.
    Thus, National Tropical Botanical Garden's herbarium has a much 
broader impact than would otherwise be anticipated for a collection of 
comparable size. If this resource were not well curated and available 
and accessible to its users, they would not be able to carry out this 
critical work. The collections hold and preserve a unique, permanent 
record of Pacific Island biodiversity and are constantly utilized for 
identification and research by scientists locally, nationally, and 
internationally. In addition, this collection is regularly utilized for 
education and community outreach purposes, including teaching of 
regularly scheduled classes, workshops, and student internships, thus 
providing training opportunities in tropical botany for students and 
teachers including women, minorities, and economically disadvantaged 
groups. This long-term investment in the infrastructure of Pacific 
plant systematics will provide great scientific benefits by improving 
our ability to document, study, and ultimately conserve the poorly 
known Pacific Island floras for future generations. The National 
Tropical Botanical Garden's Loy McCandless Marks Botanical Library is 
the largest and most important botanical/horticultural library 
collection in Hawai`i, with more than 20,000 books, journals, botanical 
prints, and archival materials. The main reference library comprises 
11,000 titles, over 15,000 physical volumes, 1,200 serials, 2,500 
reprints, and close to 3,000 botanical prints. National Tropical 
Botanical Garden's library is particularly strong in regional floras 
and Hawaiian and Pacific botany. The recently acquired Marks library of 
more than 5,000 titles, with an emphasis on tropical and subtropical 
botany and horticulture, has been combined with NTBG's main library, 
except for approximately 600 rare books that are stored in another 
secure, climate-controlled vault (pending completion of the new 
Botanical Research Center (``BRC'')). A small botanical reference 
library is housed in the herbarium (ca. 45 ft. of bookshelf space). 
Slide and photographic print collections include roughly 8,000 
historical images and 16,000 images of Hawaiian and Pacific Island 
plants and people. NTBG also owns and cares for 600 world-class rare 
botanical volumes.
    Many national and international collaborators use our library 
collection. For example, Jim Space, former director (retired) of the 
USDA Forestry Service Pacific Division including California, Hawai`i, 
and American territories in the Pacific, spent two weeks at National 
Tropical Botanical Garden in 2005. Mr. Space, Manager for the Pacific 
Island Ecosystems at Risk (PIER) project primarily used our library for 
his work, stating that it was the best in Hawaii for the type of 
research he was conducting because of our rich and complete collections 
of floras, monographs, and botanical journals. Mr. Space has developed 
the PIER as an online resource (also CD format) for documenting the 
impact and extent of invasive alien plant species on various Pacific 
Islands. It contains digital images, descriptions, distribution and 
possible control measures for alien species and enables resource 
managers, agriculturists, foresters, conservationists and others to 
identify, assess and control invasive species on their islands.
      national tropical botanical garden: a national resource for 
                              conservation
    Ninety percent of all biodiversity on the planet exists in the 
tropics, the warm moist belt that circles the earth, bordered by the 
Tropic of Cancer on the north and by the Tropic of Capricorn on the 
south. Within the borders of the United States, Hawai`i is the only 
state that falls within the tropics and, because of its high 
biodiversity, it is also home to more endangered plants and animals 
than almost all the other states combined. Many of these priceless 
plant resources are becoming extinct before the scientific community 
has discovered their relationship to other plant species and animals 
and the benefits they might yield. Effective conservation relies on 
public understanding and participation. The National Tropical Botanical 
Garden is an active partner in the protection, revitalization, and 
perpetuation of tropical ecosystems.
    To serve as a national resource, the National Tropical Botanical 
Garden has established five tropical botanical sanctuaries which 
include unique collections of tropical flora made up of some of the 
most endangered plant species known to science. Because of Hawai`i's 
geographic isolation, the plant species that evolved in Hawai`i and 
many other tropical areas over millions of years are highly endemic. In 
Hawai`i, nearly 1,300 endemic species have been scientifically 
designated. Of these, more than 100 today are considered to be extinct, 
with an additional 273 classified by federal standards as Threatened 
and Endangered, and 85 as Candidate species. Over the past 30 years, 
roughly two dozen species in Hawai`i that were thought to be extinct 
have been rediscovered by National Tropical Botanical Garden botanists, 
and about 30 new species that were previously unknown to science have 
been discovered. Hawai`i and the greater Pacific region are considered 
``hotspots of extinction,'' and it is here that the National Tropical 
Botanical Garden is focusing its conservation initiatives.
    The National Tropical Botanical Garden is a recognized leader in 
the conservation of Hawai`i's highly endemic and severely threatened 
tropical plants, as well as of flora and ethnobotanical knowledge of 
the greater Pacific and other regions, and conservation is at the core 
of its operations. Its Conservation Program conducts a wide range of 
activities that support its primary plant conservation strategies, 
including the conservation of living plants, genetic- and community-
level diversity, invaluable collections of herbarium specimens, 
historic garden properties, and indigenous cultural practices. It is 
also involved in restoration ecology, controlling invasive species, 
watershed management, ecological monitoring, and conservation education 
programs, and it oversees the world's largest collection of breadfruit, 
assembled by scientists of the National Tropical Botanical Garden.
    Conservation efforts at the National Tropical Botanical Garden 
began quite simply, with the passage of a resolution at the initial 
meeting of NTBG's Garden Scientific Advisory Committees in 1976, at 
which it was formally agreed that preserving and cultivating native 
Hawaiian plants was of the utmost urgency. Extensive botanical surveys 
of all of the islands were undertaken, resulting in the discovery of 
new plant species. The Conservation Program soon expanded beyond 
Hawai`i, as Garden scientists began participating in research 
expeditions to islands throughout the Pacific and collaborating with 
experts from around the globe on conservation challenges.
    The determination to locate and collect specimens from the rarest 
tropical plants led National Tropical Botanical Garden scientists to 
specialize in rough-terrain botany, which involves rappelling off 
cliffs to reach otherwise inaccessible niches that hold the few 
remaining examples of plants like Brighamia insignis, which was 
successfully cultivated for the first time in the Garden in 1977. The 
plants grew from seeds that had been collected on the steep cliffs of 
the Na Pali coastline of northern Kaua`i. I was personally involved in 
these first expeditions to hand-pollinate these unusual plants. The 
importance of this work is evidenced today by the fact that while only 
one plant currently exists in the wild, hundreds of these plants are 
growing at institutions with which NTBG collaborates, including several 
specimens at the U.S. Botanic Garden in Washington DC. This plant has 
been saved from extinction by the work of the NTBG.
    Success in the arduous and sometimes dangerous work of collecting 
rare plant material is only the first phase of the Garden's 
conservation story. The second phase is ensuring their survival by 
propagating them in the varied growing environments found in the 
National Tropical Botanical Garden's five gardens and three preserves. 
Among all the botanical gardens focused on tropical plants, the 
National Tropical Botanical Garden is recognized as uniquely suited to 
the creation of living collections for conservation, research, 
education, and public enjoyment. No other garden organization has the 
National Tropical Botanical Garden's diversity of landmass and 
cultivation potential. The National Tropical Botanical Garden has 
pioneered propagation techniques and established growing protocols for 
over 45% of the existing Hawaiian flora, including 248 rare and 
endangered species. Through these efforts, the NTBG has assembled what 
is believed to be the largest collection of federally listed endangered 
plant species anywhere, including the largest collection of native 
Hawaiian flora in existence.
    The Conservation Program at National Tropical Botanical Garden has 
made saving Hawai`i's endangered and threatened flora its highest 
priority. Collecting and curating propagules from the rarest Hawaiian 
plants, including the 118 Genetic Safety Net (currently known as Plant 
Extinction Prevention Program or PEPP) species that have 50 or fewer 
individuals remaining in the wild, provides material for the Garden's 
expanded native plant nurseries. Nursery operations produce large 
quantities of native plant seedlings for planting in ecological 
restoration projects in National Tropical Botanical Garden's gardens 
and preserves, as well as those of collaborating owners with large 
public or private land tracts suitable for restoration. The goal is to 
create and enhance habitats dominated by native species, thus closing 
the loop between the discovery and collection of rare plant propagules 
and their ultimate recovery in suitable habitats. The National Tropical 
Botanical Garden also supports recovery efforts throughout the tropics 
by maintaining extensive living collections of rare and useful plants 
from many tropical regions.
    Land Conservation.--Equally significant is the National Tropical 
Botanical Garden's national land preservation efforts. Since 1970, the 
National Tropical Botanical Garden has acquired substantial land 
acreage totaling over 1,800 acres with the intent of preserving these 
natural and open spaces for future generations. Most recently, in 2006, 
the National Tropical Botanical Garden secured $1.5 million through the 
State of Hawai`i's Legacy Land Conservation Program to purchase an 
additional 170 acres in Hana on the island of Maui. This and future 
land acquisitions by the National Tropical Botanical Garden was and 
will continue to be conducted in the name of conservation, ensuring the 
survival of pristine open spaces for future generations.
    Cultural Conservation.--Our native host culture is one of the most 
significant treasures in Hawai`i. It is through aural tradition that 
our kupuna (elders) have passed down their knowledge, history, 
understanding, spirituality and methods to care for the `aina (land) 
and one another. Today, many Hawaiian communities are experiencing a 
cultural renaissance, with cultural practitioners serving as both a 
guiding light and linchpin to our past. Hawaiian practitioners 
perpetuate traditional protocols to the keiki (children), tried and 
trued methods of caring for and protecting our `aina--our most precious 
natural resources, strengthening our cultural and spiritual connections 
with our ancestors, and strengthening the bonds between the people of 
Hawai`i.
    Plants play a critical role in ensuring the survival and 
perpetuation of indigenous cultures and languages throughout the world. 
In fact, the loss of plant species is equivalent to the loss of 
cultures and languages of these people who have experimented and used 
plants in many creative ways for thousands of years. Like in many 
indigenous cultures, ancient Hawaiians have become experts in the use 
of plants for food, construction materials, textiles, medicine, 
voyaging, ceremonies, and more. This invaluable traditional wisdom can 
be compared to modern scientific understanding of plant taxonomy and 
systematics, pharmacology, and medicine, and such could become the 
basis for new scientific discoveries in today's world particularly in 
the area of ethnomedicine. The National Tropical Botanical Garden's 
culture-based initiatives include lectures by well-known cultural 
practitioners, educators, ethnobotanists, horticulturalists, and other 
scientists from varying fields of study. Recent hands-on workshops have 
enlightened participants on a wide array of cultural knowledge, 
practices, skills, and art forms including hula, traditional weaving 
with native plants, traditional methods of plant care, native `o`opu 
(Hawaiian goby fish) and stream health, herbal healing, the importance 
of kalo (taro), lei-making, and landscaping with native plants. It is 
our aim with these cultural initiatives to perpetuate Hawai`i's host 
culture by connecting the hands from our island's past to the hands of 
our island's future.
 national tropical botanical garden: a national resource for education
    Education programs are central to National Tropical Botanical 
Garden's mission. The first high school and college students arrived 
for projects and internships while the initial Garden site was still 
being established in Kaua`i's Lawa`i Valley. Over the past four 
decades, the National Tropical Botanical Garden has developed a full 
spectrum of educational offerings that provide opportunities for 
individuals from many backgrounds.
    National Tropical Botanical Garden's Education Program reaches a 
wide variety of participants. At the K-12 grade level the Garden As 
Classroom program is provided to any local school that wishes to 
involve their students in experiential learning. Students from 
elementary, middle, high, and head start schools participate in the 
program, in addition to summer school students from Kamehameha Schools 
and Association for Retarded Citizens (ARC) clients. The Junior 
Restoration Team program builds on the fundamentals established in the 
Garden As Classroom program and takes conservation education to the 
next level of hands-on participation. The Tropical Ethnobotany course 
provides hands-on experience and course work in ethnobotanical field 
techniques.
    An important aspect of National Tropical Botanical Garden's 
commitment to education is training future botanists, ethnobotanists, 
and horticulturists. College- and university-level horticultural 
interns participate in a 10-12 week work-study program for students 
intending to pursue careers in horticulture, botany, conservation, and 
other related fields. The Horticultural Internship Program features a 
combination of classroom and hands-on study, with students spending 10-
12 weeks learning in the gardens. Many past graduates of the National 
Tropical Botanical Garden's horticulture programs now have leadership 
positions in all of these areas. An ethnobotany course for graduate-
level students explores the role of plants in indigenous societies and 
provides training in practical techniques for ethnobotanical research. 
Planning is underway to expand this program to accommodate more 
students.
    A revived and expanded job training initiative is the Apprentice 
Program, which focuses on career development at the local level. 
Apprentices work two days per week as an assistant to one of National 
Tropical Botanical Garden's highly skilled employees, with the balance 
of their time spent taking college or technical courses.
    The Garden's Science Teachers' Enrichment Program enhances 
teachers' knowledge of tropical biology and equips them with innovative 
techniques to inspire student interest in science education. Visiting 
scientists regularly use the Garden's living collections for their 
various research projects, and well over 100 national and international 
institutions benefit from the National Tropical Botanical Garden's 
library exchange program and herbarium exchange and loan program.
                           national alliances
    Alliances are a key component necessary to advance successfully a 
field of interest. The administration of the National Tropical 
Botanical Garden embraces this concept and has made major strides, 
creating mutually beneficial alliances with federal and state agencies 
and national organizations with similar focuses and objectives. 
National alliances include the National Parks Service, National Oceanic 
and Atmospheric Administration, United States Department of 
Agriculture, the State of Hawai`i Department of Land and Natural 
Resources, the Smithsonian Institution, The Nature Conservancy, United 
States Botanic Garden, New York Botanical Garden, Missouri Botanical 
Garden, Santa Barbara Botanic Garden, Bishop Museum, University of 
Hawai`i, Florida International University, Cornell University, 
University of Michigan, University of California-Riverside, and other 
notable institutions who regularly collaborate with the National 
Tropical Botanical Garden on conservation, scientific, and educational 
initiatives.
 the national tropical botanical garden: an outstanding science program
    The National Tropical Botanical Garden is committed to world-class, 
state-of-the-art tropical biodiversity research and conservation, which 
fundamentally distinguishes the organization from numerous display-
oriented gardens and parks in the United States and abroad. National 
Tropical Botanical Garden's Science Program focuses primarily on 
tropical plants and habitats of the Pacific Region and is headed by 
botanist Dr. David H. Lorence, a specialist in tropical plant 
classification, floristics (the study of plants defining a geographic 
or political region), and island floras.
    In addition to a prominent and dedicated team of researchers, the 
Science Program possesses specialized facilities at its Kaua`i 
headquarters, including: a research library containing rare and 
valuable historic volumes as well as a breadth of modern reference 
collections; a comprehensive herbarium of preserved, dried and pressed 
plant specimens collected for discovery and documentation; and research 
laboratories.
    The National Tropical Botanical Garden's scientific reach spans the 
globe through the development of international alliances including the 
Royal Botanical Gardens, The Eden Project, University of Zurich-
Institute for Systematic Botany, Centre International de Recherches 
Agronomiques pour le Developpement, Universidad Nacional Autonoma de 
Mexico, Sonoral Desert Museum, Instituto de Ecologia, the French 
Polynesian Delegation a la Recherche, Sustainable Harvest 
International, Secretariat of the Pacific Community, Tropical 
Agriculture Research and Higher Education Centre, Technical Centre for 
Agriculture and Rural Cooperation, and other notable organizations and 
institutions. The National Tropical Botanical Garden, through a program 
of having scientists from other organizations serve for a period at 
NTBG as a McBryde Chair appointee, develops scientific alliances with 
the aim of advancing science on both national and international stages. 
These alliances allow for and promote international, intellectual 
interchange and collaboration.
    The core goals of National Tropical Botanical Garden's Science 
Program are to:

  <bullet> Conduct field research, including discovering new species, 
        documenting and conserving ecosystems, endangered species and 
        cultural knowledge, and addressing invasive species and 
        restoration ecology issues;
  <bullet> Develop and maintain botanical research collections and 
        printed and digital resource materials;
  <bullet> Examine, document, propagate, and disseminate collected 
        materials and data for conservation and education purposes;
  <bullet> Investigate the relationships between plants and cultures;
  <bullet> Create partnerships with other national and international 
        scientific institutions, as well as fund science fellowships 
        and post-doctoral positions;
  <bullet> Publish Allertonia, an informative periodic, peer-reviewed 
        scientific publication. The Garden's Publications Program 
        includes Allertonia as well as The Bulletin and various books 
        focusing on tropical botany. These publications reach a large 
        national and international audience through exchange programs 
        and subscriptions.
        science programs and projects with international impact
    Botanical research at National Tropical Botanical Garden focuses on 
systematic, biogeographic, and ethnobotanical studies of tropical 
plants, especially those of the Pacific Basin region. Over the years, 
many of the Garden's specimen collectors have created one of the best 
research collections on the plants of Kaua`i and the Hawaiian Islands.
                     flora of the marquesas islands
    The Flora of the Marquesas Islands project is a collaborative 
effort between the National Tropical Botanical Garden, the Smithsonian 
Institution, and the French Polynesian Delegation a la Recherche. The 
Marquesas are critical to understanding Pacific Island biogeography, 
but have until now been poorly explored. Currently the Marquesan 
vascular flora, including ferns, fern allies, and flowering plants, is 
estimated to comprise 360 species, of which 45 percent are endemic, or 
found nowhere else in the world. This project's collecting expeditions 
have yielded over 11,000 herbarium specimens to date, comprising 714 
vascular plant species and 61 species new to science since the 
project's inception in 1988. Most of these new species represent the 
endangered and critically endangered flora of the Marquesas. National 
Tropical Botanical Garden scientists always collaborate with the French 
Polynesian Government's Delegation for the Environment and provide 
essential field data critical for establishing protected areas for 
conserving endangered species and habitats. Additional products of this 
program are an Internet-based flora hosted by the Smithsonian 
Institution that provides access to a searchable database of specimens, 
plant images, checklists, island distributions, and literature. In 
addition, a two-volume illustrated flora is slated to be published.
                     the micronesian flora project
    The National Tropical Botanical Garden and New York Botanical 
Garden have been collaborating since 1998 on botanical surveys of the 
Micronesian volcanic high islands of Pohnpei, Kosrae, and Belau. 
Because of their greater size and elevation, the high islands harbor 
the greatest habitat diversity and highest species richness of any in 
the region. Due to the islands' steep and rugged mountainous terrain, 
the islands have not been thoroughly explored or surveyed biologically. 
Additional botanical exploration of these areas will certainly yield 
new species and records. Habitat modification to grow crops has 
resulted in the destruction of much lowland native vegetation and 
threatens the vegetation even at higher elevations. Previous botanical 
collecting expeditions to Micronesia have already been conducted by 
NTBG staff members Lorence, Ragone, and Flynn and collaborators in 
1996, 1997, 2005, 2006, and 2007. The primary purpose of these 
expeditions has been to: 1) conduct extensive field work in botanically 
poorly explored or unexplored areas; and 2) collect herbarium specimens 
to document permanently the islands' vascular flora (ferns and fern 
allies, gymnosperms, and flowering plants). The first phase of this 
project proposes to produce an annotated checklist of the Pohnpean 
vascular plants (flowering plants and ferns) in published book and 
online electronic formats. Together these products will provide a solid 
foundation for understanding, managing, and conserving the fragile 
flora and botanical resources of this Micronesian island. The botanical 
surveys and inventories conducted will greatly expand our baseline 
knowledge of species-level biodiversity of the Micronesian high 
islands, which are the most species diverse in the region.
        hawaiian and pacific island rubiaceae living collections
    The primarily tropical Rubiaceae contains approximately 637 genera 
and 11,000 species--many poorly known or understudied. The best known 
member of the family is coffee, the family's most important commercial 
crop. Others include Cinchona, whose bark is the source of quinine and 
other anti-malarial compounds that have saved millions of lives; and 
Psychotria ipecacuanha, whose roots yield ipecac syrup, used 
medicinally as an expectorant in cough syrups and as an emetic in cases 
of poisoning. Noni, from Hawai`i and other Pacific islands, is widely 
used as a medicinal plant. Through field collecting and exchange with 
other national and international botanical gardens, an important 
research and conservation collection of Rubiaceae has been established 
at the National Tropical Botanical Garden. More than 400 accessions 
have been assembled, including numerous species from Pacific Islands, 
as well as rare or endangered Hawaiian species. A well-designed living 
collection of Rubiaceae at a botanical garden can have a multiplicity 
of uses for research, conservation, education, and display.
Conservation
    Botanical gardens can serve as a genetic repository for rare and 
endangered species. This requires scrupulous documentation of origin 
and appropriate genetic sampling of representative populations and 
numbers of individuals. For example, the Garden's collection of 
Gardenia brighamii comprises part of the Center for Plant 
Conservation's National Collection of endangered species.
Education
    An important role of botanical gardens is to educate the public 
through interpretation and display. Interpretive plantings and displays 
can be designed to teach about the importance of the Rubiaceae, 
especially tropical species having economic importance (coffee, natural 
dyes); medicinal uses (quinine, ipecac, Morinda); horticulture and 
landscape uses (Gardenia, Ixora, Mussaenda); basic phylogeny and 
relationships of the family; evolutionary adaptations in growth habit, 
floral biology and pollination, and fruit dispersal.
Horticultural display
    Attractive or unusual Rubiaceae can be used for landscaping 
purposes in the public garden. Botanical gardens can introduce unusual 
and new plants into the horticultural trade, e.g. Mussaenda raiteensis.
Research collections
    Living collections supply an important and readily available source 
of plant materials for systematics research studies including:

  <bullet> Cytology: chromosome counts from seeds, root tips, flower 
        buds
  <bullet> Palynology: pollen from flower buds
  <bullet> Anatomy and morphology from wood, vegetative and floral 
        tissues
  <bullet> Molecular studies including DNA and RNA analysis from fresh 
        or dried leaves
  <bullet> Phenological observations (flowering and fruiting behavior)
  <bullet> Breeding and hybridization experiments

    The National Tropical Botanical Garden fulfills dozens of requests 
for research materials by national and international institutions each 
year. In many cases, the National Tropical Botanical Garden is the only 
botanical garden in the United States with these tropical plants in 
cultivation.
                           rubiaceae research
    Dr. Lorence's taxonomic specialty is the large and floristically 
important Rubiaceae family. He has studied and named numerous new 
species from Mexico, Central America, Hawai`i, and the Pacific Islands 
and collaborated nationally and internationally with many institutions 
and projects. He provides an important service to the world scientific 
community by identifying specimens from diverse tropical regions and 
has built up an important herbarium reference collection numbering over 
9,000 specimens of Rubiaceae at the National Tropical Botanical Garden. 
He has studied and named numerous new species from Mexico and Central 
America and collaborated nationally and internationally with many 
institutions. Rubiaceae research at the National Tropical Botanical 
Garden includes:

  <bullet> Systematic studies (classification/taxonomy) and 
        evolutionary studies of genera such as Psychotria, Hedyotis in 
        Hawaii and the Pacific;
  <bullet> Floristics (studies of plants of a given geographical or 
        political regions) including Hawai`i and other Pacific islands 
        including the Vascular Flora of the Marquesas Islands project;
  <bullet> Studies of Neotropical Rubiaceae for the Flora Mesoamericana 
        project (encompassing S. Mexico and Central America) in 
        collaboration with the Missouri Botanical Garden and 
        Universidad Nacional Autonoma de Mexico (UNAM);
  <bullet> Diverse projects including Flora de Oaxaca (with UNAM), 
        Flora de Veracruz and Flora del Bajio (with Instituto de 
        Ecologia, Mexico), and Flora of the Sonoran Desert (with 
        Sonoral Desert Museum).
                       pacific island ethnobotany
    Ethnobotany is the study of how particular cultures use indigenous 
plants. Many native peoples have extensive and intimate knowledge of 
the habitats, habits, and properties of the plants where they live. 
Unfortunately, the traditional knowledge that had once been passed from 
generation to generation is rapidly disappearing as a result of 
modernization.
    National Tropical Botanical Garden teams conduct ethnobotanical 
research in the Pacific Islands integral to a number of research 
initiatives, including potential plant medicines, conservation of 
traditional cultivars, and breadfruit studies. Traditional knowledge is 
widely used as a tool for teaching in the Garden's educational courses 
as well.
    Ethnobotanical plants have long been part of the Garden's living 
collections and research interests and, in 1998, the National Tropical 
Botanical Garden formed a center for ethnobotany (the study of how 
indigenous peoples use plants) to reflect an increased emphasis in this 
area of research. The Garden believes this work to be critical because 
it seeks to capture how plants can heal--a field with growing urgency 
because some of the most important medicinal species may have already 
become extinct, while others are threatened and traditional knowledge 
is rapidly disappearing. Ethnobotanical fieldwork is augmented by 
laboratory studies using state-of-the-art technology to determine a 
plant's molecular composition and medicinal properties. This research 
has yielded potential new anti-HIV medication and provided clues to the 
genesis of ALS and Parkinson's disease.
                          breadfruit institute
    The study of breadfruit has been an essential component of the 
National Tropical Botanical Garden's conservation platform for over two 
decades. Breadfruit has been an important and highly nutritious staple 
food crop in the Pacific for more than 3,000 years. Although it now is 
found in nearly 90 countries worldwide, it has been underutilized 
because of the limited distribution of varieties and the difficulty of 
importing viable plant material into other countries.
    The world's largest and most diverse collection of breadfruit 
species and varieties was assembled by NTBG researchers and is being 
maintained at Kahanu Garden: 120 varieties from 18 Pacific nations, the 
Seychelles, the Philippines, and Indonesia. Breadfruit diversity is 
declining throughout the tropics because of damage from storms, 
drought, and loss of cultural knowledge. National Tropical Botanical 
Garden's unique breadfruit collection is an important global resource, 
intimately connected with assisting to feed the people of the Pacific, 
Africa, the Caribbean, etc.
    National Tropical Botanical Garden's Breadfruit Institute is 
investigating the potential of tissue culturing breadfruit to address 
malnutrition and hunger in a number of tropical countries. The 
Breadfruit Institute is dedicated to promoting the conservation and use 
of breadfruit for food and reforestation, and is striving to mass 
propagate superior varieties using in vitro techniques so that 
thousands of breadfruit plants can be distributed to tropical nations 
as a long-term source of food for growing populations threatened with 
starvation and malnutrition.
    A major accomplishment of the NTBG's Breadfruit Institute was the 
First International Symposium on Breadfruit Research and Development 
held in Fiji in April 2007. The Symposium was organized by the NTBG and 
the Secretariat of the Pacific Community-Land Resources Division, in 
collaboration with international partners: the Technical Centre for 
Agriculture and Rural Cooperation, German Technical Cooperation, 
International Centre for Underutilized Crops, Global Facilitation Unit 
for Under-Utilized Species, and the Global Crop Diversity Trust. 
Participants included researchers from national, regional, and 
international organizations, universities, government ministries, NGOs, 
and the private sector. A major outcome of this symposium was the 
creation of an international network of breadfruit researchers who will 
work collaboratively to promote the conservation and sustainable use of 
breadfruit in the tropics.
    Internationally, hunger is one of the most pressing crises of our 
era. Through scientific research and earnest compassion, the Breadfruit 
Institute of the National Tropical Botanical Garden has committed its 
resources to developing sustainable breadfruit farms within hunger-
stricken countries around the world. For thousands of years, breadfruit 
agroforests have supplied Pacific Islanders with an abundance of food 
and useful products and protected mountain slopes from erosion. Through 
scientific research, cultivar production, education initiatives, and 
international alliances, Breadfruit Institute Director Diane Ragone 
Ph.D. is on a mission to eradicate hunger.
 the national tropical botanical garden's new botanical research center
    Over the past 15 years the NTBG has progressively outgrown its 
existing research and education facilities. To address the problem the 
NTBG has embarked on the construction of a world-class Botanical 
Research Center building at its administrative headquarters. For the 
first time in its 40-year history, the Garden's significant botanical, 
research and rare book libraries, and its unique and ever-growing 
herbarium collections, will be brought together under one roof, along 
with research labs and offices and dedicated space for use of students 
and visiting researchers.
    The combination and synergy of having these collections and 
facilities in a single climate-controlled ``clean'' building that will 
allow complete interchange and use of the resources contained within it 
will create unprecedented opportunities for botanical research and 
education. This facility will serve not only the national and 
international research communities, but it will also become a 
significant resource for our local community. Through NTBG's education 
and outreach programs, students will have an opportunity to learn first 
hand about tropical botany, horticulture, and ethnobotany as well as 
the importance of traditional ecological knowledge and natural and 
cultural resource management. The BRC will thus provide the local 
community with an unprecedented resource that will help engage and 
train future generations of stewards of our nation's tropical 
ecosystems.
    The Design.--The design for the BRC is high performance and 
environmentally sensitive. As a statement to our institutional 
commitment to conservation and our environment, the BRC project has 
been registered with the U.S. Green Building Council's LEED (Leadership 
in Energy and Environmental Design) Program and a Silver LEED 
Certification is being pursued as part of its sustainable design.
    Due to the invaluable collections contained within the building, it 
is being designed as a hurricane-proof structure with 50 years of 
planned growth. The two-story reinforced concrete building will include 
nearly 20,000 square feet of interior and exterior spaces. Mechanical 
and electrical systems will provide multiple back-ups for short- and 
long-term operation during any emergency. The roof of the building will 
host an integrated photovoltaic panel that will produce 30 kW (thousand 
watts) of power. All the rainwater that falls on the building will be 
transferred to an underground storage system and used to irrigate the 
collections in the garden below the building. All aspects of the 
building have been engineered to meet stringent wind-load speeds as 
well as comply with the standards established by the Green Building 
Council.
    The BRC is the first LEED building being built on Kaua`i and 
construction firms working on the BRC have retooled their operations to 
comply with LEED standards. As a result, these firms have discovered 
and implemented new environmentally conscious construction practices, 
including innovative ways of recycling waste products resulting in less 
construction waste in our landfills. We believe that environmentally 
friendly construction is not only possible, but that it will become the 
direction that the construction industry will pursue in the near 
future.
    To fund this critically important project the NTBG launched a $21 
million capital campaign that was anchored by a lead gift of $4.5 
million in November 2005. Since then the NTBG has raised $14 million 
and has several million in grant applications outstanding. Senate Bill 
2220 is intended to provide $1 million in federal funding in fiscal 
year 2009 for this transformational project that will advance botanical 
research both nationally and internationally.
                               conclusion
    The National Tropical Botanical Garden serves as a national 
tropical botanical resource, operating and maintaining five tropical 
botanical gardens and three preserves that contribute to the education, 
instruction, and recreation of the people of the United States. Its 
botanical gardens, its/collections of rare and endangered plant life, 
its library and herbarium collections, its scientific research, 
conservation initiatives, and education programs are all contributions 
made by the National Tropical Botanical Garden, for the education, 
instruction, and recreation of the people of the United States.
    I urge Congress to enact Senate Bill 2220: a bill to amend the 
Outdoor Recreation Act of 1963. An annual appropriation in the amount 
of $1,000,000 for fiscal year 2009 and appropriations no greater than 
$500,000 as necessary for fiscal year 2010 and each subsequent fiscal 
year will further assist the National Tropical Botanical Garden in the 
fulfillment of our Congressional mandate.
    Over the past four decades the NTBG has grown and developed almost 
exclusively with private funding. This trend will continue. In 2008 our 
approved operating budget is $9.0 million, of which 95 percent will 
come from private sources. We expect our 2009 and 2010 budgets to be 
modest increases over 2008. The federal support that S. 2220 will 
provide to the NTBG will be thus matched many times over with private 
funding and represents an appropriate level of federal support to an 
organization that is fulfilling a congressional mandate.
    I thank you for your time and consideration of my testimony.

    Senator Akaka. Thank you very much, Chipper.
    I have a few questions for you, and I'd like to begin with 
Ron Steed.
    Mr. Steed, the Park Service has testified that because 
their contract was with a primary contractor, it wouldn't be 
appropriate to now require them to pay you for the contractor's 
default.
    Can you explain why you think this is a Federal 
responsibility?
    Mr. Steed. Yes, sir. We feel like it's a Federal 
responsibility because the contracting officer for the Park 
Service allowed contract work to be let to a prime contractor 
with full knowledge that there were no bonds in place. Bonds, 
of course, being the insurance that the project will be paid 
for or, and completed. We feel the, very strongly, that the 
government should be responsible for this, because the Park 
Service should be responsible for this, simply because they put 
the subcontractors in this position by allowing $17 million 
worth of work, under 40 separate task orders, without bonds.
    Senator Akaka. Thank you. I know this has been a difficult 
decision to make and we look to take this opportunity to look 
into this with you and the parties concerned.
    Mr. Steed. Thank you.
    Senator Akaka. Mr. Sparks, I'd like to hear your view as to 
why Federal funding for the collection center is justified, 
especially given the opposition from the Department of 
Interior. If the Department isn't a partner in this Center, or 
hasn't requested you to build it, why should the Federal 
Government be obligated to pay for the Center?
    Mr. Sparks. Mr. Chairman, more than half of the objects in 
our collection came from Federal lands, and are owned by the 
people of the United States, and by law, we must take care of 
these in perpetuity. These collections are used for informal 
science education, as well as being an integral part of the 
Museum. To separate these collections from the Museum would, 
literally, destroy the mission of the Museum.
    So, as trustees, we are required to take care of these 
objects. We are asking the Federal Government for a small part 
of paying for this new, climate-controlled, underground 
collection storage facility, because we believe that this is 
your stuff, we would love to take care of it, but we need a 
little bit of help.
    The voters of Denver appropriated $8 million of the general 
obligation bonds to help pay for that underground facility. If 
you could help pay for part, we will raise the rest from 
operational funds.
    It's difficult to have private citizens donate for 
underground collections facilities, nobody wants to see the 
Jones Family file cabinet--that just doesn't excite them to 
give private funds. So, we really need help from the government 
to meet our obligations under the law.
    Senator Akaka. Thank you. Mr. Wichman, I have a similar 
question for you. You heard the Department of Interior's 
testimony that it opposes authorizing Federal funding for 
botanical gardens. If the Department isn't a partner with the 
botanical gardens, why is it appropriate for the Federal 
Government to help pay for it?
    Mr. Wichman. First of all, I'd like to note that 
Administration started their testimony with the word ``sadly'' 
so I think they truly recognize the important value we have in 
the partnerships. In fact, we provide many of the plants for 
some of the restoration work taking place in the National Parks 
in Hawaii.
    I think their question in their statement was valid, 
however, it was never our intention, nor my understanding that 
this authorization meant that that money had to come out of the 
National Park's budget.
    I think that the Administration, if they realized with some 
level of assurance that it wouldn't necessarily diminish their 
pie, their pie wouldn't have to have our piece cut out of it, 
we'd be able to step back and recognize that the work that we 
are doing truly serves a national need. It fulfills a mandate 
that came from our national government. That what we're asking 
is simply to allow a contribution from the Federal Government 
that is being leveraged many, many times over with private 
funding to fulfill this national need.
    So, I feel, you know, we have never in our 44-year history, 
come before Congress and ask for a Federal appropriation or a 
Federal authorization. We have grown and proven ourselves that 
we have accomplished so much with private funding. But now the 
time is here that we really need your partnership in terms of 
fiscal partnership.
    Our Federal Government needs to help us, because the time 
is running short. It truly is urgent work that we are 
undertaking, and to accomplish this, we need your support and 
assistance.
    Senator Akaka. Further, Mr. Wichman, is it your intention 
to use Federal funds for general operational expenses? Or do 
you have a specific use intended for the Federal funding?
    Mr. Wichman. Certainly the ideal scenario would be that 
they would come in for general operations. General operations 
cover the core of everything we do--education, conservation, 
research--we do achieve a lot through private grants, but the 
core operations of our garden, the fundamental aspect of 
everything we do, is provided through our general operating 
support.
    We have over $5 million every year that we raise from 
private sources for that general operating support. So, if I am 
understanding your question, the Federal contribution of 
$500,000 would not necessarily mean it would only support 
office staff, or administrative overhead--it would actually go 
directly to the bottom line.
    Last Friday, in Hawaii, we met with leaders from the 
Department of Land and Natural Resources, the Fish and Wildlife 
Service, the University of Hawaii, and we talked about how NTBG 
with an expanded budget through these kinds of appropriations 
could actually impact conservation throughout the State. We're 
all very excited about what this could mean, so I hope I'm 
answering your question correctly.
    Senator Akaka. Yes. Actually, the question was about 
general operational funds, and you've answered that, and I 
thank you for that.
    Mr. Potter, I think the best use of this time is to ask you 
to respond to the Administration's criticism of your study for 
the proposed Heritage Area.
    According to the Park Service, the study did not meet 
National Park study criteria, because it did not include 
significant levels of public involvement and support. I assume 
you disagree with that assessment, but can you tell us what 
type of public involvement you undertook in preparing this 
study? In particular, how did you involve the affected Indian 
communities?
    Mr. Potter. Thank you, Mr. Chairman, I'm please to be able 
to answer that question.
    Our Executive Director, the only Executive Director we've 
had for the Northern Plains Heritage Foundation is Amy Mosset, 
a nationally recognized scholar, Sacagawea scholar, of Mandan-
Hidatsa descent. She was the one who went before county 
commissions and city commissions and service clubs, and laid 
out what a National Heritage Area is, and how it would impact 
our area.
    I think maybe the National Park Service's misunderstanding 
of the public involvement here--or they're not feeling there is 
sufficient public involvement--comes from, kind of a 
misunderstanding about what a county commission meeting is in 
North Dakota. These are all advertised as to what the agenda 
items will be. There is a public hearing, and everyone is 
entitled to come, to question, to comment, to express 
skepticism about the ideas. I must admit, that at some of these 
meetings, there was a skepticism, and there was only one 
question that was ever asked by the general public about this, 
that's--will the Federal Government be taking away my private 
property rights if we get this designation? The answer, of 
course, to that as everyone knows, is no.
    As I mentioned in my testimony, the National Heritage Areas 
are all incentives and no regulation, all carrot and no stick.
    So, there were 10 of these meetings throughout our 5-county 
area, at which everyone had an opportunity to attend, and many 
people did attend, people heard about it.
    Beyond that, service clubs, organizations, there was much 
public involvement. In terms of local support--they question 
whether or not there's local support, and I'll tell you--it 
goes from the bottom to the top--cities and counties, the 
mayors, the county commissions all have endorsed the project. 
The Governor has endorsed the project. The head of our State 
Historical Society in North Dakota comes to the meetings as an 
ex officio member and participates. The Director of the State 
Parks does the same, and the head of the State Tourism Office 
does the same. I guess we haven't communicated that as well as 
we should have to the National Park Service, but the fact is, 
top to bottom there is, as I say, nary a discouraging word 
about this project in North Dakota.
    Senator Akaka. Thank you for repeating that quote, nary a 
discouraging word.
    I want to thank all of you for your testimonies, as well as 
your responses. You've been eloquent--let me put that word in--
in talking about your parts in this National Park System. Many 
of you have traveled a long way to come here to appear today, 
and I want to let you know that we appreciate your willingness 
to come to Washington to help us better understand these 
issues.
    Some members of the committee who were not able to attend 
this afternoon may submit additional questions in writing, and 
we do receive them, we'll forward them to you and ask you to 
respond to those. We may include both the questions and answers 
in the official hearing record, also. I want you to know that.
    It was interesting to hear your view on these and, of 
course, some of these were opposed by the Administration. They 
have reasons to do that, but it's good to hear from you. We'll 
have to discuss this, and with them, as well. I will tell you 
that your testimony and your responses will be helpful in that 
regard.
    So, again, mahalo, in Hawaiian, which is thank you, and 
thank you for coming, and wish you well in your endeavors.
    Thank you very much and aloha. This hearing is adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of George Sparks to Questions From Senator Burr
    Question 1. Rocky Mountain Science Collection Center (S. 1449): Is 
the Denver Museum of Nature and Science a state, city, or private non-
profit institution?
    Answer. The Denver Museum of Nature & Science (Museum), a 501(c)(3) 
organization, conducts museum activities such as collections management 
and preservation, research, educational programming, and community 
outreach. The Museum conducts its activities in a building owned by the 
City and County of Denver. Any changes or additions to the building are 
also owned by the City and County of Denver. The City and County of 
Denver is responsible for the maintenance of all City owned buildings.
    Question 2. Rocky Mountain Science Collection Center (S. 1449): Has 
your museum received any Federal funding in the past for construction 
projects?
    Answer. The Denver Museum of Nature & Science has not received 
Federal funding in the past for construction projects.
    Question 3. Rocky Mountain Science Collection Center (S. 1449): How 
much Federal funding does your museum currently receive and how is it 
used?
    Answer. The Denver Museum of Nature & Science routinely applies for 
competitive Federal grants from agencies such as NSF, IMLS, and NASA. 
The majority of this funding supports research projects and educational 
programs.
    In 2006, we were awarded $687,804 for projects such as one to study 
the prehistoric forests along the eastern flank of the Rocky Mountains. 
In 2007 year to date, we have been awarded $989,333 for projects such 
as another to evaluate the effectiveness of computer-generated 
immersive virtual environments for teaching astronomical concepts.
    In 2001, 2004, and 2006, the Museum received Congressionally 
designated funding for its space education programs through National 
Parks Service and NASA accounts.
    Question 4. Rocky Mountain Science Collection Center (S. 1449): Who 
will own the collection center after it is constructed and will the 
Federal government be allowed to use the center to store scientific 
material collected from public lands in the Rocky Mountain Region?
    Answer. The Rocky Mountain Science Collection Center (Center) will 
be attached to the Museum, and like the existing Museum building where 
Federal collections are currently housed, it will be owned by the City 
and County of Denver. The Center will establish a level of excellence 
as a state-of-the-art collection facility with proper security, 
emergency preparedness, and preservation controls while improving 
public access to collections.
    Storage of Federal collections is a long standing problem as 
recognized by Katherine Stevenson in her testimony on behalf of the 
Department of the Interior. Congress has responded to this challenge in 
the past by passing the Utah Public Lands Artifacts Preservation Act.
    As the Museum began to consider a Center to solve extensive 
collection preservation and access challenges, it approached the U.S. 
Geological Survey (USGS) and the Smithsonian to discuss their 
participation as a means to care for a large collection of fossils 
currently housed in USGS storage. The USGS is unable to adequately 
preserve these fossils in perpetuity, and the Smithsonian is unable to 
assume that responsibility. Preliminary cost estimates to build the 
Center large enough to accommodate the USGS collection doubled the 
construction costs which would result in Federal participation in range 
of $30 to $40 million. Neither the USGS nor the Smithsonian were in a 
position to partner with us on this solution.
    The Museum is already party to cooperative agreements to house 
selected scientific material collected from public lands in the Rocky 
Mountain Region. For example, an Apatosaurus dinosaur that is being 
excavated by the U. S. Forest Service on the Comanche National 
Grassland is permanently housed at the museum.
    Question 5. Rocky Mountain Science Collection Center (S. 1449): 
Where are collections from the Denver Museum of Nature and Science 
currently stored?
    Answer. Both the collections owned by the Denver Museum of Nature & 
Science and those held on behalf of the Federal government are 
currently housed in 49 different locations around the Museum. None of 
these spaces qualify as state of the art and, as a result, the 
collections are at risk due to crowding, lack of environmental 
controls, lack of adequate modern fire suppression systems, and 
substandard security systems. This inefficient storage arrangement 
results in limited access by visitors, school students, and scientists 
to collections, and it limits the ability of the Museum to care for and 
grow these important collections. Current storage conditions jeopardize 
the long-term care and preservation of collections.
    The development of a new strategic plan and an in-depth analysis of 
space utilization in the Museum revealed that collections could not be 
consolidated within the existing building. The Rocky Mountain Science 
Collection Center will improve access to collections by scientists, 
students, and the general public, and it will achieve current 
preservation standards for collections.
                                 ______
                                 
        Responses of Tracy Potter to Questions From Senator Burr
    Question 1. Northern Plains National Heritage Area (S. 2098): Are 
you aware that this authorization for funding expires after $10 million 
is appropriated or 15 years from the date of enactment, whichever is 
first? Will your management plan provide a strategy for being free of 
federal funds after 15 years or $10 million?
    Answer. Yes, we are aware of the precepts of the Heritage Area 
Program and its requirement that Heritage Area management plans must 
show how sustainability is to be achieved. A path to sustainability 
will be a prime component of the management plan. That plan will be 
developed in detail in consultation with state and local officials and 
private sector partners, but in broad overview, the guiding idea is 
that over a 15-year period (or when $10 million is expended, whichever 
comes first) the Northern Plains Heritage Area will prove so important 
to the region, that private sector relationships and local and state 
government support will gradually replace the relatively small portion 
of federal funding intended for administration of the Heritage Area. 
Sustainability will be a key factor in determining the direction of 
investments made by Heritage Area management.
    Question 2. Northern Plains National Heritage Area (S. 2098): How 
much land area is included in the boundaries of the Northern Plains 
Heritage Area and how much of that is private land?
    Answer. The precise boundaries of the Heritage Area are to be set 
in the management plan developed within three years of enactment. The 
working model proposed is for an area ten miles wide by eighty miles 
long, or approximately 800 square miles, or 500,000 acres. Most of that 
land is in private ownership. Public lands include two State Parks 
(7,000 acres); eleven state Wildlife Management Areas (17,000 acres); a 
National Wildlife Area (1,000 acres); nine State Historic Sites; the 
State Capitol Grounds, the North Dakota Veterans Cemetery, Bismarck 
State College, state Penitentiary, Missouri River Correctional Center, 
Youth Correctional Facility and other state lands; city and county 
property; schools, roads and public boat landings.
    While a precise census of the amount of private land within the 
area has not been conducted, (the information is available by county, 
but as the boundaries of the Heritage Area won't be set until 
completion of the Management Plan within three years after enactment, 
it is not possible to answer the question with precision) it would 
appear that 80-90% of land in the proposed area is in private 
ownership.
    Question 3. Northern Plains National Heritage Area (S. 2098): Have 
any groups or individuals expressed opposition to this national 
designation? If so, what were the reasons given for opposition and how 
have they been addressed?
    Answer. No, there has been no formal, or informal, opposition 
expressed to national designation of the Northern Plains National 
Heritage Area. There were questions asked at open public meetings and 
skepticism expressed about the heritage area program and its effect on 
private property rights. The questions were answered and skeptics 
became advocates when the language of S. 2098 was reviewed, showing 
that the management entity will have authority only to make grants, 
provide assistance and undertake to be a catalyst for preservation, 
promotion and economic vitality, and, when it was pointed out that the 
management entity would be prohibited by the legislation from owning 
any real property, and, most importantly, in Section 7, that:

          Nothing in this Act----

                  (1) abridges the rights of any property owner 
                (whether public or private) including the right to 
                refrain from participating in any plan, project, 
                program or activity conducted within the Heritage Area;
                  (2) requires any property owner to permit public 
                access (including access by Federal, State, or local 
                agencies) to the property of the property owner . . .
                  (3) . . . conveys any land use or other regulatory 
                authority to the management entity;
                  (6) creates any liability, or affects any liability 
                under any other law, of any private property owner with 
                respect to any person injured on the private property.

          A Morton County Commissioner also wondered if the county 
        would be responsible for the 50% cost share on projects. The 
        answer was, of course, that it would be the County Commission's 
        choice to participate in Heritage Area programs and that no 
        obligation would be placed on counties or cities simply be 
        designation.
          The proposed Heritage Area has been the subject of front page 
        stories in the papers of record within the area, including The 
        Bismarck Tribune and Mandan News. It has been the subject of 
        several TV and radio news stories, including a major story on 
        public radio this week and all of that attention has generated 
        no negative public reaction.

    Thank you, Senator Burr, for the opportunity to respond to your 
questions. I appreciated the opportunity to testify and will be happy 
to expand on any of these answers or answer any other questions you 
might have about the Act, our Foundation, or the heritage of the 
Northern Plains.
                                 ______
                                 
         Responses of Ron Steed to Questions From Senator Burr
    Question 1. Grand Canyon Subcontractor Payments (H.R. 1191): Mr. 
Steed, have you or your company worked on other projects in Grand 
Canyon or other national parks prior to the contract in question at 
Grand Canyon? If so, was this contracting process any different prior 
to nonpayment to the subcontractors and default of the prime? In other 
words, did you have any reason to suspect a problem?
    Answer. R & W did work for the National Park Service at the Grand 
Canyon as well as Zion's and Bryce Canyons prior to the PGI contract in 
question. We have no first hand knowledge of the NPS ever awarding 
large contracts without requiring proper bonds nor did we have any 
reason to suspect that it did so with PGI. The difference in this 
instance is that when PGI began the IDIQ contract, bonds were provided, 
but without informing the subcontractors, some 40 task worth seventeen 
million dollars were issued by the NPS without requiring bonds.
    Question 2. Grand Canyon Subcontractor Payments (H.R. 1191): Before 
entering into the contract in question at Grand Canyon, did anyone with 
your company check the credentials of the prime contractor to determine 
if they were bonded or had difficulty paying subcontractors in the 
past?
    Answer. Pacific General sent an agent to solicit quotes for the 
work at the Grand Canyon. They represented themselves as having 
multiple government contracts in process worth millions of dollars. It 
was unfathomable to think that the government would award contracts of 
that magnitude without requiring bonds as the law requires, just as it 
would be unfathomable to think a government owned vehicle would be 
transporting people or equipment on the highway without insurance. Our 
research at the time was that PGI was a reputable contractor. We did 
not find any subcontractors or supplier who complained about the 
payment record of PGI prior to our entering into a contract with them.
    Question 3. Grand Canyon Subcontractor Payments (H.R. 1191): Are 
you aware of any other case where the prime contractor for a government 
contract defaulted and the government paid the subcontractors after 
paying the prime (essentially paying for goods and services twice) as 
is being requested by this legislation? If so, what was the case and 
what were the circumstances?
    Answer. We have no first hand knowledge of the government paying 
subcontractors after the prime defaults. And we have no first hand 
knowledge of the government so blatantly mismanaging the contracting 
process as the NPS did at the Grand Canyon.
    Question 4. Grand Canyon Subcontractor Payments (H.R. 1191): Will 
passage of this legislation set a precedent that would be cause for 
concern?
    Answer. We do not believe H.R. 1191 sets a precedent that would 
cause concern because it is specific to a very unique situation brought 
on by the illegal actions of a high ranking contracting officer of the 
NPS. It provides the means for the NPS to correct the devastating 
financial condition it forced on a small group of subcontractors when 
it issued task orders to PGI and continued to do so after it had full 
knowledge that they were in default and not paying their 
subcontractors. The subcontractors gave their resources and manpower to 
improve the Grand Canyon. Can it cause concern to return the value that 
was taken from them by the actions of the NPS?
                                 ______
                                 
   Responses of Charles Wichman, Jr., to Questions From Senator Burr
    Question 1. Outdoor Recreation Act Appropriations (S.2220): Mr. 
Wichman, it appears that S.2220 authorizes your botanical garden to 
receive as much as $500,000 per year in perpetuity. Is that correct?
    Answer. S.2220 does authorize the Congress to appropriate up to 
$500,000 per year in perpetuity, but the National Tropical Botanical 
Garden (NTBG) will be authorized ``to receive'' such amount only in 
years in which Congress enacts an appropriation of such amount for the 
benefit of NTBG.
    A yearly appropriation of $500,000 for NTBG will materially assist 
NTBG in its important work of fulfilling its mandate from the U. S. 
Congress. NTBG was chartered by the U. S. Congress in 1964 and given 
the very special status of being a national private federal 
corporation. The objects and purposes of NTBG, as set forth at Section 
3 of its Congressional Charter are:

          (a) to establish, develop, operate, and maintain for the 
        benefit of the people of the United States an educational and 
        scientific center in the form of a tropical botanical garden or 
        gardens, together with such facilities as libraries, herbaria, 
        laboratories, and museums which are appropriate and necessary 
        for encouraging and conducting research in basic and applied 
        tropical botany;
          (b) to foster and encourage fundamental research with respect 
        to tropical plant life and to encourage research and study of 
        the uses of tropical flora in agriculture, forestry, 
        horticulture, medicine, and other sciences;
          (c) to disseminate through publications and other media the 
        knowledge acquired at the gardens relative to basic and applied 
        tropical botany;
          (d) to collect and cultivate tropical flora of every nature 
        and origin and to preserve for the people of the United States 
        species of tropical plant life threatened with extinction;
          (e) to provide a beneficial facility which will contribute to 
        the education, instruction, and recreation of the people of the 
        United States.

    The National Tropical Botanical Garden serves as an organization of 
significant national value. Federal appropriations would further assist 
NTBG to provide these services to and for the people of the United 
States. Such federal assistance would, in particular, enable NTBG to 
increase its efforts to save tropical plant life threatened with 
extinction.
    Question 2. Outdoor Recreation Act Appropriations (S.2220): How 
much Federal funding has the National Tropical Botanical Garden receive 
each year in the past 5 years?
    Answer. I have attached a schedule prepared by our Chief Financial 
Officer from information provided to our external auditors each year. 
This schedule shows the breakdown of Federal funds by year as well as 
by source. Please note that the NTBG has not previously had a federal 
appropriation enacted for its benefit. All of the Federal funds that 
have previously come to NTBG have come from competitive grants and 
contracts as show in the attached schedule.
    In summary the NTBG received a total of $1,083,655 from 2002 to 
2006. This beaks down as follows: 2002 = $207,220; 2003 = $175,688; 
2004 = $446,597; 2005 = $159,206; 2006= $94,944.
    Question 3. Outdoor Recreation Act Appropriations (S.2220): What 
restrictions, if any, does the Botanical Garden have on the use of 
Federal funds?
    Answer. NTBG is careful to observe and comply with all restrictions 
and requirements set forth in the contracts and grants awarded to NTBG 
by the Federal Government.
    We also wish to note that there is nothing in our Congressional 
Charter that prohibits the receipt of federal funds to assist with the 
operation of the Garden. The level of funding sought in S.2220 is only 
a fraction of what is needed to operate the NTBG. In 2010 dollars, 
which is when the authorization for operational support would start, 
the $500,000 sought in S.2220 will represent less than five percent of 
our annual operating budget.
    NTBG will always remain a predominately privately-funded 501(c)3 
non-profit organization however the potential appropriations authorized 
by S.2220 would, in particular, enable NTBG to increase its efforts to 
save tropical plant life threatened with extinction which is an 
important part of our Congressional mandate.
    Question 4. Outdoor Recreation Act Appropriations (S.2220): Is the 
National Tropical Botanical Garden part of the Smithsonian Institution 
or some other Federal entity?
    Answer. No. The National Tropical Botanical Garden is an 
independent and separate entity. However, NTBG maintains close 
relations and has worked on many projects with the Smithsonian 
Institute as well as participating in scientific, educational and 
conservation collaborations. Federal partners include the National 
Parks Service, National Oceanic and Atmospheric Administration, United 
States Department of Agriculture, The Smithsonian Institution, the 
United States Botanic Garden, and other Federal institutions. NTBG 
regularly collaborates with these organizations on scientific, 
educational and conservation initiatives.
    Question 5. How long has the National Tropical Botanical Garden 
existed and what is the annual budget?
    Answer. The National Tropical Botanical Garden has been in 
existence since its Congressional chartering in 1964. Currently, NTBG's 
annual operating budget is approximately $9 million. NTBG currently has 
a net worth of over $50 million as shown by the KPMG audit reports of 
its operations that are filed each year with both the United States 
Senate and House. Our assets include endowment accounts, over 1,800 
acres of land, buildings, libraries (including a worldclass rare 
botanical book collection), etc. NTBG has received an estimated $125 
million in contributions from private sources over the past 43 years. 
This commitment from private benefactors is viewed as being evidence 
that the NTBG is highly regarded for its work and dedication to its 
important mission, namely, fulfilling its mandate from the U. S. 
Congress and enriching life for the people of the United States, 
through discovery, scientific research, conservation, education and 
perpetuating the survival of plants, ecosystems, and cultural knowledge 
of tropical regions.
    Senator Akaka and Senator Burr, I appreciate the opportunity to 
answer these questions about S.2220 and how it will help the NTBG 
fulfill the objectives of our Congressional Charter. Please don't 
hesitate to contact me should you have any further questions about the 
NTBG.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Responses of Joel Holtrop to Questions From Senator Burr
    Question 1. Fossil Creek Wild and Scenic River (S. 86): How much of 
the river proposed for designation currently flows through public land? 
How much of the river flows through private land?
    Answer. There are 23 acres of private land within a one-half-mile 
river corridor with the river flowing through this parcel for less than 
one-quarter mile. All other land within this corridor is in federal 
ownership (National Forest System lands).
    Question 2. Fossil Creek Wild and Scenic River (S. 86): How would 
designation as a wild and scenic river affect current or proposed uses 
of the river, the water, and the surrounding land?
    Answer. Congress enacted the Wild and Scenic Rivers Act (Act) in 
1968 to preserve the free-flowing condition, water quality and 
outstandingly remarkable values of select rivers. The Act directs that 
each river in the National System be administered in a manner to 
protect and enhance its free-flowing condition, water quality and 
outstandingly remarkable values. It allows existing uses of a river to 
continue and future uses to be considered, so long as such uses do not 
conflict with protecting these river values.
    The Act anticipates protecting river values by building 
partnerships among landowners, river users, tribal nations, and all 
levels of government. It requires a boundary be developed of up to 320 
acres per river mile and a comprehensive plan be prepared for 
management of the river. This plan includes the direction necessary to 
protect and enhance river values, including addressing recreation use.
    The Act creates a federal reserved water right for the quantity of 
water necessary to protect outstandingly remarkable values. This 
federal reserved water right is generally adjudicated in a state forum 
(e.g., state court or basin-wide adjudication). The designation does 
not supersede existing, valid water rights and establishes a priority 
date coincident with the river's date of designation into the National 
System.
    To protect the free-flowing character, the Federal Energy 
Regulatory Commission is not allowed to license construction of dams, 
water conduits, reservoirs, powerhouses, transmission lines, or other 
project works on or directly affecting wild and scenic rivers. Other 
federal agencies may not assist by loan, grant, license, or otherwise 
any water resources project that would have a direct and adverse effect 
on the values for which a river was designated.
    The Act withdraws public lands from disposition under public land 
laws. It also withdraws one-quarter mile on both sides of a ``wild'' 
segment from appropriation under mining and mineral leasing laws and 
directs the Secretary to provide safeguards against water pollution and 
to protect scenery in ``scenic'' or ``recreational'' classification.
                        specific to fossil creek
    The outstandingly remarkable values of Fossil Creek include:

  <bullet> Geology--travertine deposits
  <bullet> Fish--potential habitat for native fish communities and 
        recovery of threatened and endangered species
  <bullet> Wildlife--habitat for nesting for black hawks and river 
        otters
  <bullet> History--the historic Childs-Irving hydropower facilities 
        (National Register and National Mechanical Engineering 
        Landmark)
  <bullet> Cultural (pre-history)--southern Sinagua sites
  <bullet> Riparian community--abundance and diversity

    There are two grazing allotments that overlap the interim river 
corridor (one-quarter mile on either side of the river). The addition 
of Fossil Creek to the National System is not anticipated to require 
change in livestock operation beyond that which is currently being 
considered due to drought conditions, protection of threatened and 
endangered fish species, and other resource protection needs.
    Recreation activities consistent with the Wilderness Act will 
continue in the wilderness segments to the extent such use protects the 
wilderness resource. Recreation use and activities in the non-
wilderness segment of the river must be consistent with protecting the 
non-recreation values for which Fossil Creek is designated. The Forest 
Service began development of a recreation plan for this area in 2002. 
This planning process has been reinitiated and the resulting direction 
for the river corridor will be incorporated into the comprehensive 
management plan developed if the river is designated.
    All proposed segments classified as ``wild'' are entirely within 
the Fossil Springs or Mazatzal Wildernesses, respectively, with the 
exception of approximately 0.7 miles of Segment A. Only the southern 
half of this short segment is outside designated wilderness and would 
be withdrawn from mineral activities under the (Wild and Scenic Rivers) 
Act. The land within wilderness is already withdrawn from mineral 
activities.
    Prior to the decommissioning of the Childs-Irving hydropower 
project, Arizona Public Service diverted almost all of the river's flow 
for power generation. Designating Fossil Creek as a wild and scenic 
river will ensure sufficient flows are permanently allocated to protect 
river values.
                                 ______
                                 
    [Responses to the following questions were not received 
from the National Park Service, Department of the Interior, at 
the time the hearing went to press:]

         Questions for Katherine Stevenson From Senator Salazar
    Question 1. As you stated, this Museum showcases many important 
artifacts and documentation, which enhances our historical 
understanding of the Rocky Mountain Region and its Parks. Furthermore, 
The White House Office of Management and Budget and the Office of 
Science and Technology Policy have issued budgetary guidelines since 
2005 that include language advocating for the importance of object-
based collections for scientific advancements. How do the priorities of 
the National Park Service contrast with the priorities of the Museum?
    Question 2. You suggested using federal repositories as an 
alternative to this legislation. In what ways will this help address 
the issue of granting the public access at the Museum to artifacts and 
documents that are currently unable to be displayed?
          Questions for Katherine Stevenson From Senator Burr
             boston harbor cooperative agreements (s. 1365)
    Question 3a. How will S. 1365 improve the operation of Boston 
Harbor Islands National Recreation Area?
    Question 3b. Does the Boston Harbor Islands National Recreation 
Area have any pending construction projects or other capital 
improvements that require S. 1365 to complete?
    Question 3c. What is the difference between a cooperative agreement 
for goods and services and a sole source contract for goods and 
services?
    Question 3d. Will an authorization for obtaining goods and services 
through cooperative agreements circumvent the source selection process?
    Question 3e. What type of safeguards will the National Park Service 
impose to ensure protections for delivery of goods and services under 
cooperative agreements that are currently in place in laws and 
regulations that pertain to contracts?
    Question 3f. How can S. 1365 be amended to ensure cooperative 
agreements provide equivalent safeguards that are found in laws and 
regulations that pertain to contracts?
           rocky mountain science collection center (s. 1449)
    The proposed legislation would authorize construction of a center 
for storing archeological, zoological, geological and other materials 
for the Denver Museum of Nature and Science in Denver, Colorado. The 
Federal government would pay 50% of the cost of the facility?
    Question 4a. Does the National Park Service have an existing 
relationship with the Denver Museum of Nature and Science for storing 
artifacts?
    Question 4b. Where does the National Park Service and other 
agencies currently store material collected on public lands in the 
Intermountain Region?
    Question 4c. Do the National Park Service and other bureaus of the 
Department of the Interior have an inventory of material collected on 
public lands and retained by the Denver Museum of Nature and Science? 
If so, is the Department of the Interior in a position to reclaim the 
material and store it elsewhere?
     american battlefields protection act reauthorization (s. 1921)
    Question 5a. Does S. 1921 authorize anything other than a 5-year 
extension of the time allowed to acquire property by fee or easement?
    Question 5b. Which battlefield sites are affected by S. 1921 and 
how much acreage does the National Park Service hope to acquire as a 
result of this legislation?
                 wolf house feasibility study (s. 1941)
    Question 6a. S. 1941 requires the Secretary of the Interior to 
submit to congress not later than 1 year after the date of enactment of 
this Act a report describing the results of the study. Most study bills 
give the Secretary 3 years from the date funds a made available to 
conduct the study before the results are required. Can you meet the 
one-year deadline imposed by S. 1941?
    Question 6b. What is the current condition of Wolf House and who 
owns it?
            little river canyon boundary expansion (s. 1961)
    Question 7a. How many acres are currently included within the 
boundaries of the Little River Canyon National Preserve and how many 
acres will the Secretary be authorized to add as a result of S. 1961?
    Question 7b. Are any property owners within the revised boundary 
opposed to this legislation?
    lewis & clark national historic trail extension study (s. 1991)
    Question 8a. S. 1991 requires the Secretary of the Interior to 
submit to congress not later than 2 years after funds are made 
available to conduct the study, a report describing the results of the 
study. Most study bills give the Secretary 3 years from the date funds 
a made available to conduct the study before the results are required. 
Has any of the study already been completed and can you meet the two-
year deadline imposed by S. 1991?
    Question 8b. What is the estimated distance of the trails to be 
studied if S. 1991 is enacted?
            northern plains national heritage area (s. 2098)
    Question 9a. How much Federal funding was requested in 2007 by the 
37 National Heritage Areas and how much Federal funding did DOI 
allocate to each area?
    Question 9b. The National Park Service testified that the amount of 
public interaction was inadequate to conclude that designation is 
warranted. What was the extent of public interaction for the Northern 
Plains Heritage Area Study and how much does the National Park Service 
consider adequate?
            outdoor recreation act appropriations (s. 2220)
    Question 10a. Does the National Tropical Botanical Garden currently 
receive any federal funds to operate? If so, how much, which Federal 
agency provides the funding, and how is it used?
    Question 10b. What is the current working relationship between the 
National Park Service and the National Tropical Botanical Garden?
            grand canyon subcontractor payments (h.r. 1191)
    Question 11a. Should the bill be amended in any way to prevent this 
type of incident from occurring again?
    Question 11b. What type of disciplinary action did the National 
Park Service or Department of the Interior take against the NPS 
employees involved in negotiating, executing, implementing, and 
monitoring the Grand Canyon contract that ended in default?
    Question 11c. What changes has the National Park Service made to 
contracting procedures since the prime contractor defaulted at Grand 
Canyon?
    Question 11d. Has the National Park Service experienced any 
contractor defaults similar to that at Grand Canyon? If so, how much 
money was involved and how was the situation resolved?
    Question 11e. How many construction contracts does the National 
Park Service currently have that exceed $5 million in total obligation 
and has each been reviewed to prevent a Grand Canyon-like incident from 
reoccurring?
         Questions for Katherine Stevenson From Senator Bunning
    Question 12. Mrs. Stevenson, you mention in your testimony that 
while there are many people who support S. 1991, there are many people 
who oppose this bill. I have heard nothing but positive feedback, 
ranging from individual constituents to organizations to state 
legislators. Every state in the Eastern Legacy area has seen their 
legislature pass resolutions supporting the goal of my bill. I have not 
been notified by anyone who is opposed to the bill. Has anyone 
contacted the National Park Service opposing this legislation? What 
people and groups were you talking about in your testimony?
    Question 13. Mrs. Stevenson, you said that a suitability and 
feasibility study generally takes three years from start to finish, but 
explained that with high public participation, the process could be 
completed in a shorter time frame. In the last year, every state 
legislature in the Eastern Legacy region has passed a resolution in 
favor of trail extension and pledged support for the expansion process. 
Will this level of public support provide the NPS the assistance it 
needs to complete the Eastern Legacy study quickly? Also, do you think 
previous studies by local state governments and organizations would 
make such a study less costly and time consuming to the NPS?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Jennie Forehand, Maryland State Senator, Rockville, MD, 
                               on S. 1991
    Mr. Chairman and members of the Committee, I want to thank you for 
the opportunity to be here today to discuss S.1991, the Lewis and Clark 
National Historical Trail Extension Study Act of 2007.
    Most people who are knowledgeable and interested in American 
history should know that the Lewis and Clark Corps of Discovery didn't 
just miraculously appear at the Wood River Camp on the Mississippi 
(near present-day Hartford, Illinois) and launch itself westward on 14 
May 1804.
    While the most well known part of their journey was conducted west 
of the Mississippi, the duo and their party significantly interacted 
with many towns and populations east of the Mississippi, often referred 
to as ``Eastern Legacy Sites.'' This eastern portion of their travels 
deserves much the same recognition that has been afforded to their 
western segment.
    Back east President Jefferson and others had been thinking about 
such a journey for years. Some feel that the Expedition truly started 
in Jefferson's mind at Monticello in Virginia. From there, the 
President sent Meriwether Lewis, his friend and aide, scurrying around 
the East gathering supplies, contracting for the keelboat, increasing 
his land navigation/mapping abilities, recruiting expedition members, 
and learning how to deal with medical emergencies. While doing this, 
Lewis traveled through Virginia, Maryland, West Virginia, Pennsylvania, 
Ohio, Indiana, Kentucky, and Illinois.
    All of these eastern sites have a direct relation to the famous 
expedition. And for too long they have not received adequate, official 
recognition for their role in the planning, supplying, and training 
that was necessary for the L&C journey to be a success.
    My husband and I have traveled to all the major areas associated 
with the journey. Out west, the L&C route is well marked along the 
high-ways, with special National Park Service (NPS) signs. And, there 
are wonderful interpretive centers at L&C sites, such as St. Louis 
(MO), Chamberlain and Calumet Bluff (SD), Fort Mandan (ND), Great Falls 
(MT), Pasco and Kennewick (WA), and Fort Clatsop (OR). Throughout our 
trips, we were impressed with the enthusiasm and pride exhibited by the 
local people and agencies involved in developing these centers. One can 
see how much these citizens learned and appreciated the part their 
regions contributed to American history. These centers plus many more 
tell only a part of the L&C story, including the significant role that 
American Indians had in its success.
    Our travels also included the special events and re-enactments in 
Charlottesville, Harpers Ferry, Philadelphia, Pittsburgh, Louisville, 
Evansville (Indiana), and other eastern cities during the recent L&C 
Bicentennial Celebration. Last spring we participated in unveiling an 
historical marker (near Frederick, Maryland) in memory of John Collins, 
a permanent member of the Corps of Discovery from Maryland. So you can 
see that the eastern states also merit more official NPS recognition as 
a part of the L&C National Historic Trail.
    Now the Senate Subcommittee on National Parks has an opportunity to 
correct this oversight through its support of S-1991. The passage of 
this legislation will allow the NPS to authorize a study to address the 
feasibility and suitability of establishing a National Trail 
incorporating the Lewis & Clark Eastern Legacy Sites. This is the first 
step in determining whether to create an extension of the current LCNHT 
that would follow Lewis and Clark's travels both jointly and separately 
in relation to the initial phase of the expedition, as well as their 
return segment.
    The cost of the feasibility study authorized by S-1991 should be 
minimal because primary documentation is available and will be provided 
to the NPS by the Lewis & Clark Trail Heritage Foundation, Great Falls, 
Montana. This can be supplemented from federal and state archives and 
museums, including the vast and excellent documentation gathered by the 
NPS for the Bicentennial Celebration. And the ``eastern extension'' of 
the LCNHT need not be a financial burden on the NPS, because the 
eastern states should be able to cover the costs of various markers at 
the appropriate L&C sites in their areas.
    Thank you for your time and consideration of this legislation. I 
would be delighted to answer any questions. In the words of Lewis & 
Clark:

          ``Let's proceed on'' to include the ``eastern legacy'' of 
        Lewis & Clark's journey!
                                 ______
                                 
   Statement of Timothy E. Johns, President, Director, & CEO, Bishop 
                    Museum, Honolulu, HI, on S. 2220
    Bishop Museum supports Senate Bill 2220, a bill to amend the 
Outdoor Recreation Act of 1963.
    As the Hawai`i state museum of Natural and Cultural History, Bishop 
Museum has worked collaboratively with the National Tropical Botanical 
Garden (NTBG) on conservation and cultural issues. Together we produced 
and published the Manual of the Flowering Plants of Hawai`i by Warren 
L. Wagner, Derral R. Herbst, and S. H. Sohmer. And NTBG's rough-terrain 
field botanists have been responsible for rediscovering over thirty 
species of endemic Hawaiian plants formerly thought to have been 
extinct.
    We have also worked with NTBG in the preservation of indigenous 
cultures through restoration of Piilanihale Heiau in Hana, Maui. This 
project was spearheaded by Bishop Museum anthropologist Dr. Yosihiko 
Sinoto in 1970. NTBG assumed the project in 1974. This amazing site is 
now listed National Historic Landmark by the National Park Service and 
is now fully restored because of NTBG's dedication.
    Senate Bill 2220 will provide NTBG with $1,000,000 for fiscal year 
2009 and up to $500,000 for subsequent years. The appropriation will 
help NTBG establish a much needed state-of-the-art botanical research 
center and provide future operational support for the mission critical 
work that it is doing to preserve our Nation's vanishing tropical 
flora.
    I respectfully urge that the Subcommittee support NTBG and its work 
by voting in favor of S.B. 2220. Thank you for your consideration.
                                 ______
                                 
 Statement of Sandy Bahr, Conservation Outreach Director, Sierra Club--
              Grand Canyon Chapter, Phoenix, AZ, on S. 86
    I am writing on behalf of the Sierra Club's Grand Canyon (Arizona) 
Chapter in support of Senate Bill 86, the Fossil Creek Wild and Scenic 
legislation introduced by Senator John McCain and Senator Jon Kyl.
    The Sierra Club is America's oldest, largest and most influential 
grassroots environmental organization. Inspired by nature, the Sierra 
Club's nearly 800,000 members--including more than 14,000 in Arizona--
work together to protect our communities and the planet. Sierra Club 
members and staff have worked hard to restore and protect Fossil Creek 
and participated in efforts to ensure that full flows were restored to 
the creek after decades of diversions. Our members also enjoy 
recreation in and around Fossil Creek, participate in clean up efforts 
as well as work to protect the water quality of the creek.
    Fossil Creek is a major tributary of an existing Wild and Scenic 
River--the Verde--and forms the boundary to the Coconino National 
Forest on the north, and the Tonto National Forest on the south and 
also forms the boundary between Gila and Yavapai counties. It flows 
through two congressionally designated wilderness areas--Fossil Springs 
Wilderness and the Mazatzal Wilderness--and it flows almost entirely 
within federal public lands.
    Fossil Creek flows intermittently from its headwaters to the Fossil 
Springs, where it becomes a perennial stream due to the nearly 46 cubic 
feet per second discharge from the nearly 100 spring orifices in the 
area. At the Springs is the 50-acre Fossil Springs Botanical Area where 
more than 166 plant species have been recorded including ash (Fraxinus 
velutina), alder (Alnus oblongifolia) and walnut (Juglans major). From 
the Springs, the creek then flows approximately 14.3 miles to its 
confluence with the Verde River.
    Fossil Creek is one of very few warm water perennial streams in 
Arizona that are home to an assemblage of our native fishes. Many of 
Arizona's native fishes are imperiled due to significant loss of 
habitat. Wild and Scenic designation for Fossil Creek and the 
associated protection represents an important opportunity to rejuvenate 
a native fishery and to help prevent the further decline of these 
species.
    Fossil Creek is an amazing resource for Arizona, one that deserves 
the strong protections afforded by Wild and Scenic designation. We 
strongly support S.86 and the protection of this rare jewel.
    Thank you for hearing S.86 and for your consideration of 
designating Fossil Creek as a Wild and Scenic River. We urge the 
Subcommittee to report the bill.

                                    

      

</pre></body></html>
